<html>
<title> - H.R. 3973, TO FACILITATE THE DEVELOPMENT OF ENERGY ON INDIAN LANDS BY REDUCING FEDERAL REGULATIONS THAT IMPEDE TRIBAL DEVELOPMENT OF INDIAN LANDS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
H.R. 3973, TO FACILITATE THE DEVELOPMENT OF ENERGY ON INDIAN LANDS BY 
REDUCING FEDERAL REGULATIONS THAT IMPEDE TRIBAL DEVELOPMENT OF INDIAN 
                                 LANDS

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                       SUBCOMMITTEE ON INDIAN AND
                         ALASKA NATIVE AFFAIRS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                      Wednesday, February 15, 2012

                               __________

                           Serial No. 112-94

                               __________

       Printed for the use of the Committee on Natural Resources



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
      




                  U.S. GOVERNMENT PRINTING OFFICE
72-944                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0760776847647274736f626b772964686a29">[email&#160;protected]</a>  

                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            EDWARD J. MARKEY, MA, Ranking Democratic Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Jon Runyan, NJ
Bill Johnson, OH
Mark Amodei, NV


                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
               Jeffrey Duncan, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

            SUBCOMMITTEE ON INDIAN AND ALASKA NATIVE AFFAIRS

                        DON YOUNG, AK, Chairman
                DAN BOREN, OK, Ranking Democratic Member

Tom McClintock, CA                   Dale E. Kildee, MI
Jeff Denham, CA                      Eni F.H. Faleomavaega, AS
Dan Benishek, MI                     Ben Ray Lujan, NM
Paul A. Gosar, AZ                    Colleen W. Hanabusa, HI
Raul R. Labrador, ID                 Edward J. Markey, MA, ex officio
Kristi L. Noem, SD
Doc Hastings, WA, ex officio

                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, February 15, 2012.....................     1

Statement of Members:
    Boren, Hon. Dan, a Representative in Congress from the State 
      of Oklahoma................................................     4
        Prepared statement of....................................     5
    Gosar, Hon. Paul A., a Representative in Congress from the 
      State of Arizona...........................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Cuch, Hon. Irene C., Chairwoman, Ute Tribal Business Council, 
      Ute Indian Tribe of the Uintah and Ouray Reservation, Fort 
      Duchesne, Utah.............................................    11
        Prepared statement of....................................    13
    Fox, Frederick, Administrator, Tribal Energy Department, MHA 
      Nation, New Town, North Dakota, on behalf of The Honorable 
      Tex G. Hall, Chairman, Mandan, Hidatsa, and Arikara Nation 
      of the Fort Berthold Reservation, Oral statement of........    31
    Hall, Hon. Tex G., Chairman, Mandan, Hidatsa, and Arikara 
      Nation of the Fort Berthold Reservation, Prepared statement 
      of.........................................................    33
    Groen, Wilson, President & Chief Executive Officer, Navajo 
      Nation Oil and Gas Exploration and Production, (Arizona/New 
      Mexico/Utah), Window Rock, Arizona.........................    63
        Prepared statement of....................................    64
    King, Hon. Randy, Chairman, Shinnecock Nation Board of 
      Trustees, Southampton, New York............................    56
        Prepared statement of....................................    58
        Letter of clarification submitted for the record.........    62
    Olguin, Hon. James M. ``Mike,'' Vice Chairman, Southern Ute 
      Indian Tribal Council, Southern Ute Indian Tribe, Ignacio, 
      Colorado...................................................     5
        Prepared statement of....................................     7
    Sweeney, Tara M., Senior Vice President, External Affairs, 
      Arctic Slope Regional Corporation, Anchorage, Alaska.......    53
        Prepared statement of....................................    54

Additional materials supplied:
    Crow Nation, Statement submitted for the record on H.R. 3973.    82
    Gemmill, Faith, Executive Director, Resisting Environmental 
      Destruction on Indigenous Lands (REDOIL), Letter submitted 
      for the record.............................................    86
    National Congress of American Indians, Statement submitted 
      for the record.............................................    89
    National Congress of American Indians, Resolution #PDX-11-072    92
                                     



  LEGISLATIVE HEARING ON H.R. 3973, TO FACILITATE THE DEVELOPMENT OF 
  ENERGY ON INDIAN LANDS BY REDUCING FEDERAL REGULATIONS THAT IMPEDE 
      TRIBAL DEVELOPMENT OF INDIAN LANDS, AND FOR OTHER PURPOSES.

                              ----------                              


                      Wednesday, February 15, 2012

                     U.S. House of Representatives

            Subcommittee on Indian and Alaska Native Affairs

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 11:02 a.m., in 
Room 1324, Longworth House Office Building, Hon. Paul Gosar 
presiding.
    Present: Representatives Young, Gosar, Boren, Faleomavaega, 
and Lujan.
    Mr. Gosar. The Subcommittee will come to order. The 
Chairman notes that we have a quorum, which under Committee 
Rule 3(e) is two Members.
    The Subcommittee on Indian and Alaska Native Affairs is 
meeting today to hear testimony on H.R. 3973, the Native 
American Energy Act. Under Committee Rule 4(f), opening 
statements are limited to the Chairman and the Ranking Member 
of the Subcommittee, so that we can hear from our witnesses 
more quickly. However, I ask unanimous consent to include any 
other Members' opening statements in the hearing record if 
submitted to the Clerk by the close of business today.
    [No response.]
    Mr. Gosar. Hearing no objection, so ordered.

STATEMENT OF THE HON. PAUL GOSAR, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARIZONA

    Mr. Gosar. I want to welcome today's witnesses, all of whom 
are tribes that are actively engaged in the exploration, 
development, and production of both conventional and emerging 
energy technology and resources. The Native American Energy Act 
contains common-sense measures to streamline and promote Native 
American energy and other natural resource development. It 
continues our efforts in this Congress to reduce the role of 
the Federal Government in Indian life, strengthen tribes and 
businesses, and encourages Indian peoples to make their own 
decisions and be governed by them.
    Specifically, the bill reduces bureaucratic burdens, 
reduces frivolous lawsuits that delay or prohibit critical 
economic development projects, lowers the cost on tribes to 
permit on their trust lands, and increases tribal sovereignty 
by providing additional opportunities for tribes to control 
their own destiny when it comes to energy development on their 
lands.
    This bill is a result of intensive consultation with tribes 
across the country that are involved in energy exploration, 
development, and production. It contains measures that tribes 
requested of the Committee rooted in the principle of 
increasing Native Americans' control over their lands' 
resources. These tribes know best, because they must live with 
the status quo that is stifling their economic prosperity.
    And I am particularly proud of the provision that will 
allow the Navajo Nation to assume responsibility for its 
subsurface leasing program. Given the vast supply of coal, oil, 
and natural gas on the Navajo Reservation, there is enormous 
opportunity for the Nation to create jobs and provide revenues 
for the Navajo and surrounding communities.
    Given the staggering rate of poverty and unemployment on 
the Reservation today, the question about this initiative 
should be not why, but instead: How quickly can we set this in 
motion? Facilitating this new responsibility for the Nation 
will contribute to the principles of self-determination that 
many on this Committee have worked diligently to advocate and 
advance, as well as further the economic security that our 
nation so desperately needs.
    Before I recognize the Ranking Member for any opening 
statements he may have, I would like to thank my friend, Wilson 
Groen of the Navajo Nation Oil and Gas Company. As a Member of 
Congress that represents the majority of the Navajo Nation, I 
have met with him in the past to discuss barriers to energy 
development on Native American lands. I am pleased to have him 
here testifying in support of this bill.
    Second, I want to note for the record that the Subcommittee 
invited the Secretary of the Interior, or his designee, to 
testify. The Department declined, even though the Department 
agreed to testify tomorrow in the Senate in an oversight 
hearing on Indian energy.
    This is the second time in this Congress that the 
Department has refused to testify in this committee on a bill 
for Native Americans. The first was a Subcommittee hearing on 
H.R. 887, another bill I have cosponsored with the Chairman to 
reduce the outrageous $99 million the Department agreed to take 
from the pockets of individual Indians to pay the lawyers in 
the Cobell v. Salazar settlement agreement. I am disappointed 
in the Department's disregard not only for the members of the 
Subcommittee, but for our witnesses. Many of them flew long 
distances from their homes and families to testify today.
    But I am not discouraged. Whether the Department realizes 
it or not, its failure to appear today underscores the problems 
that tribes live with every day. The Administration's failure 
to show up today will not hold up progress on this bill. 
Chairman Young and I are committed to moving this proposal 
forward quickly so Congress can provide our Native American and 
Alaska Native constituents relief from the Federal barriers 
that prohibit energy development on their land.
    If the Administration is serious about its commitment to 
encouraging economic development in Indian Country and honoring 
trust responsibilities, as the Interior Secretary Salazar 
testified today in the Full Committee's oversight hearing on 
the Fiscal Year 2013 budget, they will work with Chairman Young 
and I to ensure our bill becomes law.
    [The prepared statement of Mr. Gosar follows:]

        Statement of The Honorable Paul Gosar, a Representative 
                 in Congress from the State of Arizona

    I want to welcome today's witnesses, all of whom are tribes that 
are actively engaged in the exploration, development, and production of 
both conventional and emerging energy resources.
    The Native American Energy Act contains common-sense measures to 
streamline and promote Native American energy and other natural 
resources development.
    It continues our efforts in this Congress to reduce the role of the 
Federal government in Indian life, strengthen tribes and businesses, 
and encourages Indian people to make their own decisions and be 
governed by them.
    Specifically, the bill reduces bureaucratic burdens, reduces 
frivolous lawsuits that delay or prohibit critical economic development 
projects, lowers the cost on tribes to permit on their trust lands, and 
increases tribal sovereignty by providing additional opportunities for 
tribes to control their own destiny when it comes to energy development 
on their lands.
    This bill is a result of intensive consultation with tribes across 
the country that are involved in energy exploration, development, and 
production. It contains measures that tribes requested of the 
Committee, rooted in the principle of increasing Native Americans' 
control over their lands' resources. These tribes know best, because 
they must live with the status quo that is stifling their economic 
prosperity.
    I am particularly proud of the provision that will allow Navajo 
Nation to assume responsibility for its subsurface leasing program. 
Given the vast supply of coal, oil, and natural gas on the Navajo 
Reservation, there is enormous opportunity for the Nation to create 
jobs and provide revenues for the Navajo and surrounding communities. 
Given the staggering rate of poverty and unemployment on the 
reservation today, the question about this initiative should not be 
``why'' but instead, ``how quickly can we set this in motion''? 
Facilitating this new responsibility for the Nation will contribute to 
the principles of self determination that many on this Committee have 
worked diligently to advance, as well as further the economic and 
energy security that our nation so desperately needs.
    Before I recognize the Ranking Member for any opening statement he 
may have, I would like to thank my friend Wilson Groen of the Navajo 
Nation Oil and Gas Company. As the Member of Congress that represents 
the majority of the Navajo Nation, I have met with him in the past to 
discuss barriers to energy development on Native American lands. I am 
pleased to have him here testifying in support of the bill.
    Second, I want to note for the record that the Subcommittee invited 
the Secretary of the Interior or his designee to testify. The 
Department declined, even though the Department agreed to testify 
tomorrow in the Senate in an oversight hearing on Indian energy.
    This is the second time in this Congress that the Department has 
refused to testify in this Committee on a bill for Native Americans. 
The first was the Subcommittee's hearing on H.R. 887, another bill I 
have cosponsored with the Chairman to reduce the outrageous $99 million 
the Department agreed to take from the pockets of individual Indians, 
to pay the lawyers in the Cobell v. Salazar Settlement Agreement.
    I am disappointed in the Department's disregard not only for the 
Members of the Subcommittee, but for our witnesses. Many of them flew 
long distances from their homes and families to testify today.
    But I am not discouraged. Whether the Department realizes it or 
not, its failure to appear today underscores the problems that tribes 
live with every day.
    The Administration's failure to show up today will not hold up 
progress on this bill. Chairman Young and I are committed to moving 
this proposal forward quickly so Congress can provide our Native 
American and Alaskan Native constituents relief from federal barriers 
that prohibit energy development on THEIR land. If the Administration 
is serious about its commitment to ``encouraging economic development 
in Indian Country and honoring trust responsibilities,'' as Interior 
Secretary Salazar testified today in the full committee's oversight 
hearing on the FY2013 budget, they will work with Chairman Young and I 
to ensure our bill becomes law.
                                 ______
                                 
    Mr. Gosar. I look forward to hearing from our witnesses, 
but now would like to recognize the Ranking Member for five 
minutes.

 STATEMENT OF THE HON. DAN BOREN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF OKLAHOMA

    Mr. Boren. Thank you, Mr. Chairman. I apologize for being 
just a little bit late. Other than slow elevators, I was 
speaking with Congressman Bishop who was bragging on Chairman 
King for quite a while. So anyway, he was saying what a great 
job you are doing, and everything else, so I said, ``Oh, I have 
to get to that hearing.'' So he said to take good care of you.
    Anyway, I do want to thank you, Mr. Chairman. I wanted to 
commend Chairman Young, who I guess will be with us shortly, 
but--for keeping his promise that he made Indian Country last 
year, and that was to draft and introduce legislation that 
allows tribes to pursue energy self-determination.
    The legislation we are considering today, H.R. 3973, is a 
product of direct consultation with tribes across the country. 
It takes a number of recommendations that tribes submitted and 
seeks to address the many obstacles they face when developing 
jobs and energy resources in Indian Country.
    As reported by NCAI in their Fiscal Year 2013 Indian 
Country Budget Request--and I quote--``Even though tribes boast 
nearly a quarter of American onshore oil and gas reserves, and 
one-third of the West low-sulfur coal, existing tribal energy 
production represents less than five percent of current 
national production, due to bureaucratic and financial 
barriers.''
    With tribes willing and able to invest in the energy 
industries, these numbers are unacceptable. Tribes in Oklahoma 
have already begun exploring hydroelectric natural gas and 
biomass as a means to keep emissions down, costs low, and 
energy local. Others are looking to develop partnerships 
between state and local governments. These are the first steps. 
But we must do more to help their efforts. The President, 
Members of Congress, and the American people all recognize the 
importance of domestic energy production. Yet our tribes cannot 
get past the government red tape to push forward with this 
development.
    H.R. 3973 attempts to break through these bureaucratic 
barriers with a series of proposals to reduce the time for 
approving appraisals, requires standardization--which I think 
we are going to hear about in testimony--of DOI reference 
numbers, limit public participation in NEPA, in the NEPA review 
process, which--we all know about NEPA--and eliminate the 
collection of BLM fees on Indian lands.
    While we all celebrated the passage of the Indian Tribal 
Energy Development and Self-Determination Act in 2005, which 
authorized a variety of Federal, technical, and financial 
assistance, participating tribes, many impediments still 
remain. I want to applaud, again, our Chairman for his efforts 
to work with our tribal neighbors to remove those impediments 
with the introduction of H.R. 3973.
    Again, thank you, Mr. Chairman, and I look forward to the 
testimony.
    [The prepared statement of Mr. Boren follows:]

         Statement of The Honorable Dan Boren, Ranking Member, 
            Subcommittee on Indian and Alaska Native Affairs

    Thank you Mr. Chairman. First, I want to commend you Chairman Young 
for keeping the promise you made to Indian Country last year, to draft 
and introduce legislation that allows tribes to pursue energy self-
determination.
    The legislation we are considering today, H.R. 3973, is a product 
of direct consultation with tribes across the country. It takes a 
number of recommendations that tribes submitted and seeks to address 
the many obstacles they face when developing jobs and energy resources 
in Indian Country.
    As reported by the National Congress of American Indian in their 
Fiscal Year 2013 Indian Country budget request, ``even though Tribes 
boast nearly a quarter of American on-shore oil and gas reserves and 
one-third of the West's low-sulfur coal, existing tribal energy 
production represents less than 5 percent of current national 
production due to bureaucratic and financial barriers.'' With tribes 
willing and able to invest in the energy industries, these numbers are 
unacceptable. Tribes in Oklahoma have already begun exploring 
hydroelectric, natural gas and biomass as a means to keep emissions 
down, costs low, and energy local. Others are looking to develop 
partnerships state and local governments. These are the first steps, 
but we must do more to help their efforts. The President, Members of 
Congress, and the American people all recognize the importance of 
domestic energy production. Yet our tribes cannot get past the 
government red tape to push forward with development.
    H.R. 3973 attempts to break through these bureaucratic barriers 
with a series of proposals to reduce the time for approving appraisals; 
require standardization of DOI reference numbers; limit public 
participation in NEPA review process and eliminate the collection of 
BLM fees on Indian lands.
    While we all celebrated the passage of the Indian Tribal Energy 
Development and Self Determination Act in 2005, which authorized a 
variety of Federal technical and financial assistance of participating 
Tribes, many impediments still remain. I want to applaud you Mr. 
Chairman for efforts to work with our tribal neighbors to remove those 
impediments with the introduction of H.R. 3973.
    Thank you again for recognizing me Mr. Chairman. I want to welcome 
our Tribal leaders to today's hearing and look forward to receiving 
their testimony.
                                 ______
                                 
    Mr. Gosar. Thank you. Our witnesses today, going from left 
to right, Mr. James Olguin, Vice Chairman of the Southern Ute 
Tribal Council; Ms. Irene Cuch, Chairman of the Ute Indian 
Tribe Business Council; Frederick Fox, Administrator of the 
Tribal Energy Department, MHA Nation; Tara Sweeney, Senior Vice 
President, Arctic Slope Regional Corporation; Randall King, 
Chairman, Shinnecock Nation Board of Trustees; and finally, Mr. 
Wilson Groen, President and CEO of the Navajo Nation Oil and 
Gas Company.
    Like all our witnesses, your written testimony will appear 
in full in the hearing record. So I ask you to keep your oral 
statements to five minutes, as outlined in your invitation to 
you, and under Committee Rule 4(a).
    Our microphones are not automatic. So please press a button 
when you're ready to begin. Just to give you a little bit of 
information on our timing, once you start and you will see the 
green light, that will change to yellow at four minutes, and 
then turns to red at five. At the yellow light, start to 
summarize and culminate your remarks.
    And we will start right away with Mr. Olguin. Thank you.

STATEMENT OF JAMES M. ``MIKE'' OLGUIN, VICE CHAIRMAN, SOUTHERN 
          UTE INDIAN TRIBAL COUNCIL, IGNACIO, COLORADO

    Mr. Olguin. Good afternoon, Chairman Gosar, Ranking Member 
Boren, and members of the Subcommittee. I am Michael Olguin, 
the Vice Chairman of the Southern Ute Indian Tribe. I am 
honored to appear before you on behalf of my tribe and Tribal 
Council to provide testimony regarding H.R. 3973. I have 
submitted written testimony that covers all our comments 
regarding the legislation. But I will focus my comments today 
to the areas of the bill that are most important in our view.
    First, I commend you, Chairman Gosar, for introducing the--
or, excuse me, Chairman Young, for introducing the Native 
American Energy Act, because the bill is a positive step 
forward for Indian energy development. At Southern Ute, we have 
a proven track record of successful and responsible energy 
development. Yet we still must rely on Federal officials to 
tell us how to lease our own lands and minerals. Our primary 
comments on the bill relate to its provisions regarding 
appraisals and environmental reviews.
    Additionally, we would like to suggest a new issue be 
included in the legislation: appraisals. We strongly support 
Section 3 of H.R. 3973, which would provide greater flexibility 
in securing required appraisals for development of tribal trust 
lands. We often run into significant delays when trying to 
complete appraisals for various transactions.
    For example, our tribe's consent was requested to grant a 
right-of-way for a fiber optic cable. In exchange for the 
right-of-way the tribe asked for capacity in the cable for data 
transmission. Traditional appraisals could not effectively 
measure the value of that capacity. But our leaders knew that 
being connected would serve our government and businesses 
immensely. After long and costly delays, we secured a waiver of 
the appraisal process for that transaction. Since then, we have 
demanded similar waivers for tribal trust land transactions. 
Based on our experience and frustration, we strongly support 
the optional alternative approach to appraisals suggested in 
Section 3.
    NEPA reform. Section 5 of the proposed legislation would 
limit the categories of people who can comment through the NEPA 
process on projects proposed on tribal trust lands. Because 
many transactions taking place on these lands require Federal 
approval, NEPA's requirements must be followed, meaning the 
transactions are often delayed. As tribal leaders, we fully 
understand the environmental consequences of our actions. But 
it is unacceptable that, except for the Federal Government, we 
are the only land owners in the United States who are subject 
to NEPA with respect to our land use decisions.
    In fact, we--with regard to energy development, NEPA often 
means that other developers drain our resources from 
neighboring private land not subject to NEPA's requirements. 
Therefore, we support the changes to NEPA process proposed by 
Section 5. But we also hope that someday tribal trust lands are 
removed from the NEPA process all together.
    Proposed amendment regarding the sharing of civil 
penalties. Last, we have recently learned of an issue that we 
believe would fit nicely into H.R. 3973. Under existing Federal 
law, tribes can enter cooperative agreements with the Office of 
Natural Resources Revenue, or ONRR, to assist with the audit of 
energy leases and royalty payments. ONRR can assess civil 
penalties against those who fail to make proper payments or 
file accurate reports under applicable leases and regulations.
    If the assessment of such civil penalties is the product of 
work performed by a tribal audit team, ONRR must share such 
civil penalty proceeds on a 50/50 basis with the tribe. 
However, any civil penalty amounts shared by ONRR are then 
deducted from the amounts to be paid to the tribe under its 
cooperative agreement. This offset requirement unfairly 
punishes those tribes who have worked with the Federal 
Government to ensure responsibilities--is responsibly 
reporting.
    Therefore, we suggest amending existing Federal law so that 
the civil penalties recovered through the tribe's efforts are 
shared without deduction from the tribe's contract funding. The 
language we propose is reflected in our written comments, and I 
urge you to carefully review and consider our proposed addition 
to H.R. 3973 on this issue.
    In conclusion, thank you again for this opportunity to 
appear before you today on behalf of the Southern Ute Indian 
Tribe, and it is an honor and privilege. And we look forward to 
continuing our work with you on this important matter.
    At this point I would be happy to take any questions. Thank 
you.
    [The prepared statement of Mr. Olguin follows:]

  Statement of The Honorable James M. ``Mike'' Olguin, Vice Chairman, 
     Southern Ute Indian Tribal Council, Southern Ute Indian Tribe

I. Introduction
    Chairman Young, Ranking Member Boren and members of the 
subcommittee, I am Mike Olguin, the Vice Chairman of the Southern Ute 
Indian Tribe. I am honored to appear before you today to provide 
testimony regarding H.R. 3973. Although this proposed legislation was 
only recently introduced, it addresses a number of issues involving 
Indian energy resource development that have been under discussion for 
many months.
    The proposed Native American Energy Act is a positive step forward 
in our longstanding effort to level the playing field when it comes to 
Indian energy development. For decades our tribal leaders have appeared 
before House and Senate Committees and urged you to change existing 
laws so that tribes would have the legal power to use their lands as 
they see fit, free from the bureaucratic delays and interference 
inherent in a system that relies on federal review and approval. We are 
very grateful for your attention and efforts toward that end. This 
statement presents specific comments regarding a number of the 
legislative provisions.

II. Background
    The Southern Ute Indian Reservation consists of approximately 
700,000 acres of land located in southwestern Colorado in the Four 
Corners Region of the United States. The land ownership pattern within 
our Reservation is complex and includes tribal trust lands, allotted 
lands, non-Indian patented lands, federal lands, and state lands. Based 
in part upon the timing of issuance of homestead patents, sizeable 
portions of the Reservation lands involve split estates in which non-
Indians own the surface but the tribe is beneficial owner of oil and 
gas or coal estates. In other situations, non-Indian mineral estates 
are adjacent to tribal mineral estates. When considering energy 
resource development, these land ownership patterns have significant 
implications that range from the potential for drainage to questions of 
jurisdiction. Historically, we have established solid working 
relationships with the State of Colorado and local governmental 
entities, which have minimized conflict and emphasized cooperation.

III. The Southern Ute Indian Tribe Has Assumed Significant 
        Responsibility Over Energy Development
    Our Reservation is a part of the San Juan Basin, which has been a 
prolific source of oil and natural gas production since the 1940's. 
Commencing in 1949, our tribe began issuing leases under the 
supervision of the Secretary of the Interior. For several decades, we 
remained the recipients of modest royalty revenue, but were not engaged 
any active, comprehensive resource management planning. That changed in 
the 1970's as we and other energy resource tribes in the West 
recognized the potential importance of monitoring oil and gas companies 
for lease compliance and maintaining a watchful eye on the federal 
agencies charged with managing our resources.
    A series of events in the 1980's laid the groundwork for our 
subsequent success in energy development. In 1980, the Tribal Council 
established an in-house Energy Department, which spent several years 
gathering historical information about our energy resources and lease 
records. In 1982, following the Supreme Court's decision in Merrion v. 
Jicarilla Apache Tribe, the Tribal Council enacted a severance tax, 
which has produced more than $500 million in revenue over the last 
three decades. After Congress passed the Indian Mineral Development Act 
of 1982, we carefully negotiated mineral development agreements with 
oil and gas companies involving unleased lands and insisted upon 
flexible provisions that vested our tribe with business options and 
greater involvement in resource development.
    In 1992, we started our own gas operating company, Red Willow 
Production Company, which was initially capitalized through a 
secretarially-approved plan for use of $8 million of tribal trust funds 
received by our tribe in settlement of reserved water right claims. 
Through conservative acquisition of on-Reservation leasehold interests, 
we began operating our own wells and received working interest income 
as well as royalty and severance tax revenue. In 1994, we participated 
with a partner to purchase one of the main pipeline gathering companies 
on the Reservation. Today, our tribe is the majority owner of Red Cedar 
Gathering Company, which provides gathering and treating services 
throughout the Reservation. Ownership of Red Cedar Gathering Company 
allowed us to put the infrastructure in place to develop and market 
coalbed methane gas from Reservation lands and gave us an additional 
source of revenue. Our tribal leaders recognized that the peak level of 
on-Reservation gas development would be reached in approximately 2005, 
and, in order to continue our economic growth, we expanded operations 
off the Reservation.
    As a result of these decisions and developments, today, the 
Southern Ute Indian Tribe, through its subsidiary energy companies, 
conducts sizeable oil and gas activities in approximately 10 states and 
in the Gulf of Mexico. We are the largest employer in the Four Corners 
Region, and there is no question that energy resource development has 
put the tribe, our members, and the surrounding community on stable 
economic footing. These energy-related economic successes have resulted 
in a higher standard of living for our tribal members. Our members have 
jobs. Our educational programs provide meaningful opportunities at all 
levels. Our elders have stable retirement benefits. We have exceeded 
many of our financial goals, and we are well on the way to providing 
our children and their children the potential to maintain our tribe and 
its lands in perpetuity.
    Along the way, we have encountered and overcome numerous obstacles, 
some of which are institutional in nature. We have also collaborated 
with Congress over the decades in an effort to make the path easier for 
other tribes to take full advantage of the economic promise afforded by 
tribal energy resources. As we have stated repeatedly to anyone who 
will listen to us, ``We are the best protectors of our own resources 
and the best stewards of our own destiny; provided that we have the 
tools to use what is ours.'' The Native American Energy Act will help 
implement our longstanding goal of self determination, and we thank you 
for introducing it.

IV. Specific Comments
    A. Appraisals. Section 3 of the proposed legislation would provide 
tribes with meaningful options and reforms to the current appraisal 
process. As you know, existing regulations require the Secretary of the 
Interior to conduct appraisals in the course of reviewing proposed 
transactions affecting Indian trust lands or trust assets. While this 
practice reflects an ostensible effort to carry out the Secretary's 
trust responsibility and to ensure that Indians are not short-changed 
in land-related transactions, it has become a major bottleneck to 
Indian commerce.
    The current appraisal process imposes inordinate delays. In 
addition to near impossible staffing challenges, the appraisal 
methodologies employed in determining ``fair market value'' do not take 
into account the flexibility and creative deal-making often necessary 
to attract economic development to Indian Country. An example we often 
refer to involved our tribe's consent to granting a right-of-way for a 
fiber optic cable. As compensation for the right-of-way, we requested 
capacity in the cable for data transmission. Traditional appraisal 
methods could not effectively measure the value for compensation 
purposes of capacity in an unconstructed fiber optic cable, yet our 
leaders knew that the connectivity to our government and businesses far 
exceeded tradition dollar-per-rod compensation practices.
    Ultimately, and after considerable and costly delay, our leaders 
prevailed in obtaining a waiver of the appraisal process for that 
transaction. We have since insisted upon a general waiver of Interior 
appraisals for tribal trust land transactions on our Reservation. In 
lieu of those appraisals, we have a schedule of permission and surface 
damage compensation fees, tied to land classification categories, that 
guides us in most situations. We strongly support the optional, 
alternative approach to Interior appraisals suggested in Section 3.
    B. Standardization. Section 4 of the proposed legislation directs 
the Secretary of the Interior to implement a uniform system of 
reference numbers and tracking systems for oil and gas wells. We do not 
know the specific facts that led to this proposal. Our tribe's energy 
department has worked closely with the Bureau of Land Management and 
the Colorado Oil and Gas Conservation Commission in many aspects of 
natural gas development. Through those cooperative efforts, specific 
API numbers and well names are assigned to each permitted well, and 
that indentifying information is used by operators, governmental 
officials, and others to reference such wells. Although there may be 
exceptions to the experience we have enjoyed, we would caution against 
adopting statutory language in this section that is so broad that it 
modifies existing, standard practices that are working. Instead, more 
specific language that remedies the particular problems would appear 
preferable.
    C. Environmental Reviews of Major Federal Actions on Indian Lands. 
Section 5 of the proposed legislation would significantly reduce the 
categories of persons who would be entitled to review or comment upon 
environmental impact statements associated with major federal actions 
involving Indian lands. Because energy transactional documents 
involving Indian land generally require the approval of the Interior 
Secretary, and because such approval constitutes federal action, this 
approval process triggers compliance with the National Environmental 
Policy Act (``NEPA'').
    NEPA is a procedural statute designed to ensure that federal 
agencies evaluate alternatives to a proposed federal action, taking 
into consideration the potential environmental and social impacts of 
the alternatives and the views of the public. Except for the federal 
government, no owner of land in the United States--other than an Indian 
tribe or an Indian allottee--is subject to NEPA with respect to its 
land use transactions.
    Unlike Indian trust lands, which are owned beneficially by Indian 
tribes or Indian individuals, other federal and public lands are 
generally owned for the benefit of the public at large. Like many 
tribal representatives, our leaders have witnessed the very real 
economic harm done when NEPA blankets tribal land use decisions and 
unfairly encroaches on tribal sovereignty. To be sure, Indian tribes 
are bound to substantive environmental protection laws of general 
application when Congress has indicated its intent to bind tribes. So 
long as proposed transactions are to be performed in compliance with 
those substantive laws, however, the evaluation of multiple 
alternatives to a tribal land use decision and inclusion of the public 
in second-guessing a tribe's decision are objectionable.
    Further, in the context of energy development, the NEPA process 
severely penalizes tribes. Energy development on private lands 
adjoining tribal land does not require NEPA compliance. Thus, while 
federal officials undertake detailed evaluation of alternatives to a 
tribal energy lease, for example, oil and gas resources of tribes are 
often being drained by their neighbors. Particularly for tribes, like 
the Southern Ute Indian Tribe, with sophisticated energy and 
environmental staffs and decades of proven success, the NEPA review 
process remains frustrating and damaging.
    We are supportive of major NEPA reform involving the use of tribal 
trust lands. We were active supporters of Section 2604 of the Energy 
Policy Act of 2005 and the legislative authorization for use of 
``Tribal Energy Resource Agreements'' (``TERA''). In place of NEPA, 
Congress now permits a tribe with an approved TERA to establish a 
tribal environmental review process that allows for limited public 
participation. A TERA would also authorize a fribe to assume federal 
administrative functions related to review and operation of energy 
development on tribal lands. Just as our tribal leaders supported the 
TERA concept, we are also supportive of the public participation 
limitations proposed under Section 5 of the Native American Energy Act.
    D. Indian Energy Development Offices. Section 6 of the legislation 
directs the Interior Secretary to establish at least five multi-agency 
Indian Energy Development Offices. The Indian Energy Development 
Offices would be set up in regions of significant Indian energy 
resource activity or potential, and, through centralized staffing, the 
Indian Energy Development Offices would presumably be better able to 
handle Indian energy development than current administrative 
structures. Although the establishment of Indian Energy Development 
Offices has been advocated by others in the Indian community, we 
seriously question the need for or the long-term viability of these 
multi-agency offices. All of the administrative agencies at the 
Department of the Interior share the federal trust responsibility. With 
the exception of the Bureau of Indian Affairs, all of those offices 
also have responsibilities for activities on a variety of federal 
lands.
    Our experience indicates that when dealing with officials from non-
BIA agencies, such as the BLM or the Office of Natural Resources 
Revenue, much can be accomplished through officials held in high regard 
and occupying positions of broad authority within their agencies, who 
have an awareness and sensitivity to Indian matters. We fear that, 
because of their value to their agencies for dealing with multiple 
issues, such officials would not be the ones selected to fill positions 
in Indian Energy Development Offices. With guidance from the Secretary 
of the Interior, we believe that prioritization of Indian trust matters 
and inter-agency cooperation can be effectively addressed without the 
creation of Indian Energy Development Offices. In sum, we do not oppose 
this proposal, but we seriously question whether it would be an 
improvement over existing practice.
    E. BLM Oil and Gas Fees. Section 7 of the proposed legislation 
would prevent the BLM from imposing fees for (i) applications for 
permits to drill on Indian lands, (ii) oil and gas inspections on 
Indian lands, and (iii) nonproducing acreage on Indian lands. We 
support this legislative proposal. Energy development on Indian lands 
is already subject to a number of competitive disadvantages and 
disproportionate costs, and the imposition of the referenced fees is a 
further disincentive to energy development in Indian Country.
    F. Bonding Requirements and Nonpayment of Attorneys' Fees To 
Promote Indian Energy Projects. Section 8 of the legislation imposes 
significant hurdles and disincentives for litigants desiring to block 
Indian energy projects in court or through administrative processes. 
Although there are aspects of this proposal that we favor, we also have 
some concerns. Clearly, the object of this section is to eliminate 
frivolous challenges to proposed activities, which challenges are 
designed principally as delay tactics. Our hesitancy to support this 
measure fully, however, derives from the knowledge that, in some cases, 
challenges to energy development may not be frivolous. In that regard, 
our tribe was the plaintiff in hard-fought litigation that ended only 
after the Supreme Court ruled that we did not own the coalbed methane 
gas trapped in our coal deposits. Legitimate disputes, such as good 
faith disputes regarding ownership, should not necessarily be swallowed 
by the reforms contemplated in this section. We are continuing our 
study of this section and look forward to reviewing the thoughts of 
other witnesses and commentators.
    G. Tribal Biomass Demonstration Project; Tribal Resource Management 
Plans; and Leases of Restricted Lands For the Navajo Nation. Sections 
9, 10, and 11 of the proposed legislation contain provisions that we 
support. The tribal biomass demonstration project would encourage use 
of valuable timber resources obtainable from federal lands for energy 
purposes. Section 10 recognizes resource development activity 
undertaken under an approved tribal resource management plan as a 
federally-acknowledged sustainable management practice. Finally, 
section 11 would expand the authorization currently extended to the 
Navajo Nation to enter into leasing activities with minimal federal 
oversight. We believe that the processes in place and being proposed 
for the Navajo Nation should be considered as an option available to 
all tribes.

V. Cooperative Agreements and Civil Penalty Cost Sharing
    This portion of our testimony discusses a new issue that we hope 
will be addressed by the Subcommittee as the Native American Energy Act 
evolves: clarification regarding the sharing of civil penalties under 
the Federal Oil and Gas Royalty Management Act (``FOGRMA''). Under the 
FOGRMA, Indian tribes may enter into contracts with the Office of 
Natural Resources Revenue (``ONRR'') to conduct audit work related to 
the payment and reporting of oil and gas royalties due under federally 
approved oil and gas leases involving tribal lands. 30 U.S.C. 
Sec. Sec. 1732.
    The Southern Ute Indian Tribe and ONNR are currently parties to 
such a cooperative audit agreement, which is similar to previous 
cooperative agreements that have been in place since the late 1980s. 
One provision of FOGRMA authorizes ONRR to assess civil penalties 
against oil and gas companies who fail to make proper payments or file 
accurate reports under the applicable leases and regulations. 30 U.S.C. 
Sec. 1719. If the assessment of such civil penalties is the product of 
work performed by a tribal audit team, FOGRMA also authorizes ONRR to 
share such civil penalty proceeds on 50/50 basis with the applicable 
tribe. 30 U.S.C. 1736. The civil penalty sharing provision also states, 
however, that the portion received by a tribe ``shall be deducted from 
any compensation due such. . .Indian tribe under'' the applicable 
cooperative agreement.
    Historically, the ONRR and its predecessor agencies have not 
collected significant civil penalties from misreporting oil and gas 
companies, and, accordingly, the effect of sharing such civil penalties 
on contract funding has not been an issue. However, the issue has 
recently come to the forefront. See Decision re: Office of Natural 
Resources Revenue--Cooperative Agreements, No. B-32197 (Comptroller 
General of the United States, August 2, 2011). There appears to be a 
common recognition among participating tribes and ONRR that 
clarification is needed with respect to 30 U.S.C. Sec. 1736. In order 
to provide statutory clarity and preserve the full incentive associated 
with the sharing of civil penalties, we suggest the following statutory 
language, or materially similar language:
        SEC. ___. SHARED CIVIL PENALTIES.
                Section 206 of the Federal Oil and Gas Royalty 
                Management Act of 1982 (30 U.S.C. 1736) is amended by 
                striking the second sentence and replacing it as 
                follows: ``Within 180 days from the date of enactment 
                of this section, the Secretary shall also pay to 
                applicable tribes an amount equal to 50 per centum of 
                any civil penalty collected by the federal government 
                under this Act resulting from activities conducted by 
                an Indian tribe pursuant to a cooperative agreement 
                under section 202, not previously paid under this 
                section by the Secretary to such tribe, without 
                deduction from any compensation due such tribe under a 
                previous or currently existing cooperative agreement 
                under section 202.
    We hope that the Subcommittee will consider the proposed language 
favorably, and we look forward to working with you in discussing this 
matter further.
Conclusion
    In conclusion, I am honored to appear before you today on behalf of 
the Southern Ute Indian Tribe. We believe that our experiences have 
given us a unique perspective on matters related to energy development 
in Indian Country. We look forward to continuing our work with the 
Subcommittee on this important matter.
    At this point, I would be happy to answer any questions you may 
have.
                                 ______
                                 
    Mr. Gosar. Thank you very, very much. We are running ahead 
of time.
    Ms. Cuch, your turn.

STATEMENT OF IRENE CUCH, CHAIRWOMAN, UTE INDIAN TRIBAL BUSINESS 
                  COUNCIL, FORT DUCHESNE, UTAH

    Ms. Cuch. Good afternoon, Mr. Gosar, Ranking Member Boren, 
and members of the Subcommittee. My name is Irene Cuch. I am 
the Chairwoman of the Ute Business Committee for the Ute Indian 
Tribe. Thank you for the opportunity to testify today on H.R. 
3973. I ask that my written testimony and additional materials, 
including the tribe's legislative proposals, be made a part of 
the hearing record.
    As you know, when I testified last April during the 
Subcommittee's oversight hearing on Indian energy, I described 
the importance of oil and gas development to the tribe, and the 
barriers we face in fully developing these resources. Today I 
will spend most of my time discussing H.R. 3973. For further 
details about the tribe's oil and gas development, I ask that 
you refer to my testimony from April.
    As I described in April, our Reservation is located in the 
State of Utah, and is one of the largest in the United States. 
Oil and gas has been developed on the Reservation since the 
1940s. Today the tribe leases nearly 400,000 acres for oil and 
gas development, with some 7,000 wells producing 45,000 barrels 
a day, and about 900 million cubic feet of gas per day.
    The tribe's oil and gas development is a primary source of 
revenue to fund the Tribal Government and the services we 
provide to our members through 60 tribal departments and 
agencies. The tribe also invests in tribal businesses and is a 
major employer in energy for economic growth in Northeastern 
Utah.
    One of the tribe's businesses is Ute Energy, LLC, an oil 
and gas development company. We recently approved plans for Ute 
Energy, LLC to raise significant new sources of financial 
capital by becoming a public traded company. With this 
additional investment, improvements to the oil and gas 
permitting process are vital to the tribe's long-term economic 
success.
    The best example of the needed improvements come from the 
private sector oil and gas companies that operate on the 
tribe's Reservation. They routinely tell us that the Department 
of the Interior permitting process is the single biggest risk 
factor in their operations. We take this issue very seriously, 
because the number of permits that Interior is able to process 
is directly related to the revenues the tribe has available to 
serve its members.
    At the April 2011 hearing, Chairman Young asked witnesses 
to submit proposals to overcome barriers to Indian energy 
resource development. We developed 32 legislative proposals 
that were submitted in July of 2011, and are pleased that some 
of these are included in the bill. The tribe supports H.R. 
3973, and we believe the bill is a good start and can be 
expanded to provide more support for tribal energy development. 
The tribe supports the bill's reform to the appraisal process, 
the environmental review process, standardizing government 
tracking systems, and the elimination of BLM oil and gas fees.
    We strongly support the bill's proposal to create Indian 
energy development offices. As many in Congress have noted, the 
oil and gas permitting process is a bureaucratic maze of 
Federal agencies that it takes 49 steps to obtain 1 permit. 
Indian energy development offices would bring all of the 
agencies into the same room and would streamline processes.
    Former Senator Dorgan referred to these as one-stop shops. 
There are three one-stop shops already in Indian Country. There 
is one at Navajo, one in Oklahoma, and a virtual one-stop shop 
on a Forth Berthold Reservation in North Dakota. Senator Dorgan 
reported that the one-stop shop at Fort Berthold increases 
permit approvals by four times.
    The fact is we need 10 times as many permits to be 
approved, and would benefit from one-stop shop. Currently, 
about 48 applications for permit to drill are approved each 
year for oil and gas operations on the Reservation. We estimate 
that 458 PDs will be needed each year as we expand operations. 
A one-stop shop would encourage the Bureau of Indian Affairs to 
hire staff with energy expertise. The BIA may be the most 
important Federal agency charged with supporting Indian energy, 
yet there are only a handful of BIA employees with energy 
expertise.
    In addition, we ask that you expand the bill to include 
more of the solutions the tribes propose. I will highlight a 
few of the most important ones.
    The bill could clarify that tribes retain jurisdiction over 
any right-of-ways they are granted. Over the last 30 years 
Federal courts have treated this issue differently. The 
uncertainty in the law hinders our energy business.
    The bill must also ensure that tribes can raise tax 
revenues so that we can manage energy development. Currently, 
Federal courts allow other governments to tax energy 
development on Indian lands. This limits the tax revenues 
tribes can earn.
    As Congress looks for ways to diminish----
    Mr. Gosar. Are you just about ready to wrap that up?
    Ms. Cuch. Yes, almost. Just got--diminish the role of the 
Federal Government on Indian lands, Congress must also ensure 
that tribes can raise tax revenues.
    [The prepared statement of Ms. Cuch follows:]

   Statement of The Honorable Irene C. Cuch, Chairwoman, Ute Tribal 
     Business Committee, Ute Indian Tribe of the Uintah and Ouray 
                              Reservation

    Good afternoon Chairman Young, Ranking Member Boren, and Members of 
the Subcommittee. My name is Irene Cuch. I am the Chairwoman of the Ute 
Tribal Business Committee for the Ute Indian Tribe (``Tribe''). Thank 
you for the opportunity to testify today on H.R. 3973. I ask that my 
written testimony and additional materials including the Tribe's 
legislative proposals be made a part of the hearing record.
    As you know, when I testified last April during the Subcommittee's 
Oversight Hearing on Indian Energy, I described the importance of oil 
and gas development to the Tribe and the barriers we face in fully 
developing those resources. Today I will spend most of my time 
discussing H.R. 3973. For further details about the Tribe's oil and gas 
development, I ask that you refer to my testimony from April.
    As I described in April, our reservation is located in the State of 
Utah and is one of the largest in the United States. Oil and gas has 
been developed on the Reservation since the 1940's. Today, the Tribe 
leases nearly 400,000 acres for oil and gas development, with some 
7,000 wells producing 45,000 barrels of oil a day and about 900 million 
cubic feet of gas per day. The Tribe's oil and gas development is the 
primary source of revenue to fund our tribal government and the 
services we provide to our members through 60 tribal departments and 
agencies. The Tribe also invests in tribal businesses and is a major 
employer and engine for economic growth in northeastern Utah.
    One of the Tribe's businesses is Ute Energy, LLC--an oil and gas 
development company. We recently approved plans for Ute Energy, LLC to 
raise significant and new sources of financial capital by becoming a 
publically-traded company. With this additional investment, 
improvements to the oil and gas permitting process are vital to the 
Tribe's long-term economic success.
    The best example of the need for improvements comes from the 
private sector oil and gas companies that operate on the Tribe's 
reservation. They routinely tell us that the Department of the 
Interior's permitting process is the single biggest risk factor in 
their operations. We take this issue very seriously because the number 
of permits that Interior is able to process is directly related to the 
revenues the Tribe has available to serve its members.
    At the April 2011 hearing, Chairman Young asked witnesses to submit 
proposals to overcome barriers to Indian energy resource development. 
We developed 32 legislative proposals that were submitted in July 2011, 
and are pleased that some of these are included in the bill. The Tribe 
supports H.R. 3973, and we believe the bill is a good start and can be 
expanded to provide more support for tribal energy development.
    The Tribe supports the bill's reforms to the appraisal process, the 
environmental review process, standardizing government tracking 
systems, and the elimination of BLM oil and gas fees.
    We strongly support the bill's proposal to create Indian Energy 
Development Offices. As many in Congress have noted, the oil and gas 
permitting process is a bureaucratic maze of federal agencies, and that 
it takes 49 steps to obtain one permit. Indian Energy Development 
Offices would bring all of the agencies into the same room and would 
streamline processing.
    Former Senator Dorgan referred to these as ``one-stop shops.'' 
There are 3 one-stop shops already in Indian Country. There is one at 
Navajo, one in Oklahoma, and a virtual one-stop shop on the Fort 
Berthold Reservation in North Dakota. Senator Dorgan reported that the 
one-stop shop at Fort Berthold increased permit approvals by 4 times.
    The fact is that we need 10 times as many permits to be approved 
and would benefit from a one-stop shop. Currently, about 48 
Applications for Permits to Drill (APD) are approved each year for oil 
and gas operations on the Reservation. We estimate that 450 APDs will 
be needed each year as we expand operations.
    A one-stop shop would also encourage the Bureau of Indian Affairs 
(BIA) to hire staff with energy expertise. The BIA may be the most 
important federal agency charged with supporting Indian energy, yet 
there are only a handful of BIA employees with energy expertise.
    In addition, we ask that you expand the bill to include more of the 
solutions the Tribe proposed. I will highlight a few of the most 
important ones. The bill should clarify that tribes retain jurisdiction 
over any rights-of-way they have granted. Over the last 30 years, 
federal courts have treated this issue differently. The uncertainty in 
the law hinders our energy business.
    The bill must also ensure that tribes can raise tax revenues so 
that we can manage energy development. Currently, federal courts allow 
other governments to tax energy development on Indian lands. This 
limits the tax revenues tribes can earn. As Congress looks for ways to 
diminish the role of the federal government on Indian lands, Congress 
must also ensure that tribes can raise tax revenues.
    The Tribe also recommends amendments to the Tribal Energy Resource 
Agreement (TERA) program that was enacted in 2005. The Tribe supports 
many of the changes to the TERA program Senator Barrasso included in 
his Indian energy bill. In addition, changes should include a 
limitation on the number of times Interior can force a tribe to revise 
a TERA application.
    Finally, the bill should include set-asides for tribes in energy 
efficiency and weatherization programs. The federal government provides 
about $100 million every year to fund these programs at the state 
level. This funding should go to those who need it most, but for 
decades these programs have ignored tribes.
    In closing, I would like to thank Chairman Young, Ranking Member 
Boren and members of the Subcommittee for the opportunity to present 
this testimony on behalf of the Tribe. We stand ready to work with the 
Subcommittee to find ways to eliminate barriers to Indian energy 
development. The current barriers have a direct effect on the Tribe's 
revenues, our ability to invest in the future, and the services we are 
able to provide our members, our children and grandchildren.
    Towaok (Thank You)

                    Legislative Hearing on H.R. 3973

                  Additional Materials for the Record:

     Ute Indian Tribe's Energy Legislation Proposals, July 11, 2011

    On July 11, 2011, the Tribe submitted to Chairman Young and 
Subcommittee staff 32 legislative proposals in response to the 
Chairman's request at an April 1, 2011, Indian Energy Oversight 
Hearing, that tribes identify barriers to Indian energy development and 
propose solutions. The Tribe provides these additional materials at 
this time so that they will part of the hearing record for H.R. 3973. 
The Tribe has removed from these additional materials tax measures that 
may not be germane to this legislative hearing and other provisions 
that are already included in House and Senate Indian energy bills.

1) Delayed Royalties Due to Communitization Agreements
    Problem: Current law requires that oil and gas companies pay 
royalties on producing wells within 30 days of the first month of 
production. However, when the well is subject to a Communitization 
Agreement (CA), without any statutory or regulatory authority, the 
Bureau of Land Management (BLM) allows oil and gas companies a 90 day 
grace period before royalties are due. During this period no interest 
is due. Moreover, the 90 day grace period has been known to extend for 
a year or more.
    Proposed Solution: Where feasible, BLM should require CAs to be 
submitted at the time an Application for Permit to Drill is filed. This 
is possible where the oil and gas resource is well known. When this is 
not feasible, BLM should require that royalty payments from producing 
wells be paid within 30 days from the first month of production into an 
interest earning escrow account. Once the CA is approved the royalties, 
plus interest can be paid to the mineral owners.

2) Standardization of Procedures for Well Completion Reports and 
        Enforcement of Late Payments.
    Problem: Current regulations only require oil and gas companies to 
send well completion reports to the BLM. However, at least two other 
agencies should be aware of this information as soon as possible, the 
Bureau of Indian Affairs (BIA) and the Office of Natural Resources 
Revenue (ONRR) within the Bureau of Ocean Energy Management, Regulation 
and Enforcement (BOEMRE). In addition, upon receipt of this information 
ONRR should inform oil and gas companies of the penalties if royalties 
are not received in the required time periods, and ONRR needs to be 
reminded of its enforcement obligations.
    Proposed Solution: Require DOI to develop a regulation that 
requires oil and gas lessees to send oil and gas well completion 
reports to BLM, BIA and ONRR at the same time. Also require ONRR to 
inform oil and gas companies of penalties for late payment, and clarify 
that ONRR is required to collect penalties if payments are late.

3) Inclusion of Tribes in Well Spacing Decisions
    Problem: In most states, the BLM defers to state practices and 
forums when determining oil and gas well spacing on federal lands. The 
BLM follows this same procedure for determining spacing on Indian 
lands. Although the BLM ultimately exercises its federal authority and 
approves the oil and gas well spacing that was originally proposed in 
state forums, the BLM should more directly consult with and include 
Indian tribes in spacing determinations on their reservations.
    Proposed Solution: Where the BLM is involved in determining spacing 
units on a tribe's reservation, the BLM should be directed to enter 
into oil and gas spacing agreements with Indian tribes. These 
agreements should provide a tribe every opportunity to participate in 
and ultimately determine spacing units on its reservation.

4) Environmental Review of Energy Projects on Indian Lands
    Problem: Environmental review of energy projects on Indian land is 
often more extensive than on comparable private lands. This extensive 
review acts as a disincentive to development on Indian lands. In 
addition, federal agencies typically lack the staff and resources to 
expeditiously review a project.
    Proposed Solution: Similar to the Clean Water Act, Clean Air Act 
and others, amend the National Environmental Policy Act (NEPA) to 
include treatment as a sovereign (TAS) provisions. The new provision 
would allow a tribe to submit an application to the Council on 
Environmental Quality and once approved, federal authority for 
performing environmental reviews would be delegated to tribal 
governments.

5) Minor Source Regulation in Indian Country
    Problem: The Environmental Protection Agency (EPA) recently 
completed new regulations for issuing minor source air permits in 
Indian Country. EPA's new regulations were completed without meaningful 
consultation with tribal governments, and EPA does not have the 
necessary staff throughout Indian Country to implement the new 
regulations.
    Proposed Solution: Require EPA to delay implementation of any new 
minor source rule until after it consults with tribes on its 
implementation plan and considers the impacts. In addition, require EPA 
to ensure appropriate staffing is in place to administer any new 
permitting requirements.

6) Distributed Generation and Community Transmission
    Problem: Areas of Indian Country lack access to electric 
transmission. 1990 Census data found that 14.2 percent of Indian 
households lacked access to electric service compared to 1.4 percent of 
all U.S. households--a tenfold difference.\1\ In some areas it is not 
economically feasible to develop large transmission projects. Current 
Department of Energy (DOE) tribal energy programs are focused on 
developing the most energy for the most people. There is no program 
that emphasizes efficient distributed generation and community 
transmission.
---------------------------------------------------------------------------
    \1\ U.S. Dep't of Energy, Energy Info. Admin., Energy Consumption 
and Renewable Energy Development Potential on Indian Lands ix (April 
2000) (available at http://www.eia.doe.gov/cneaf/solar.renewables/
ilands/ilands.pdf (using information from the 1990 Decennial Census).
---------------------------------------------------------------------------
    Proposed Solution: Direct DOE to conduct no fewer than 10 
distributed energy demonstration projects to increase the energy 
resources available to Indian and Alaska Native homes, communities, and 
government buildings. Priority should be given to projects that utilize 
local resources, and reduce or stabilize energy costs.

Proposed Legislative Text:
    (a) Definition of Indian Area.--In this section, the term ``Indian 
area'' has the meaning given the term in section 4 of the Native 
American Housing Assistance and Self-Determination Act of 1996 (25 
U.S.C. 4103).
    (b) Energy Demonstration Projects.--The Secretary of Energy shall 
conduct not less than 10 distributed energy demonstration projects to 
increase the energy resources available to Indian tribes for use in 
homes and community or government buildings.
    (c) Priority.--In carrying out this section, the Secretary of 
Energy shall give priority to projects in Indian areas that--
        (1)  reduce or stabilize energy costs;
        (2)  benefit populations living in poverty;
        (3)  provide a new generation facility or distribution or 
        replacement system;
        (4)  have populations whose energy needs could be completely or 
        substantially served by projects under this section; or
        (5)  transmit electricity or heat to homes and buildings that 
        previously were not served or were underserved.
    (d) Eligible Projects.--A project under this section may include a 
project for--
         (1)  distributed generation, local or community distribution, 
        or both;
         (2)  biomass combined heat and power systems;
         (3)  municipal solid waste generation;
         (4)  instream hydrokinetic energy;
         (5)  micro-hydroelectric projects;
         (6)  wind-diesel hybrid high-penetration systems;
         (7)  energy storage and smart grid technology improvements;
         (8)  underground coal gasification systems;
         (9)  solar thermal, distributed solar, geothermal, or wind 
        generation; or
        (10)  any other project that meets the goals of this section.
    (e) Incorporation Into Existing Infrastructure.--As necessary, the 
Director shall encourage local utilities and local governments to 
incorporate demonstration projects into existing transmission and 
distribution infrastructure.
    (f) Exemptions.--
        (1)  In general.--A project carried out under this section 
        shall be exempt from all cost-sharing requirements of section 
        988 of the Energy Policy Act of 2005 (42 U.S.C. 16352).
        (2)  Applications.--An application submitted to carry out a 
        project under this section shall not be subject--
                (A)  to any maximum generation requirements; or
                (B)  to any requirements for maximizing benefits in 
                relation to the population served.
    (g) Reports.--Not later than 2 years after the date on which funds 
are made available for a project under this section, and annually 
thereafter, the Secretary shall submit to Congress a report 
describing--
        (1)  the activities carried out under the project, including an 
        evaluation of the activity; and
        (2)  the number of applications received and funded under this 
        section.

7) Surface Leasing Authority
    Problem: In general, surface leases on Indian lands are limited to 
25 years with one 25 year automatic approval allowed, however, the life 
of a typical energy project is 50 years.
    Proposed Solutions: General surface lease terms should be 
lengthened to reflect the life of energy projects. These proposals are 
limited to 50 year lease terms to avoid a lease resulting in de facto 
ownership of tribal lands by non-Indians, and because other federal 
laws governing tribal jurisdiction over tribal lands can change over 
shorter time periods and affect the authority of tribes over lessors. 
In addition, all tribes should be given the opportunity to assume BIA 
leasing responsibilities for certain kinds of surface leasing.
        a)  Amend 25 U.S.C. 415(a), known as the ``Indian Long Term 
        Leasing Act,'' to authorize Indian tribes to lease restricted 
        Indian land for not more than 50 years.
        b)  Amend 25 U.S.C. 415(e) to allow all tribes to develop 
        leasing regulations, and once approved by the Secretary, the 
        tribes may lease their lands for housing and community purposes 
        for not more than 25 years without having to obtain the 
        approval of the Secretary for each individual leases. This 
        proposal is the similar to the HEARTH Act introduced in the 
        112th Congress as S. 703 and H.R. 205.
        c)  Amend the Indian Reorganization Act (25 U.S.C. 477) to 
        authorize Section 17 Corporations to lease Indian land for not 
        more than 50 years.
Proposed Legislative Text:
    (a) Long-Term Leasing Act.--Subsection (a) of the first section of 
the Act of August 9, 1955 (25 U.S.C. 415(a)) (commonly known as the 
``Long-Term Leasing Act''), is amended--
        (1)  by striking the subsection designation and all that 
        follows through ``Any restricted'' and inserting the following:
    ``(a) Authorized Purposes; Term; Approval by Secretary.--
        ``(1) Authorized purposes.--Any restricted'';
        (2)  in the second sentence, by striking ``All leases so 
        granted'' through ``twenty five years, except'' and inserting 
        the following:
        ``(2) Term.--
                ``(A) In general.--Except as provided in subparagraph 
                (B), the term of a lease granted under paragraph (1) 
                shall be--
                        ``(i)  for a lease of tribally owned restricted 
                        Indian land, not more than 50 years; and
                        ``(ii)  for a lease of individually owned 
                        restricted Indian land, not more than 25 years.
                ``(B) Exception.--Except'';
        (3)  in the third sentence, by striking ``Leases for public'' 
        and all that follows through ``twenty-five years, and all'' and 
        inserting the following:
        ``(3) Approval by secretary.--
                ``(A) In general.--All''; and
        (4)  in the fourth sentence, by striking ``Prior to approval 
        of'' and inserting the following:
                ``(B) Requirements for approval.--Before approving''.
    (b) Approval of, and Regulations Related to, Tribal Leases.--The 
first section of the Act titled ``An Act to authorize the leasing of 
restricted Indian lands for public, religious, educational, 
recreational, residential, business, and other purposes requiring the 
grant of long-term leases'', approved August 9, 1955 (25 U.S.C. 415) is 
amended as follows:
        (1)  In subsection (d)--
                (A)  in paragraph (4), by striking ``the Navajo 
                Nation'' and inserting ``an applicable Indian tribe'';
                (B)  in paragraph (6), by striking ``the Navajo 
                Nation'' and inserting ``an Indian tribe'';
                (C)  in paragraph (7), by striking ``and'' after the 
                semicolon at the end;
                (D)  in paragraph (8)--
                          (i)  by striking ``the Navajo Nation'';
                         (ii)  by striking ``with Navajo Nation law'' 
                        and inserting ``with applicable tribal law''; 
                        and
                        (iii)  by striking the period at the end and 
                        inserting a semicolon; and
                (E)  by adding at the end the following:
         ``(9) the term `Indian tribe' has the meaning given such term 
        in section 102 of the Federally Recognized Indian Tribe List 
        Act of 1994 (25 U.S.C. 479a); and
        ``(10) the term `individually owned allotted land' means a 
        parcel of land that--
                ``(A)(i)  is located within the jurisdiction of an 
                Indian tribe; or
                        ``(ii)  is held in trust or restricted status 
                        by the United States for the benefit of an 
                        Indian tribe or a member of an Indian tribe; 
                        and
                ``(B) is allotted to a member of an Indian tribe.''.
        (2)  By adding at the end the following:
    ``(h) Tribal Approval of Leases.--
        ``(1) In general.--At the discretion of any Indian tribe, any 
        lease by the Indian tribe for the purposes authorized under 
        subsection (a) (including any amendments to subsection (a)), 
        except a lease for the exploration, development, or extraction 
        of any mineral resources, shall not require the approval of the 
        Secretary, if the lease is executed under the tribal 
        regulations approved by the Secretary under this subsection and 
        the term of the lease does not exceed--
                ``(A) in the case of a business or agricultural lease, 
                25 years, except that any such lease may include an 
                option to renew for up to 2 additional terms, each of 
                which may not exceed 25 years; and
                ``(B) in the case of a lease for public, religious, 
                educational, recreational, or residential purposes, 75 
                years, if such a term is provided for by the 
                regulations issued by the Indian tribe.
        ``(2) Allotted land.--Paragraph (1) shall not apply to any 
        lease of individually owned Indian allotted land.
        ``(3) Authority of secretary over tribal regulations.--
                ``(A) In general.--The Secretary shall have the 
                authority to approve or disapprove any tribal 
                regulations issued in accordance with paragraph (1).
                ``(B) Considerations for approval.--The Secretary shall 
                approve any tribal regulation issued in accordance with 
                paragraph (1), if the tribal regulations--
                        ``(i)  are consistent with any regulations 
                        issued by the Secretary under subsection (a) 
                        (including any amendments to the subsection or 
                        regulations); and
                        ``(ii)  provide for an environmental review 
                        process that includes--
                                ``(I) the identification and evaluation 
                                of any significant effects of the 
                                proposed action on the environment; and
                                ``(II) a process for ensuring that--
                                        ``(aa) the public is informed 
                                        of, and has a reasonable 
                                        opportunity to comment on, any 
                                        significant environmental 
                                        impacts of the proposed action 
                                        identified by the Indian tribe; 
                                        and
                                        ``(bb) the Indian tribe 
                                        provides responses to relevant 
                                        and substantive public comments 
                                        on any such impacts before the 
                                        Indian tribe approves the 
                                        lease.
        ``(4) Review process.--
                ``(A) In general.--Not later than 120 days after the 
                date on which the tribal regulations described in 
                paragraph (1) are submitted to the Secretary, the 
                Secretary shall review and approve or disapprove the 
                regulations.
                ``(B) Written documentation.--If the Secretary 
                disapproves the tribal regulations described in 
                paragraph (1), the Secretary shall include written 
                documentation with the disapproval notification that 
                describes the basis for the disapproval.
                ``(C) Extension.--The deadline described in 
                subparagraph (A) may be extended by the Secretary, 
                after consultation with the Indian tribe.
        ``(5) Federal environmental review.--Notwithstanding paragraphs 
        (3) and (4), if an Indian tribe carries out a project or 
        activity funded by a Federal agency, the Indian tribe shall 
        have the authority to rely on the environmental review process 
        of the applicable Federal agency rather than any tribal 
        environmental review process under this subsection.
        ``(6) Documentation.--If an Indian tribe executes a lease 
        pursuant to tribal regulations under paragraph (1), the Indian 
        tribe shall provide the Secretary with--
                ``(A) a copy of the lease, including any amendments or 
                renewals to the lease; and
                ``(B) in the case of tribal regulations or a lease that 
                allows for lease payments to be made directly to the 
                Indian tribe, documentation of the lease payments that 
                are sufficient to enable the Secretary to discharge the 
                trust responsibility of the United States under 
                paragraph (7).
        ``(7) Trust responsibility.--
                ``(A) In general.--The United States shall not be 
                liable for losses sustained by any party to a lease 
                executed pursuant to tribal regulations under paragraph 
                (1).
                ``(B) Authority of secretary.--Pursuant to the 
                authority of the Secretary to fulfill the trust 
                obligation of the United States to the applicable 
                Indian tribe under Federal law (including regulations), 
                the Secretary may, upon reasonable notice from the 
                applicable Indian tribe and at the discretion of the 
                Secretary, enforce the provisions of, or cancel, any 
                lease executed by the Indian tribe under paragraph (1).
        ``(8) Compliance.--
                ``(A) In general.--An interested party, after 
                exhausting of any applicable tribal remedies, may 
                submit a petition to the Secretary, at such time and in 
                such form as the Secretary determines to be 
                appropriate, to review the compliance of the applicable 
                Indian tribe with any tribal regulations approved by 
                the Secretary under this subsection.
                ``(B) Violations.--If, after carrying out a review 
                under subparagraph (A), the Secretary determines that 
                the tribal regulations were violated, the Secretary may 
                take any action the Secretary determines to be 
                necessary to remedy the violation, including rescinding 
                the approval of the tribal regulations and reassuming 
                responsibility for the approval of leases of tribal 
                trust lands.
                ``(C) Documentation.--If the Secretary determines that 
                a violation of the tribal regulations has occurred and 
                a remedy is necessary, the Secretary shall--
                        ``(i)  make a written determination with 
                        respect to the regulations that have been 
                        violated;
                        ``(ii)  provide the applicable Indian tribe 
                        with a written notice of the alleged violation 
                        together with such written determination; and
                        ``(iii)  prior to the exercise of any remedy, 
                        the rescission of the approval of the 
                        regulation involved, or the reassumption of 
                        lease approval responsibilities, provide the 
                        applicable Indian tribe with--
                                ``(I) a hearing that is on the record; 
                                and
                                ``(II) a reasonable opportunity to cure 
                                the alleged violation.
        ``(9) Savings clause.--Nothing in this subsection shall affect 
        subsection (e) or any tribal regulations issued under that 
        subsection.''.
    (c) Indian Reorganization Act.--Section 17 of the Act of June 18, 
1934 (25 U.S.C. 477) (commonly known as the ``Indian Reorganization 
Act'') is amended in the second sentence by striking ``twenty-five'' 
and inserting ``50''

8) Partnership with Federal Power Marketing Agencies
    Problem: Despite the enormous potential for generating traditional 
and renewable energy on Indian lands, in many cases, the nation is 
unable to utilize these resources because they are in remote locations 
far from population centers where additional energy is needed.
    Proposed Solution: Require Federal Power Marketing Agencies, 
including the Western Area Power Administration and the Bonneville 
Power Administration, to treat energy generated on Indian lands as 
federal energy generated or acquired by the United States for the 
purposes of transmitting and marketing such energy. This solution would 
promote the development of traditional and renewable energy projects on 
tribal lands, and allow the nation to benefit from additional domestic 
energy supplies. In addition, this solution would provide some 
compensation through the promotion of tribal energy projects to Indian 
tribes whose lands were flooded or taken for the generation of federal 
energy.

Proposed Legislative Text:
    Title XXVI of the Energy Policy Act of 1992 (2512 U.S.C. 3501) is 
amended, by adding at the end a new section:
    Section XXXX. Classification of Indian Energy.
    (a) In General.--The Western Area Power Administration, the 
Bonneville Power Administration, and all other Federal Power Marketing 
agencies and related agencies shall consider energy generated on Indian 
lands the same as federal energy generated or acquired by the United 
States for the purposes of transmitting and marketing such energy.

9) Duplicative Review of Tribal Energy Resource Agreements
    Problem: The Energy Policy Act of 2005 provided clear standards for 
the Secretary to assess in approving an application for a tribal energy 
resource agreement. These standards do not include or require review 
under NEPA. However, the Department of Interior's regulations require 
that a TERA application be reviewed under NEPA.
    Proposed Solution: Clarify that Secretarial approval of a TERA 
includes only the standards expressed in the Energy Policy Act of 2005 
and does not include review under NEPA.

Proposed Legislative Text:
    Section 2604 of the Energy Policy Act of 1992 (25 U.S.C. 3504) is 
amended by adding at the end the following--
    ``Secretarial Review.--In determining whether to approve a tribal 
energy resource agreement submitted in accordance with this section, 
the Secretary shall only rely on the standards set forth in Title V of 
the Energy Policy Act of 2005. The Secretary's review shall not include 
compliance with the National Environmental Policy Act.

10) Tribal Jurisdiction Over Rights-of-Way
    Problem: Tribal jurisdiction over some rights-of-way has been 
limited by federal case law. Without clear jurisdictional authority 
over rights-of-way tribal governments are unable to provide for the 
health, safety, and welfare of reservation lands, and state and county 
governments do not have the resources to provide these services. 
Legislation is needed to clarify that Indian tribes retain their 
inherent sovereign authority and jurisdiction for any rights-of-way 
across Indian lands.
    Proposed Solution: Clarify the law to state that Indian tribes 
retain their inherent jurisdiction over any rights-of-way across Indian 
lands.

Proposed Legislative Text:
    Notwithstanding any other provision of law, Indian tribes retain 
inherent sovereignty and jurisdiction over Indian and non-Indian 
activities on any rights-of-way across Indian land granted for any 
purpose.

11) Need for Tax Revenues
    Problem: In addition to taxes levied by Indian tribes, a variety of 
other governments attempt to tax energy activities on Indian lands. In 
some cases, the other governments levying the taxes earn more from the 
project than the tribal government. Dual and triple taxation is a 
disincentive to energy development on Indian lands and results in 
decreased revenues for tribal governments. Just to encourage 
development, many tribes are unable to impose their own taxes or can 
only impose partial taxes. When tribes are not able to collect taxes on 
energy development, tribal governments lack the revenues to fund staff 
and tribal agencies to effectively oversee energy activities and tribes 
will remain dependent on federal funding and programs.
    Proposed Solution: Limit other governments from taxing energy 
projects on tribal lands. If limited taxation is allowed by other 
governments, they should only be able to tax a project to the extent 
needed to cover any impacts from the project on that government's 
infrastructure.

Proposed Legislative Text:
    (a) In General.--Indian tribes have exclusive authority to levy or 
require all assessments, taxes, fees, or levies for energy activities 
on Indian lands.
    (b) Reimbursement for Services.--State and other local governments 
may enter into agreements with Indian tribes for reimbursement of 
services provided by the state or local government that are a directly 
related to the energy activities on Indian lands. Indian tribes, state 
and local governments are directed to negotiate in good faith in 
developing such agreements. Any agreement under this section may be 
reviewed for accuracy by the Secretary of the Interior.
    (c) Definitions.--For the purposes of this section, the terms 
``Indian tribe'' and ``Indian land'' have the meaning given the terms 
in section 2601 of the Energy Policy Act of 1992 (25 U.S.C. 3501).

12) Indian Tribal Energy Loan Guarantee Program.
    Problem: Despite the success of federal loan guarantee programs, 
DOE has not implemented the Indian Energy Loan Guarantee Program from 
the Energy Policy Act of 2005. This significant loan guarantee program 
is needed to help tribes finance energy projects.
    Proposed Solution: Require DOE to implement the program in the same 
way that the Energy Policy Act required a national non-Indian loan 
guarantee program (the Title XVII program) to be implemented. The Title 
XVII program required DOE to develop regulations establishing the 
program and providing for its implementation. Once the program was 
established, then appropriations were provided by Congress to fund the 
program.
Proposed Legislative Text:
    Section 2602(c) of the Energy Policy Act of 1992 (25 U.S.C. 
3502(c)) is amended--
        (1)  in paragraph (1)--
                (A)  by striking the paragraph designation and all that 
                follows through ``may provide'' and inserting the 
                following:
        ``(1) Requirement.--Subject to paragraph (4), not later than 1 
        year after the date of enactment of the Indian Energy Parity 
        Act of 2010, the Secretary of Energy shall provide''; and
                (B)  by striking ``any loan made to an Indian tribe for 
                energy development'' and inserting ``such loans made to 
                Indian tribes or tribal energy development 
                organizations for energy development, energy 
                transmission projects, or the integration of energy 
                resources as the Secretary determines to be 
                appropriate'';
        (2)  in paragraph (3), by striking the paragraph designation 
        and all that follows through ``made by--'' and inserting the 
        following:
        ``(3) Eligible providers of loans.--A loan for which a loan 
        guarantee is provided under this subsection shall be made by--
        '';
        (3)  in paragraph (4)--
                (A)  by striking ``(4) The aggregate'' and inserting 
                the following:
        ``(4) Limitations.--
                ``(A) Aggregate outstanding amount.--The aggregate''; 
                and
                (B)  by adding at the end the following:
                ``(B) Specific appropriation or contribution.--No loan 
                guarantee may be provided under this subsection 
                unless--
                        ``(i)  an appropriation for the cost of the 
                        guarantee has been made; or
                        ``(ii)  the Secretary of Energy has--
                                ``(I) received from the borrower a 
                                payment in full for the cost of the 
                                obligation; and
                                ``(II) deposited the payment into the 
                                Treasury.'';
        (4)  in paragraph (5), by striking the paragraph designation 
        and all that follows through ``may issue'' and inserting the 
        following:
        ``(5) Regulations.--The Secretary of Energy shall promulgate''; 
        and
        (5)  in paragraph (7), by striking ``1 year after the date of 
        enactment of this section'' and inserting ``2 years after the 
        date of enactment of the Indian Energy Parity Act of 2010''.

13) Coordination of Agency Funding and Programs
    Problem: Funding for Indian energy activities is spread across many 
agencies. Individual funding sources are typically too small to meet 
the financial needs of developing energy projects. Tribal 
administration costs are increased because each agency requires 
different application and reporting requirements.
    Proposed Solution: Allow tribes to integrate and coordinate energy 
funding from the departments of Agriculture, Commerce, Energy, EPA, 
Housing and Urban Development (HUD), Interior, Labor and Transportation 
to ensure efficient use of existing federal funding. The proposal is 
modeled after the successful Pub.L.102-477 employment training 
integration program. The proposal would allow individual agencies to 
retain discretion over approval of individual projects.

Proposed Legislative Text:
    (a) Definitions.--In this section:
        (1)  Agency.--The term ``agency'' has the meaning given the 
        term in section 551 of title 5, United States Code.
        (2)  Agency leader.--The term ``Agency leader'' means 1 or more 
        of the following:
                (A)  The Secretary of Agriculture.
                (B)  The Secretary of Commerce.
                (C)  The Secretary of Energy.
                (D)  The Secretary of Housing and Urban Development.
                (E)  The Administrator of the Environmental Protection 
                Agency.
                (F)  The Secretary of the Interior.
                (G)  The Secretary of Labor.
                (H)  The Secretary of Transportation.
        (3)  Tribal energy development organization.--The term ``tribal 
        energy development organization'' has the meaning given the 
        term in section 2601 of the Energy Policy Act of 1992 (25 
        U.S.C. 3501).
    (b) Single Integrated Program.--
        (1)  In general.--An Indian tribe or tribal energy development 
        organization may submit to the Secretary, and to applicable 
        Agency leaders, a plan to fully integrate into a single, 
        coordinated, comprehensive program federally funded energy-
        related activities and programs (including programs for 
        employment training, energy planning, financing, construction, 
        and related physical infrastructure and equipment).
        (2)  No additional requirements.--The Agency leaders shall not 
        impose any additional requirement or condition, additional 
        budget, report, audit, or supplemental audit, or require 
        additional documentation from, an Indian tribe or tribal energy 
        development organization that has satisfied the plan criteria 
        described in subsection (c).
        (3)  Procedure.--
                (A)  In general.--On receipt of a plan of an Indian 
                tribe or a tribal energy development organization 
                described in paragraph (1) that is in a form that the 
                Secretary determines to be acceptable, the Secretary 
                shall consult with the applicable Agency leaders to 
                determine whether the proposed use of programs and 
                services is in accordance with the eligibility rules 
                and guidelines on the use of agency funds.
                (B)  Integration.--If the Secretary and the applicable 
                Agency leaders make a favorable determination pursuant 
                to subparagraph (A), the Secretary shall authorize the 
                Indian tribe or tribal energy development 
                organization--
                         (i)  to integrate and coordinate the programs 
                        and services described in paragraph (4) into a 
                        single, coordinated, and comprehensive program; 
                        and
                        (ii)  to reduce administrative costs by 
                        consolidating administrative functions.
        (4)  Description of activities.--The activities referred to in 
        paragraph (1) are federally funded energy-related activities 
        and programs (including programs for employment training, 
        energy planning, financing, construction, and related physical 
        infrastructure and equipment), including--
                (A)  any program under which an Indian tribe or tribal 
                energy development organization is eligible to receive 
                funds under a statutory or administrative formula;
                (B)  activities carried out using any funds an Indian 
                tribe or members of the Indian tribe are entitled to 
                under Federal law; and
                (C)  activities carried out using any funds an Indian 
                tribe or a tribal energy development organization may 
                secure as a result of a competitive process for the 
                purpose of planning, designing, constructing, 
                operating, or managing a renewable or nonrenewable 
                energy project on Indian land.
        (5)  Inventory of affected programs.--
                (A)  Reports.--Not later than 90 days after the date of 
                enactment of this Act, the Agency leaders shall--
                          (i)  conduct a survey of the programs and 
                        services of the agency that are or may be 
                        included in the plan of an Indian tribe or 
                        tribal energy development organization under 
                        this subsection;
                         (ii)  provide a description of the eligibility 
                        rules and guidelines on the manner in which the 
                        funds under the jurisdiction of the agency may 
                        be used; and
                        (iii)  submit to the Secretary a report 
                        identifying those programs, services, rules, 
                        and guidelines.
                (B)  Publication.--Not later than 60 days after the 
                date of receipt of each report under subparagraph (A), 
                the Secretary shall publish in the Federal Register a 
                comprehensive list of the programs and services 
                identified in the reports.
    (c) Plan Requirements.--A plan submitted by an Indian tribe or 
tribal energy development organization under subsection (b) shall--
        (1)  identify the activities to be integrated;
        (2)  be consistent with the purposes of this section regarding 
        the integration of the activities in a demonstration project;
        (3)  describe--
                (A)  the manner in which services are to be integrated 
                and delivered; and
                (B)  the expected results of the plan;
        (4)  identify the projected expenditures under the plan in a 
        single budget;
        (5)  identify each agency of the Indian tribe to be involved in 
        the administration of activities or delivery of the services 
        integrated under the plan;
        (6)  address any applicable requirements of the Agency leaders 
        for receiving funding from the federally funded energy-related 
        activities and programs under the jurisdiction of the Agency 
        leaders, respectively;
        (7)  identify any statutory provisions, regulations, policies, 
        or procedures that the Indian tribe recommends to be waived to 
        implement the plan, including any of the requirements described 
        in paragraph (6); and
        (8)  be approved by the governing body of the affected Indian 
        tribe.
    (d) Approval Process.--
        (1)  In general.--Not later than 90 days after the receipt of a 
        plan of an Indian tribe or tribal energy development 
        organization, the Secretary and applicable Agency leaders shall 
        coordinate a single response to inform the Indian tribe or 
        tribal energy development organization in writing of the 
        determination to approve or disapprove the plan, including any 
        request for a waiver that is made as part of the plan.
        (2)  Plan disapproval.--Any issue preventing approval of a plan 
        under paragraph (1) shall be resolved in accordance with 
        subsection (e)(3).
    (e) Plan Review; Waiver Authority; Dispute Resolution.--
        (1)  In general.--On receipt of a plan of an Indian tribe or 
        tribal energy development organization, the Secretary shall 
        consult regarding the plan with--
                (A)  the applicable Agency leaders; and
                (B)  the governing body of the applicable Indian tribe.
        (2)  Identification of waivers.--
                (A)  In general.--In carrying out the consultation 
                described in paragraph (1), the Secretary, the 
                applicable Agency leaders, and the governing body of 
                the applicable Indian tribe shall identify the 
                statutory, regulatory, and administrative requirements, 
                policies, and procedures that must be waived to enable 
                the Indian tribe or tribal energy development 
                organization to implement the plan.
                (B)  Waiver authority.--Notwithstanding any other 
                provision of law, the applicable Agency leaders may 
                waive any applicable regulation, administrative 
                requirement, policy, or procedure identified under 
                subparagraph (A) in accordance with the purposes of 
                this section.
                (C)  Tribal request to waive.--In consultation with the 
                Secretary and the applicable Agency leaders, an Indian 
                tribe may request the applicable Agency leaders to 
                waive a regulation, administrative requirement, policy, 
                or procedure identified under subparagraph (A).
                (D)  Declination of waiver request.--If the applicable 
                Agency leaders decline to grant a waiver requested 
                under subparagraph (C), the applicable Agency leaders 
                shall provide to the requesting Indian tribe and the 
                Secretary written notice of the declination, including 
                a description of the reasons for the declination.
        (3)  Dispute resolution.--
                (A)  In general.--The Secretary, in consultation with 
                the Agency leaders, shall develop dispute resolution 
                procedures to carry out this section.
                (B)  Procedures.--If the Secretary determines that a 
                declination is inconsistent with the purposes of this 
                section, or prevents the Department from fulfilling the 
                obligations under subsection (f), the Secretary shall 
                establish interagency dispute resolution procedures 
                involving--
                         (i)  the participating Indian tribe or tribal 
                        energy development organization; and
                        (ii)  the applicable Agency leaders.
        (4)  Final decision.--In the event of a failure of the dispute 
        resolution procedures under paragraph (3), the Secretary shall 
        inform the applicable Indian tribe or tribal energy development 
        organization of the final determination not later than 180 days 
        after the date of receipt of the plan.
    (f) Responsibilities of Department.--
        (1)  Memorandum of agreement.--Not later than 180 days after 
        the date of enactment of this Act, the Secretary and the Agency 
        leaders shall enter into an interdepartmental memorandum of 
        agreement that shall require and include--
                (A)  an annual meeting of participating Indian tribes, 
                tribal energy development organizations, and Agency 
                leaders, to be co-chaired by a representative of the 
                President and a representative of the participating 
                Indian tribes and tribal energy development 
                organizations;
                (B)  an annual review of the achievements made under 
                this section and statutory, regulatory, administrative, 
                and policy obstacles that prevent participating Indian 
                tribes and tribal energy development organizations from 
                fully carrying out the purposes of this section;
                (C)  a forum comprised of participating Indian tribes, 
                tribal energy development organizations, and agencies 
                to identify and resolve interagency or Federal-tribal 
                conflicts that occur in carrying out this section; and
                (D)  the dispute resolution procedures required by 
                subsection (e)(3).
        (2)  Department responsibilities.--The responsibilities of the 
        Department include--
                (A)  in accordance with paragraph (3), developing a 
                model single report for each approved plan of an Indian 
                tribe or tribal energy development organization 
                regarding the activities carried out and expenditures 
                made under the plan;
                (B)  providing, subject to the consent of an Indian 
                tribe or tribal energy development organization with an 
                approved plan under this section, technical assistance 
                either directly or pursuant to a contract;
                (C)  developing a single monitoring and oversight 
                system for the plans approved under this section;
                (D)  receiving and distributing all funds covered by a 
                plan approved under this section; and
                (E)  conducting any required investigation relating to 
                a waiver or an interagency dispute resolution under 
                this section.
        (3)  Model single report.--The model single report described in 
        paragraph (2)(A) shall--
                (A)  be developed by the Secretary, in accordance with 
                the requirements of this section; and
                (B)  together with records maintained at the Indian 
                tribal level regarding the plan of the Indian tribe or 
                tribal resource development organization, contain such 
                information as would allow a determination that the 
                Indian tribe or tribal energy development 
                organization--
                         (i)  has complied with the requirements 
                        incorporated in the applicable plan; and
                        (ii)  will provide assurances to each 
                        applicable agency that the Indian tribe or 
                        tribal energy development organization has 
                        complied with all directly applicable statutory 
                        and regulatory requirements.
    (g) No Reduction, Denial, or Withholding of Funds.--No Federal 
funds may be reduced, denied, or withheld as a result of participation 
by an Indian tribe or tribal energy development organization in the 
program under this section.
    (h) Interagency Fund Transfers.--
        (1)  In general.--If a plan submitted by an Indian tribe or 
        tribal energy development organization under this section is 
        approved, the Secretary and the applicable Agency leaders shall 
        take all necessary steps to effectuate interagency transfers of 
        funds to the Department for distribution to the Indian tribe or 
        tribal energy development organization.
        (2)  Coordinated agency action.--As part of an interagency 
        transfer under paragraph (1), the applicable Agency leader 
        shall provide the Department a 1-time transfer of all required 
        funds by not later than October 1 of each applicable fiscal 
        year.
        (3)  Agencies not authorized to withhold funds.--If a plan is 
        approved under this section, none of the applicable Agency 
        leaders may withhold funds for the plan.
                        (i)  Administration; Recordkeeping; Overage.--
        (1)  Administration of funds.--
                (A)  In general.--The funds for a plan under this 
                section shall be administered in a manner that allows 
                for a determination that funds from a specific program 
                (or an amount equal to the amount attracted from each 
                program) shall be used for activities described in the 
                plan.
                (B)  Separate records not required.--Nothing in this 
                section requires an Indian tribe or tribal energy 
                development organization--
                         (i)  to maintain separate records relating to 
                        any service or activity conducted under the 
                        applicable plan for the program under which the 
                        funds were authorized; or
                        (ii)  to allocate expenditures among those 
                        programs.
        (2)  Administrative expenses.--
                (A)  Commingling.--Administrative funds for activities 
                under a plan under this section may be commingled.
                (B)  Entitlement.--An Indian tribe or tribal energy 
                development organization shall be entitled to the full 
                amount of administrative costs for the activities of a 
                plan under this section, in accordance with applicable 
                regulations.
                (C)  Overages.--No overage of administrative costs for 
                the activities of a plan under this section shall be 
                counted for Federal audit purposes, if the overage is 
                used for the purposes described in this section.
    (j) Single Audit Act.--Nothing in this section interferes with the 
ability of the Secretary to fulfill the responsibilities for the 
safeguarding of Federal funds pursuant to chapter 75 of title 31, 
United States Code (commonly known as the ``Single Audit Act'').
    (k) Training and Technical Assistance.--
        (1)  In general.--The Department, with the participation and 
        assistance of the Agency leaders, shall conduct activities for 
        technical assistance and training relating to plans under this 
        section, including--
                (A)  orientation sessions for Indian tribal leaders;
                (B)  workshops on planning, operations, and procedures 
                for employees of Indian tribes;
                (C)  training relating to case management, client 
                assessment, education and training options, employer 
                involvement, and related topics; and
                (D)  the development and dissemination of training and 
                technical assistance materials in printed form and over 
                the Internet.
        (2)  Administration.--To effectively administer the training 
        and technical assistance activities under this subsection, the 
        Department shall collaborate with an Indian tribe that has 
        experience with federally funded energy-related activities and 
        programs (including programs for employment training, energy 
        planning, financing, construction, and related physical 
        infrastructure and equipment).

14) Tribal Economic Development Bonds
    Problem: Section 1402 of the American Recovery and Reinvestment Act 
of 2009, P.L. 115-5, 123 Stat. 115 (2009) authorized tribal governments 
to issue, on a temporary basis, tribal economic development bonds (TED 
Bonds) without satisfying the essential government function test. The 
bond limitation was set at $2 billion. The allocation of these bonds 
has been completed.
    Proposed Solution: Permanently repeal the ``essential government 
function'' test currently applied by the Internal Revenue Service (IRS) 
to tribes who wish to issue tax exempt bonds. On a recurring annual 
basis, have a TED Bond allocation available to Tribes. Reallocate any 
unused allocation on a yearly basis.

15) Hypothecation of Coal Resources.
    Problem: Many tribes and individual Indians own mineral rights to 
subsurface coal on split estates where non-Indians own the surface 
rights. To realize the benefit of the coal resources without affecting 
the environment or disturbing the non-Indian surface estates, tribes 
need to be able to hypothecate the coal resources in situ. Through 
hypothecation, tribes could pledge their coal resources as collateral 
to secure debts and obtain loans without having to extract the coal.
    Proposed Solution: Clarify the law to specifically allow for the 
hypothecation of coal resources.
Proposed Legislative Text:
    (a) PURPOSES.--The purposes of this section are -
        (1)  To ensure that Indian tribes and individual Indians are 
        able to fully benefit from their coal resources in accordance 
        with the Indian Mineral Leasing Act of 1938 (25 U.S.C. 396a-
        396g), the Indian Mineral Development Act of 1982 (25 U.S.C. 
        2101-2108) and other provisions of law that advance those Acts; 
        and
        (2)  To ensure undiminished protection of the environment and 
        the protection of surface owners under existing split estates.
    (b) REVIEW--Notwithstanding any other law, Congress hereby 
authorizes Indian tribes and individual Indians to hypothecate their 
coal mineral interests in situ that tribes or individual Indians own 
within the boundaries of their reservations.

16) Study on Transmission Infrastructure and Access
    Problem: Historically Federal and state electric transmission 
planning overlooked or ignored energy generation potential on Indian 
lands. Consequently, energy projects on tribal lands lack access to 
high voltage transmission.
    Proposed Solution: Direct DOE to conduct a study of the electric 
generation potential on Indian lands and related transmission needs. 
The study should involve Indian tribes, federal agencies, and 
transmission providers and utilities operating in and around Indian 
country.

Proposed Legislative Text:
    (a) Study.--
        (1)  In general.--The Secretary of Energy, in consultation with 
        Indian tribes, intertribal organizations, the Secretary of the 
        Interior, the Federal Energy Regulatory Commission, the Federal 
        power marketing administrations, regional transmission 
        operators, national, regional, and local electric transmission 
        providers, electric utilities, electric cooperatives, electric 
        utility organizations, and other interested stakeholders, shall 
        conduct a study to assess--
                (A)  the potential for electric generation on Indian 
                land and on the Outer Continental Shelf adjacent to 
                Indian land, from renewable energy resources; and
                (B)  the electrical transmission needs relating to 
                carrying that energy to the market.
        (2)  Requirements.--The study under paragraph (1) shall--
                (A)  identify potential energy generation resources on 
                Indian land and on the Outer Continental Shelf adjacent 
                to Indian land, from renewable energy resources;
                (B)  identify existing electrical transmission 
                infrastructure on, and available to provide service to, 
                Indian land;
                (C)  identify relevant potential electric transmission 
                routes and paths that can carry electricity generated 
                on Indian land to loads;
                (D)  assess the capacity and availability of 
                interconnection of existing electrical transmission 
                infrastructure;
                (E)  identify options to ensure tribal access to 
                electricity, if the development of transmission 
                infrastructure to reach tribal areas is determined to 
                be unfeasible;
                (F)  identify regulatory, structural, financial, or 
                other obstacles that Indian tribes encounter or would 
                encounter in attempting to develop energy transmission 
                infrastructure or connect with existing electrical 
                transmission infrastructure; and
                (G)  make recommendations for legislation to help 
                Indian tribes overcome the obstacles identified under 
                subparagraph (F).
    (b) Report.--Not later than 1 year after the date of enactment of 
this Act, the Secretary shall submit to Congress a report describing 
the results of the study under subsection (a).

17) Tribal Energy Efficiency
    Problem: There are no ongoing programs to support tribal energy 
efficiency efforts. DOE's longstanding State Energy Program supporting 
energy efficiency efforts at the state level does not include tribes.
    Proposed Solution: Direct DOE to allocate not less than 5 percent 
of existing state energy efficiency funding to establish a grant 
program for Indian tribes interested in conducting energy efficiency 
activities for their lands and buildings. Funding should be provided in 
a manner similar to successful Energy Efficiency Block Grant Program to 
promote projects and simplify reporting requirements.

Proposed Legislative Text:
    Part D of title III of the Energy Policy and Conservation Act (42 
U.S.C. 6321 et seq.) is amended by adding at the end the following:
    ``(a) Definition of Indian Tribe.--In this section, the term 
`Indian tribe' has the meaning given the term in section 4 of the 
Indian Self-Determination and Education Assistance Act (25 U.S.C. 
450b).
    ``(b) Purpose.--The purpose of the grants provided under subsection 
(d) shall be to assist Indian tribes in implementing strategies--
        ``(1) to reduce fossil fuel emissions created as a result of 
        activities within the jurisdictions of eligible entities in a 
        manner that--
                ``(A) is environmentally sustainable; and
                ``(B) to the maximum extent practicable, maximizes 
                benefits for Indian tribes and tribal members;
        ``(2) to increase the energy efficiency of Indian tribes and 
        tribal members; and
        ``(3) to improve energy efficiency in--
                ``(A) the transportation sector;
                ``(B) the building sector; and
                ``(C) other appropriate sectors.
    ``(c) Tribal Allocation.--Of the amount of funds authorized to be 
appropriated for each fiscal year under section 365(f) to carry out 
this part, the Secretary shall allocate not less than 5 percent of the 
funds for each fiscal year to be distributed to Indian tribes in 
accordance with subsection (d).
    ``(d) Grants.--Of the amounts available for distribution under 
subsection (c), the Secretary shall establish a competitive process for 
providing grants under this section that gives priority to projects 
that--
        ``(1) increase energy efficiency and energy conservation rather 
        than new energy generation projects;
        ``(2) integrate cost-effective renewable energy with energy 
        efficiency;
        ``(3) move beyond the planning stage and are ready for 
        implementation;
        ``(4) clearly articulate and demonstrate the ability to achieve 
        measurable goals;
        ``(5) have the potential to make an impact in the government 
        buildings, infrastructure, communities, and land of an Indian 
        tribe; and
        ``(6) maximize the creation or retention of jobs on Indian 
        land.
    ``(e) Use of Funds.--An Indian tribe may use a grant received under 
this section to carry out activities to achieve the purposes described 
in subsection (b), including--
        ``(1) the development and implementation of energy efficiency 
        and conservation strategies;
        ``(2) the retention of technical consultant services to assist 
        the Indian tribe in the development of an energy efficiency and 
        conservation strategy, including--
                ``(A) the formulation of energy efficiency, energy 
                conservation, and energy usage goals;
                ``(B) the identification of strategies to achieve the 
                goals--
                        ``(i)  through efforts to increase energy 
                        efficiency and reduce energy consumption; and
                        ``(ii)  by encouraging behavioral changes among 
                        the population served by the Indian tribe;
                ``(C) the development of methods to measure progress in 
                achieving the goals;
                ``(D) the development and publication of annual reports 
                to the population served by the eligible entity 
                describing--
                        ``(i)  the strategies and goals; and
                        ``(ii)  the progress made in achieving the 
                        strategies and goals during the preceding 
                        calendar year; and
                ``(E) other services to assist in the implementation of 
                the energy efficiency and conservation strategy;
        ``(3) the implementation of residential and commercial building 
        energy audits;
        ``(4) the establishment of financial incentive programs for 
        energy efficiency improvements;
        ``(5) the provision of grants for the purpose of performing 
        energy efficiency retrofits;
        ``(6) the development and implementation of energy efficiency 
        and conservation programs for buildings and facilities within 
        the jurisdiction of the Indian tribe, including--
                ``(A) the design and operation of the programs;
                ``(B) the identification of the most effective methods 
                of achieving maximum participation and efficiency 
                rates;
                ``(C) the education of the members of an Indian tribe;
                ``(D) the measurement and verification protocols of the 
                programs; and
                ``(E) the identification of energy efficient 
                technologies;
        ``(7) the development and implementation of programs to 
        conserve energy used in transportation, including--
                ``(A) the use of--
                        ``(i)  flextime by employers; or
                        ``(ii)  satellite work centers;
                ``(B) the development and promotion of zoning 
                guidelines or requirements that promote energy-
                efficient development;
                ``(C) the development of infrastructure, including bike 
                lanes, pathways, and pedestrian walkways;
                ``(D) the synchronization of traffic signals; and
                ``(E) other measures that increase energy efficiency 
                and decrease energy consumption;
        ``(8) the development and implementation of building codes and 
        inspection services to promote building energy efficiency;
        ``(9) the application and implementation of energy distribution 
        technologies that significantly increase energy efficiency, 
        including--
                ``(A) distributed resources; and
                ``(B) district heating and cooling systems;
        ``(10) the implementation of activities to increase 
        participation and efficiency rates for material conservation 
        programs, including source reduction, recycling, and recycled 
        content procurement programs that lead to increases in energy 
        efficiency;
        ``(11) the purchase and implementation of technologies to 
        reduce, capture, and, to the maximum extent practicable, use 
        methane and other greenhouse gases generated by landfills or 
        similar sources;
        ``(12) the replacement of traffic signals and street lighting 
        with energy-efficient lighting technologies, including--
                ``(A) light-emitting diodes; and
                ``(B) any other technology of equal or greater energy 
                efficiency;
        ``(13) the development, implementation, and installation on or 
        in any government building of the Indian tribe of onsite 
        renewable energy technology that generates electricity from 
        renewable resources, including--
                ``(A) solar energy;
                ``(B) wind energy;
                ``(C) fuel cells; and
                ``(D) biomass; and
        ``(14) any other appropriate activity, as determined by the 
        Secretary, in consultation with--
                ``(A) the Secretary of the Interior;
                ``(B) the Administrator of the Environmental Protection 
                Agency;
                ``(C) the Secretary of Transportation;
                ``(D) the Secretary of Housing and Urban Development; 
                and
                ``(E) Indian tribes.
    ``(f) Grant Applications.--
        ``(1) In general.--
                ``(A) Application.--To apply for a grant under this 
                section, an Indian tribe shall submit to the Secretary 
                a proposed energy efficiency and conservation strategy 
                in accordance with this paragraph.
                ``(B) Contents.--A proposed strategy described in 
                subparagraph (A) shall include a description of--
                        ``(i)  the goals of the Indian tribe for 
                        increased energy efficiency and conservation in 
                        the jurisdiction of the Indian tribe;
                        ``(ii)  the manner in which--
                                ``(I) the proposed strategy complies 
                                with the restrictions described in 
                                subsection (e); and
                                ``(II) a grant will allow the Indian 
                                tribe fulfill the goals of the proposed 
                                strategy.
        ``(2) Approval.--
                ``(A) In general.--The Secretary shall approve or 
                disapprove a proposed strategy under paragraph (1) by 
                not later than 120 days after the date of submission of 
                the proposed strategy.
                ``(B) Disapproval.--If the Secretary disapproves a 
                proposed strategy under paragraph (1)--
                        ``(i)  the Secretary shall provide to the 
                        Indian tribe the reasons for the disapproval; 
                        and
                        ``(ii)  the Indian tribe may revise and 
                        resubmit the proposed strategy as many times as 
                        necessary, until the Secretary approves a 
                        proposed strategy.
                ``(C) Requirement.--The Secretary shall not provide to 
                an Indian tribe a grant under this section until a 
                proposed strategy is approved by the Secretary.
        ``(3) Limitations on use of funds.--Of the amounts provided to 
        an Indian tribe under this section, an Indian tribe may use for 
        administrative expenses, excluding the cost of the reporting 
        requirements of this section, an amount equal to the greater 
        of--
                ``(A) 10 percent of the administrative expenses; or
                ``(B) $75,000.
        ``(4) Annual report.--Not later than 2 years after the date on 
        which funds are initially provided to an Indian tribe under 
        this section, and annually thereafter, the Indian tribe shall 
        submit to the Secretary a report describing--
                ``(A) the status of development and implementation of 
                the energy efficiency and conservation strategy; and
                ``(B) to the maximum extent practicable, an assessment 
                of energy efficiency gains within the jurisdiction of 
                the Indian tribe.''.

18) Weatherization of Indian Homes
    Problem: Under current law, Indian tribes are supposed to receive 
federal weatherization funding through state programs funded by DOE. 
However, very little weatherization funding reaches Indian tribes 
despite significant weatherization needs. If a tribe wants to receive 
direct funding from DOE, it must prove to DOE that it is not receiving 
funding that is equal to what the state is providing its non-Indian 
population. Currently, out of 565 federally recognized tribes, only two 
tribes and one tribal organization receive direct weatherization 
funding from DOE.
    Proposed Solution: Pursuant to the federal government's government-
to-government relationship with Indian tribes, DOE should directly fund 
tribal weatherization programs. Training programs should also be 
supported to ensure availability of energy auditors in Indian Country.
Proposed Legislative Text:
    Section 413 of the Energy Conservation and Production Act (42 
U.S.C. 6863) is amended by striking subsection (d) and inserting the 
following:
    ``(d) Direct Grants to Indian Tribes for Weatherization of Indian 
Homes.--
        ``(1) Definitions.--In this subsection:
                ``(A) Indian area.--The term `Indian area' has the 
                meaning given the term in section 4 of the Native 
                American Housing Assistance and Self-Determination Act 
                of 1996 (25 U.S.C. 4103).
                ``(B) Indian tribe.--The term `Indian tribe' has the 
                meaning given the term in section 4 of the Indian Self-
                Determination and Education Assistance Act (25 U.S.C. 
                450b).
        ``(2) In general.--Of the amounts made available for each 
        fiscal year to carry out the Weatherization Assistance Program 
        for Low-Income Persons established under part A of title IV, 
        the Secretary shall allocate for Indian tribes not less than 10 
        percent.
        ``(3) Regulations.--
                ``(A) Proposed regulations.--Not later than 90 days 
                after the date of enactment of the Indian Energy Parity 
                Act of 2010, the Secretary, after consulting with the 
                Secretary of the Interior, the Secretary of Housing and 
                Urban Development, the Secretary of Health and Human 
                Services, the Secretary of Labor, Indian tribes, and 
                intertribal organizations, shall publish in the Federal 
                Register proposed regulations to carry out this 
                subsection.
                ``(B) Final regulations.--
                        ``(i)  In general.--Not later than 120 days 
                        from the date of enactment of the Indian Energy 
                        Parity Act of 2010, the Secretary shall 
                        promulgate final regulations to carry out this 
                        subsection, taking into consideration the 
                        comments submitted in response to the 
                        publication of the proposed regulations 
                        described in subparagraph (A).
                        ``(ii)  Criteria.--Final regulations 
                        promulgated by the Secretary to carry out this 
                        subsection shall--
                                ``(I) provide a formula or process for 
                                ensuring that weatherization funding is 
                                available for any Indian tribe that 
                                submits a qualifying weatherization 
                                funding application under paragraph 
                                (4)(C);
                                ``(II) promote efficiency in carrying 
                                out this subsection by the Secretary 
                                and Indian tribes; and
                                ``(III) consider--
                                        ``(aa) the limited resources of 
                                        Indian tribes to carry out this 
                                        subsection;
                                        ``(bb) the unique 
                                        characteristics of housing in 
                                        Indian areas; and
                                        ``(cc) the remoteness of Indian 
                                        areas.
        ``(4) Allocation of funding.--
                ``(A) In general.--The Secretary shall provide 
                financial assistance to an Indian tribe from the 
                amounts provided under paragraph (2), if the Indian 
                tribe submits to the Secretary a weatherization funding 
                application.
                ``(B) Contents.--A weatherization funding application 
                described in subparagraph (A) shall--
                        ``(i)  describe--
                                ``(I) the estimated number and 
                                characteristics of the persons and 
                                dwelling units to be provided 
                                weatherization assistance; and
                                ``(II) the criteria and methods to be 
                                used by the Indian tribe in providing 
                                the weatherization assistance; and
                        ``(ii)  contain any other information 
                        (including information needed for evaluation 
                        purposes) and assurances that are required 
                        under regulations promulgated by the Secretary 
                        to carry out this section.
                ``(C) Qualifying weatherization funding.--A 
                weatherization funding application that meets the 
                criteria under subparagraph (B) shall be considered a 
                qualifying weatherization funding application.
                ``(D) Initial distribution of funding.--The Secretary 
                shall distribute funding under this subsection to 
                Indian tribes that submit qualifying weatherization 
                funding applications--
                        ``(i)  on the basis of the relative need for 
                        weatherization assistance; and
                        ``(ii)  taking into account--
                                ``(I) the number of dwelling units to 
                                be weatherized;
                                ``(II) the climatic conditions 
                                respecting energy conservation, 
                                including a consideration of annual 
                                degree days;
                                ``(III) the type of weatherization work 
                                to be done;.
                                ``(IV) any data provided in the most 
                                recent version of the Bureau of Indian 
                                Affairs American Indian Population and 
                                Labor Force Report prepared pursuant to 
                                Public Law 102-477 (106 Stat. 2302), or 
                                if not available, any similar 
                                publication; and
                                ``(V) any other factors that the 
                                Secretary determines to be necessary, 
                                including the cost of heating and 
                                cooling, in order to carry out this 
                                section.
                ``(E) Competitive grants.--For each fiscal year, if any 
                amounts remain available after the initial distribution 
                of funding described in subparagraph (D), the Secretary 
                shall solicit applications for grants from Indian 
                tribes--
                        ``(i)  to carry out weatherization projects and 
                        weatherization training;
                        ``(ii)  to supply weatherization equipment; and
                        ``(iii)  to develop tribal governing capacity 
                        to carry out a weatherization program 
                        consistent with this subsection.
                ``(F) Remaining funding.--For each fiscal year, if any 
                amounts remain available after distribution under 
                subparagraphs (D) and (E), the amounts shall remain 
                available to fulfill the purpose of this subsection in 
                subsequent fiscal years.
                ``(G) Renewal of qualifying weatherization funding 
                applications.--
                        ``(i)  In general.--To achieve maximum 
                        efficiency in the allocation of funding, an 
                        Indian tribe that submits a qualifying 
                        weatherization funding application may request 
                        that the weatherization funding application of 
                        the Indian tribe be renewed in subsequent 
                        fiscal years.
                        ``(ii)  Contents.--A request to renew a 
                        qualifying weatherization funding application 
                        shall contain such information as the Secretary 
                        determines to be necessary to achieve 
                        efficiency in the allocation of funding under 
                        this subsection.
        ``(5) Use of funds.--
                ``(A) In general.--An Indian tribe shall use funds 
                provided under paragraph (4) to carry out 
                weatherization and energy conservation activities that 
                benefit the members of an Indian tribe in Indian areas.
                ``(B) Eligible activities.--The weatherization and 
                energy conservation activities described in 
                subparagraph (A) include--
                        ``(i)  the provision of existing services under 
                        this section;
                        ``(ii)  the acquisition and installation of 
                        energy-efficient windows and doors and heating 
                        and cooling equipment; or
                        ``(iii)  the repair, replacement, or insulation 
                        of floors, walls, roofs, and ceilings.
                ``(C) Applicability of requirements.--
                        ``(i)  In general.--Notwithstanding any other 
                        provision of law, the use of funds under this 
                        paragraph by an Indian tribe shall be subject 
                        only to--
                                ``(I) the requirements of this 
                                subsection; and
                                ``(II) implementing regulations of the 
                                Department of Energy.
                        ``(ii)  Other requirements of act.--In 
                        accordance with the government-to-government 
                        and trust relationships between the United 
                        States and Indian tribes, the income, energy 
                        audit, grant limitation, and other 
                        administrative and eligibility requirements of 
                        this Act shall not apply to the use of funds 
                        under this paragraph by an Indian tribe.
        ``(6) Report.--Not later than 90 days after the closing date of 
        each applicable project year, each Indian tribe that receives 
        funds under this subsection shall submit to the Secretary a 
        simple outcome report that describes, for that project year--
                ``(A) each activity carried out by the Indian tribe 
                under this subsection, including the amounts used for 
                each such activity;
                ``(B) the number of Indian households benefitted by the 
                activities of the Indian tribe under this subsection; 
                and
                ``(C) the estimated savings in energy costs realized in 
                the communities served by the Indian tribe.
        ``(7) Training and technical assistance.--The Secretary shall 
        carry out technical assistance and training activities relating 
        to weatherization under this subsection, including--
                ``(A) orientation sessions for Indian tribes;
                ``(B) workshops on planning, operations, and procedures 
                for Indian tribes to use the funding provided under 
                this subsection;
                ``(C) training relating to carrying out weatherization 
                projects; and
                ``(D) the development and dissemination of training and 
                technical assistance materials in printed form and over 
                the Internet.''.

19) Hydroelectric Licensing Preferences
    Problem: Section 7(a) of the Federal Power Act (16 U.S.C. 800(a)) 
provides a preference to states and municipalities, but not tribes, 
when applying for hydroelectric preliminary permits and original 
licenses.
    Proposed Solution: Provide tribes with the same preference as 
states and municipalities.

Proposed Legislative Text:
    Section 7(a) of the Federal Power Act (16 U.S.C. 800(a)) is 
amended--
        (1)  by striking ``In issuing'' and inserting ``(1) In 
        general.--In issuing''; and
        (2)  in paragraph (1) (as so designated)--
                (A)  by striking ``States and municipalities'' and 
                inserting ``States, Indian tribes, and 
                municipalities''; and
                (B)  by adding at the end the following:
        ``(2) Definition of indian tribe.--In this section, the term 
        `Indian tribe' has the meaning given the term in section 4 of 
        the Indian Self-Determination and Education Assistance Act (25 
        U.S.C. 450b).''.

20) Department of Energy Laboratories Technical Assistance
    Problem: DOE's national laboratories have extensive research and 
technical expertise that is underutilized by Indian tribes.
    Proposed Solution: Encourage DOE's national laboratories to reach 
out to Indian tribes and make research, training, and expertise more 
accessible to Indian tribes.

Proposed Legislative Text:
    Section 2602(b) of the Energy Policy Act of 1992 (25 U.S.C. 
3502(b)) is amended--
        (1)  by redesignating paragraphs (3) through (6) as paragraphs 
        (4) through (7), respectively; and
        (2)  by inserting after paragraph (2) the following:
        ``(3) Technical and scientific resources.--In addition to 
        providing grants to Indian tribes under this subsection, the 
        Secretary shall collaborate with the Directors of the National 
        Laboratories in making the full array of technical and 
        scientific resources of the Department of Energy available for 
        tribal energy activities and projects.''
                                 ______
                                 
    Mr. Gosar. Thank you.
    Ms. Cuch. OK.
    Mr. Gosar. Mr. Fox?

   STATEMENT OF FREDERICK FOX, ADMINISTRATOR, TRIBAL ENERGY 
   DEPARTMENT, MHA NATION, NEW TOWN, NORTH DAKOTA<plus-minus>

    Mr. Fox. Good afternoon, Chairman Gosar and members of the 
Subcommittee. My name is Fred Fox, and I am the Administrator 
of the Mandan, Hidatsa, and Arikara Nation Tribal Energy 
Department. Chairman Hall regrets that he could not be here to 
testify on this issue of grave importance. I am honored to 
present this testimony on his behalf, and ask that my written 
testimony and additional materials be included in the hearing.
    Chairman Hall testified last April December [sic] during 
this Subcommittee's hearing on Indian energy. As you will 
recall, the Fort Berthold Reservation is located in the heart 
of the Bakken Formation, which is the largest continuous oil 
accumulation in the lower 48 states. In 2008, the United States 
Geological Survey estimated the Bakken Formation contains 
between 3 billion and 4.3 billion barrels of oil. Today the 
Bakken Formation is the most active oil and gas play in the 
United States.
    We continue to work on many of the same issues in Chairman 
Hall's April testimony, including streamlining the oil and gas 
permitting process, insufficient Federal staffing, and the 
Environment Protection Agency's recent decision to require air 
permits for wells on our Reservation. Of all of the challenges, 
the biggest issue we face is the inequitable division of tax 
revenues within the state.
    Under the current law, states can tax energy companies on 
the Reservation lands. Because of the state taxes, we cannot 
raise enough of our own tax revenue to provide the 
infrastructure needed to support and regulate the growing 
energy industry. We need Congress to affirm exclusive authority 
of tribes to raise tax revenues to the Reservation, so that we 
can rely on the same revenues that state government uses to 
maintain infrastructure and support economic activity.
    For example, we need to maintain roads so that heavy 
equipment can reach drilling locations, but also so that our 
tribal members can safely get to school and get to work. I 
brought two pictures that show how industry has devastated our 
roads.
    We also need to provide increased law enforcement to 
protect tribal members and the growing population of oil 
workers. We need to develop tribal codes, employ tribal staff 
to regulate activities on the Reservation. For example, we 
developed a code to prevent dumping of hazardous waste, but we 
also need to hire staff to enforce the code. The laws that 
restrict our ability to raise tax revenues force us to govern 
with one hand tied behind our back.
    It is not fair, and our homelands are suffering the 
consequences. To avoid dual state and tribal taxation that 
would have driven energy companies off the Reservation, we were 
forced into a lopsided tax agreement with the state. Three 
years later, the state is sitting on surpluses while we 
struggle to make ends meet.
    In the current fiscal year, the state will have a $1 
billion budget surplus, and create a $1.2 billion investment 
account for future infrastructure needs. We have current needs, 
and our tax revenue should not be going into a state investment 
account. We actually agree with what State Governor Dalrymple 
said earlier this year. The number one priority is to keep up 
with infrastructure. Growth cannot continue if we do not keep 
up with all of the impact that happens on the communities out 
there.
    Apparently, the Governor was not talking about the tribal 
communities. In 2011, the state collected more than $60 million 
in tax revenue from the Reservation. But the state expended 
less than $2 million toward the maintenance of the state and 
county roads on the Reservation. In 2012, the state is expected 
to make $112 million in tax revenues from our Reservation.
    We agree with Chairman Young it would be good to get the 
Bureau of Indian Affairs out of the way. But the tax revenues 
that our government rely on--our tribal governments will never 
have the staff and resources to run permitting programs, 
especially in the complicated area of energy development. 
Without the laws that support tribal taxing authority, we will 
always be subject to the bureaucratic Federal permit approval 
process.
    This is the perspective we take when we assess H.R. 3973. 
We support many of the provisions in the bill, and we ask that 
more be included to ensure that tribes can exercise self-
determination and energy development. We support changes in the 
bill to the appraisal process, standardizing lease permitting, 
limiting participants in the environmental review process to 
the affected area, eliminating BLM and oil and gas fees, and 
providing formal authority of Indian Energy Development Office.
    In addition, we ask that you expand the bill to include 
provisions that will allow MHA Nation to develop the legal and 
physical infrastructure necessary to support the growing energy 
industry on the Reservation. Most important, the bill should 
affirm have exclusive authority to raise taxes from activities 
on Indian lands. The authority is essential for tribal 
governments to exercise self-determination over our energy 
resources. We cannot ask to take over more responsibilities for 
Federal Government without the ability to raise the revenues 
needed to support those responsibilities.
    In conclusion, I want to thank Chairman Gosar and the 
members of the Subcommittee for the opportunity to highlight 
the most significant issues the MHA Nation faces as we promote 
and manage the development of our energy resources.
    [The prepared statement of Chairman Hall follows:]

           Statement of The Honorable Tex G. Hall, Chairman, 
  Mandan, Hidatsa and Arikara Nation of the Fort Berthold Reservation

    Good morning Chairman Young and Members of the Subcommittee. My 
name is Fred Fox. I am the Administrator of the Mandan, Hidatsa and 
Arikara Nation's (MHA Nation) Tribal Energy Department. Chairman Hall 
regrets that he could not be here to testify on this issue of great 
importance. I am honored to present this testimony on his behalf.
    Chairman Hall testified last April during the Subcommittee's 
hearing on Indian energy. As you will recall, the Fort Berthold 
Reservation is located in the heart of the Bakken Formation which is 
the largest continuous oil accumulation in the lower 48 states. In 
2008, the United States Geological Survey estimated that the Bakken 
Formation contains between 3 billion and 4.3 billion barrels of oil. 
Today the Bakken Formation is the most active oil and gas play in the 
United States.
    We continue to work on many of the same issues raised in Chairman 
Hall's April testimony including streamlining the oil and gas 
permitting process, insufficient federal staffing, and the 
Environmental Protection Agency's recent decision to require air 
permits for wells on our Reservation.
    Of all of the challenges, the biggest issue we face is the 
inequitable division of tax revenues with the State. Under current law, 
states can tax energy companies on Reservation lands. Because of these 
state taxes, we cannot raise enough of our own tax revenue to provide 
the infrastructure needed to support and regulate the growing energy 
industry. We need Congress to affirm the exclusive authority of tribes 
raise tax revenues on the Reservation so that we can rely on the same 
revenues that state governments use to maintain infrastructure and 
support economic activity.
    For example, we need to maintain roads so that heavy equipment can 
reach drilling locations, but also so that our tribal members can 
safely get to school or work. I have brought two pictures that show how 
the industry has devastated our roads.
    We also need to provide increased law enforcement to protect tribal 
members and the growing population of oil workers. And, we need to 
develop tribal codes and employ tribal staff to regulate activities on 
the Reservation. For example, we developed a code to prevent dumping of 
hazardous waste, but we also need to hire staff to enforce the code.
    The laws that restrict our ability to raise tax revenues force us 
to govern with one hand tied behind out back. It is not a fair fight 
and our homelands are suffering the consequences.
    To avoid dual state and tribal taxation that would have driven 
energy companies off the Reservation, we were forced into a lopsided 
tax agreement with the State. Three years later, the State is sitting 
on surpluses while we struggle to make ends meet.
    In the current fiscal year the State will have a $1 billion budget 
surplus and created a $1.2 billion investment account for future 
infrastructure needs. We have current needs and our tax revenues should 
not be going into a State investment account.
    We actually agree with what State Governor Dalrymple said earlier 
this year, ``The number one priority is to keep up with infrastructure. 
. .growth cannot continue if we do not keep up with all of the impact 
that happens on communities out there.''
    Apparently, the Governor was not talking about tribal communities. 
In 2011, the State collected more than $60 million in tax revenue from 
the Reservation, but the State expended less than $2 million toward the 
maintenance of state and county roads on the Reservation. In 2012, the 
State is expected to make $100 million in tax revenues from our 
Reservation.
    We agree with Chairman Young, it would be good to get the Bureau of 
Indian Affairs out of the way. But, without the tax revenues that other 
governments rely on, tribal governments will never have the staff and 
resources to run permit programs--especially in the complicated area of 
energy development. Without laws that support tribal taxing authority, 
we will always be subject to the bureaucratic federal permit approval 
process.
    This is the perspective we take when we assess H.R. 3973. We 
support many of the provisions in the bill and we ask that more be 
included to ensure that tribes can exercise self-determination in the 
area of energy development.
    We support changes in the bill to the appraisal process, 
standardizing lease numbers, limiting participants in the environmental 
review process to the affected area, eliminating BLM oil and gas fees, 
and providing formal authority for Indian Energy Development Offices.
    In addition to these, we ask that you expand the bill to include 
provisions that will allow the MHA Nation to develop the legal and 
physical infrastructure necessary to support the growing energy 
industry on the Reservation. Most important, the bill should affirm 
that tribes have exclusive authority to raise taxes from activities on 
Indian lands. This authority is essential for tribal governments to 
exercise self-determination over our energy resources. We cannot be 
asked to take over more responsibilities for the federal government 
without the ability to raise the revenues needed to support those 
responsibilities.
    We also need to clarify tribal jurisdiction over Reservation 
activities and any rights-of-way granted by an Indian tribe. Courts 
have created uncertainty in the law and this uncertainty is yet another 
disincentive to the energy business.
    MHA Nation is also blessed with some of the windiest lands in the 
Nation. To develop this resource we need to be able to use tax credits 
and the Western Area Power Authority should treat tribal power as 
federal power so that we have access to the existing transmission grid 
to get this energy to the cities that need it.
    Finally, the bill should include tribes in federal energy 
efficiency and weatherization programs.
    In conclusion, I want to thank Chairman Young and the members of 
the Subcommittee for the opportunity to highlight the most significant 
issues the MHA Nation faces as we promote and manage the development of 
our energy resources.

[GRAPHIC] [TIFF OMITTED] T2944.004

[GRAPHIC] [TIFF OMITTED] T2944.005

                                 __
                                 

 Legislative Proposals Submitted by the MHA Nation to the Subcommittee 
                           on July 18, 2011:

    Proposals That Would Change the Tax Code and Proposals Already 
            Appearing in Introduced Bills Have Been Omitted

1) Delayed Royalties Due to Communitization Agreements
    Problem: Current law requires that oil and gas companies pay 
royalties on producing wells within 30 days of the first month of 
production. However, when the well is subject to a Communitization 
Agreement (CA), without any statutory or regulatory authority, the 
Bureau of Land Management (BLM) allows oil and gas companies a 90 day 
grace period before royalties are due. During this period no interest 
is due. Moreover, the 90 day grace period has been known to extend for 
a year or more.
    Proposed Solution: Where feasible, BLM should require CAs to be 
submitted at the time an Application for Permit to Drill is filed. This 
is possible where the oil and gas resource is well known. When this is 
not feasible, BLM should require that royalty payments from producing 
wells be paid within 30 days from the first month of production into an 
interest earning escrow account. Once the CA is approved the royalties, 
plus interest can be paid to the mineral owners.

2) Standardization of Procedures for Well Completion Reports and 
        Enforcement of Late Payments.
    Problem: Current regulations only require oil and gas companies to 
send well completion reports to the BLM. However, at least two other 
agencies should be aware of this information as soon as possible, the 
Bureau of Indian Affairs (BIA) and the Office of Natural Resources 
Revenue (ONRR) within the Bureau of Ocean Energy Management, Regulation 
and Enforcement (BOEMRE). In addition, upon receipt of this information 
ONRR should inform oil and gas companies of the penalties if royalties 
are not received in the required time periods, and ONRR needs to be 
reminded of its enforcement obligations.
    Proposed Solution: Require DOI to develop a regulation that 
requires oil and gas lessees to send oil and gas well completion 
reports to BLM, BIA and ONRR at the same time. Also require ONRR to 
inform oil and gas companies of penalties for late payment, and clarify 
that ONRR is required to collect penalties if payments are late.

3) Inclusion of Tribes in Well Spacing Decisions
    Problem: In most states, the BLM defers to state practices and 
forums when determining oil and gas well spacing on federal lands. The 
BLM follows this same procedure for determining spacing on Indian 
lands. Although the BLM ultimately exercises its federal authority and 
approves the oil and gas well spacing that was originally proposed in 
state forums, the BLM should more directly consult with and include 
Indian tribes in spacing determinations on their reservations.
    Proposed Solution: Where the BLM is involved in determining spacing 
units on a tribe's reservation, the BLM should be directed to enter 
into oil and gas spacing agreements with Indian tribes. These 
agreements should provide a tribe every opportunity to participate in 
and ultimately determine spacing units on its reservation.

4) Environmental Review of Energy Projects on Indian Lands
    Problem: Environmental review of energy projects on Indian land is 
often more extensive than on comparable private lands. This extensive 
review acts as a disincentive to development on Indian lands. In 
addition, federal agencies typically lack the staff and resources to 
expeditiously review a project.
    Proposed Solution: Similar to the Clean Water Act, Clean Air Act 
and others, amend the National Environmental Policy Act (NEPA) to 
include treatment as a sovereign (TAS) provisions. The new provision 
would allow a tribe to submit an application to the Council on 
Environmental Quality and once approved, federal authority for 
performing environmental reviews would be delegated to tribal 
governments.

5) Minor Source Regulation in Indian Country
    Problem: The Environmental Protection Agency (EPA) recently 
completed new regulations for issuing minor source air permits in 
Indian Country. EPA's new regulations were completed without meaningful 
consultation with tribal governments, and EPA does not have the 
necessary staff throughout Indian Country to implement the new 
regulations.
    Proposed Solution: Require EPA to delay implementation of any new 
minor source rule until after it consults with tribes on its 
implementation plan and considers the impacts. In addition, require EPA 
to ensure appropriate staffing is in place to administer any new 
permitting requirements.

6) Distributed Generation and Community Transmission
    Problem: Areas of Indian Country lack access to electric 
transmission. 1990 Census data found that 14.2 percent of Indian 
households lacked access to electric service compared to 1.4 percent of 
all U.S. households--a tenfold difference.\1\ In some areas it is not 
economically feasible to develop large transmission projects. Current 
Department of Energy (DOE) tribal energy programs are focused on 
developing the most energy for the most people. There is no program 
that emphasizes efficient distributed generation and community 
transmission.
---------------------------------------------------------------------------
    \1\ U.S. Dep't of Energy, Energy Info. Admin., Energy Consumption 
and Renewable Energy Development Potential on Indian Lands ix (April 
2000) (available at http://www.eia.doe.gov/cneaf/solar.renewables/
ilands/ilands.pdf (using information from the 1990 Decennial Census).
---------------------------------------------------------------------------
    Proposed Solution: Direct DOE to conduct no fewer than 10 
distributed energy demonstration projects to increase the energy 
resources available to Indian and Alaska Native homes, communities, and 
government buildings. Priority should be given to projects that utilize 
local resources, and reduce or stabilize energy costs.

Proposed Legislative Text:
    (a) Definition of Indian Area.--In this section, the term ``Indian 
area'' has the meaning given the term in section 4 of the Native 
American Housing Assistance and Self-Determination Act of 1996 (25 
U.S.C. 4103).
    (b) Energy Demonstration Projects.--The Secretary of Energy shall 
conduct not less than 10 distributed energy demonstration projects to 
increase the energy resources available to Indian tribes for use in 
homes and community or government buildings.
    (c) Priority.--In carrying out this section, the Secretary of 
Energy shall give priority to projects in Indian areas that--
        (1)  reduce or stabilize energy costs;
        (2)  benefit populations living in poverty;
        (3)  provide a new generation facility or distribution or 
        replacement system;
        (4)  have populations whose energy needs could be completely or 
        substantially served by projects under this section; or
        (5)  transmit electricity or heat to homes and buildings that 
        previously were not served or were underserved.
    (d) Eligible Projects.--A project under this section may include a 
project for--
         (1)  distributed generation, local or community distribution, 
        or both;
         (2)  biomass combined heat and power systems;
         (3)  municipal solid waste generation;
         (4)  instream hydrokinetic energy;
         (5)  micro-hydroelectric projects;
         (6)  wind-diesel hybrid high-penetration systems;
         (7)  energy storage and smart grid technology improvements;
         (8)  underground coal gasification systems;
         (9)  solar thermal, distributed solar, geothermal, or wind 
        generation; or
        (10)  any other project that meets the goals of this section.
    (e) Incorporation Into Existing Infrastructure.--As necessary, the 
Director shall encourage local utilities and local governments to 
incorporate demonstration projects into existing transmission and 
distribution infrastructure.
    (f) Exemptions.--
        (1)  In general.--A project carried out under this section 
        shall be exempt from all cost-sharing requirements of section 
        988 of the Energy Policy Act of 2005 (42 U.S.C. 16352).
        (2)  Applications.--An application submitted to carry out a 
        project under this section shall not be subject--
                (A)  to any maximum generation requirements; or
                (B)  to any requirements for maximizing benefits in 
                relation to the population served.
    (g) Reports.--Not later than 2 years after the date on which funds 
are made available for a project under this section, and annually 
thereafter, the Secretary shall submit to Congress a report 
describing--
        (1)  the activities carried out under the project, including an 
        evaluation of the activity; and
        (2)  the number of applications received and funded under this 
        section.

7) Surface Leasing Authority
    Problem: In general, surface leases on Indian lands are limited to 
25 years with one 25 year automatic approval allowed, however, the life 
of a typical energy project is 50 years.
    Proposed Solutions: General surface lease terms should be 
lengthened to reflect the life of energy projects. These proposals are 
limited to 50 year lease terms to avoid a lease resulting in de facto 
ownership of tribal lands by non-Indians, and because other federal 
laws governing tribal jurisdiction over tribal lands can change over 
shorter time periods and affect the authority of tribes over lessors. 
In addition, all tribes should be given the opportunity to assume BIA 
leasing responsibilities for certain kinds of surface leasing.
    a) Amend 25 U.S.C. 415(a), known as the ``Indian Long Term Leasing 
Act,'' to authorize Indian tribes to lease restricted Indian land for 
not more than 50 years.
    b) Amend 25 U.S.C. 415(e) to allow all tribes to develop leasing 
regulations, and once approved by the Secretary, the tribes may lease 
their lands for 25 or 50 years, depending on the circumstance, without 
having to obtain the approval of the Secretary for each individual 
leases. This proposal is the similar to the HEARTH Act introduced in 
the 112th Congress as S. 703 and H.R. 205.
    c) Amend the Indian Reorganization Act (25 U.S.C. 477) to authorize 
Section 17 Corporations to lease Indian land for not more than 50 
years.
Proposed Legislative Text:
    (a) Long-Term Leasing Act.--Subsection (a) of the first section of 
the Act of August 9, 1955 (25 U.S.C. 415(a)) (commonly known as the 
``Long-Term Leasing Act''), is amended--
        (1)  by striking the subsection designation and all that 
        follows through ``Any restricted'' and inserting the following:
    ``(a) Authorized Purposes; Term; Approval by Secretary.--
        ``(1) Authorized purposes.--Any restricted'';
        (2)  in the second sentence, by striking ``All leases so 
        granted'' through ``twenty five years, except'' and inserting 
        the following:
        ``(2) Term.--
                ``(A) In general.--Except as provided in subparagraph 
                (B), the term of a lease granted under paragraph (1) 
                shall be--
                        ``(i) for a lease of tribally owned restricted 
                        Indian land, not to exceed 50 years; and
                        ``(ii) for a lease of individually owned 
                        restricted Indian land, not to exceed 25 years.
                ``(B) Exception.--Except'';
        (3)  in the third sentence, by striking ``Leases for public'' 
        and all that follows through ``twenty-five years, and all'' and 
        inserting the following:
        ``(3) Approval by secretary.--
                ``(A) In general.--All''; and
        (4)  in the fourth sentence, by striking ``Prior to approval 
        of'' and inserting the following:
                ``(B) Requirements for approval.--Before approving''.
    (b) Approval of, and Regulations Related to, Tribal Leases.--The 
Act titled ``An Act to authorize the leasing of restricted Indian lands 
for public, religious, educational, recreational, residential, 
business, and other purposes requiring the grant of long-term leases'', 
approved August 9, 1955 (25 U.S.C. 415) is amended by adding at the end 
the following:
    ``(h) Tribal Approval of Leases.--
        ``(1) In general.--At the discretion of any Indian tribe, any 
        lease by the Indian tribe for the purposes authorized under 
        subsection (a) (including any amendments to subsection (a)), 
        except a lease for the exploration, development, or extraction 
        of any mineral resources, shall not require the approval of the 
        Secretary, if the lease is executed under the tribal 
        regulations approved by the Secretary under this subsection and 
        the term of the lease does not exceed--
                ``(A) in the case of an agricultural lease, 25 years, 
                except that any such lease may include an option to 
                renew for up to 2 additional terms, each of which may 
                not exceed 25 years; and
                ``(B) in the case of a leases for business, public, 
                religious, educational, recreational, or residential 
                purposes, 50 years and with the consent of both parties 
                may include provisions authorizing their renewal for 
                one additional term of not to exceed 25 years, if such 
                terms are provided for by the regulations issued by the 
                Indian tribe.
        ``(2) Allotted land.--Paragraph (1) shall not apply to any 
        lease of individually owned Indian allotted land.
        ``(3) Authority of secretary over tribal regulations.--
                ``(A) In general.--The Secretary shall have the 
                authority to approve or disapprove any tribal 
                regulations issued in accordance with paragraph (1).
                ``(B) Considerations for approval.--The Secretary shall 
                approve any tribal regulation issued in accordance with 
                paragraph (1), if the tribal regulations--
                        ``(i) are consistent with any regulations 
                        issued by the Secretary under subsection (a) 
                        (including any amendments to the subsection or 
                        regulations); and
                        ``(ii) provide for an environmental review 
                        process that includes--
                                ``(I) the identification and evaluation 
                                of any significant effects of the 
                                proposed action on the environment; and
                                ``(II) a process for ensuring that--
                                        ``(aa) the public is informed 
                                        of, and has a reasonable 
                                        opportunity to comment on, any 
                                        significant environmental 
                                        impacts of the proposed action 
                                        identified by the Indian tribe; 
                                        and
                                        ``(bb) the Indian tribe 
                                        provides responses to relevant 
                                        and substantive public comments 
                                        on any such impacts before the 
                                        Indian tribe approves the 
                                        lease.
        ``(4) Review process.--
                ``(A) In general.--Not later than 120 days after the 
                date on which the tribal regulations described in 
                paragraph (1) are submitted to the Secretary, the 
                Secretary shall review and approve or disapprove the 
                regulations.
                ``(B) Written documentation.--If the Secretary 
                disapproves the tribal regulations described in 
                paragraph (1), the Secretary shall include written 
                documentation with the disapproval notification that 
                describes the basis for the disapproval.
                ``(C) Extension.--The deadline described in 
                subparagraph (A) may be extended by the Secretary, 
                after consultation with the Indian tribe.
        ``(5) Federal environmental review.--Notwithstanding paragraphs 
        (3) and (4), if an Indian tribe carries out a project or 
        activity funded by a Federal agency, the Indian tribe shall 
        have the authority to rely on the environmental review process 
        of the applicable Federal agency rather than any tribal 
        environmental review process under this subsection.
        ``(6) Documentation.--If an Indian tribe executes a lease 
        pursuant to tribal regulations under paragraph (1), the Indian 
        tribe shall provide the Secretary with--
                ``(A) a copy of the lease, including any amendments or 
                renewals to the lease; and
                ``(B) in the case of tribal regulations or a lease that 
                allows for lease payments to be made directly to the 
                Indian tribe, documentation of the lease payments that 
                are sufficient to enable the Secretary to discharge the 
                trust responsibility of the United States under 
                paragraph (7).
        ``(7) Trust responsibility.--
                ``(A) In general.--The United States shall not be 
                liable for losses sustained by any party to a lease 
                executed pursuant to tribal regulations under paragraph 
                (1).
                ``(B) Authority of secretary.--Pursuant to the 
                authority of the Secretary to fulfill the trust 
                obligation of the United States to the applicable 
                Indian tribe under Federal law (including regulations), 
                the Secretary may, upon reasonable notice from the 
                applicable Indian tribe and at the discretion of the 
                Secretary, enforce the provisions of, or cancel, any 
                lease executed by the Indian tribe under paragraph (1).
        ``(8) Compliance.--
                ``(A) In general.--An interested party, after 
                exhausting of any applicable tribal remedies, may 
                submit a petition to the Secretary, at such time and in 
                such form as the Secretary determines to be 
                appropriate, to review the compliance of the applicable 
                Indian tribe with any tribal regulations approved by 
                the Secretary under this subsection.
                ``(B) Violations.--If, after carrying out a review 
                under subparagraph (A), the Secretary determines that 
                the tribal regulations were violated, the Secretary may 
                take any action the Secretary determines to be 
                necessary to remedy the violation, including rescinding 
                the approval of the tribal regulations and reassuming 
                responsibility for the approval of leases of tribal 
                trust lands.
                ``(C) Documentation.--If the Secretary determines that 
                a violation of the tribal regulations has occurred and 
                a remedy is necessary, the Secretary shall--
                        ``(i) make a written determination with respect 
                        to the regulations that have been violated;
                        ``(ii) provide the applicable Indian tribe with 
                        a written notice of the alleged violation 
                        together with such written determination; and
                        ``(iii) prior to the exercise of any remedy, 
                        the rescission of the approval of the 
                        regulation involved, or the reassumption of 
                        lease approval responsibilities, provide the 
                        applicable Indian tribe with--
                                ``(I) a hearing that is on the record; 
                                and
                                ``(II) a reasonable opportunity to cure 
                                the alleged violation.
        ``(9) Savings clause.--Nothing in this subsection shall affect 
        subsection (e) or any tribal regulations issued under that 
        subsection.''.
    (c) Indian Reorganization Act.--Section 17 of the Act of June 18, 
1934 (25 U.S.C. 477) (commonly known as the ``Indian Reorganization 
Act'') is amended in the second sentence by striking ``twenty-five'' 
and inserting ``50''

8) Partnership with Federal Power Marketing Agencies
    Problem: Despite the enormous potential for generating traditional 
and renewable energy on Indian lands, in many cases, the nation is 
unable to utilize these resources because they are in remote locations 
far from population centers where additional energy is needed.
    Proposed Solution: Require Federal Power Marketing Agencies, 
including the Western Area Power Administration and the Bonneville 
Power Administration, to treat energy generated on Indian lands as 
federal energy generated or acquired by the United States for the 
purposes of transmitting and marketing such energy. This solution would 
promote the development of traditional and renewable energy projects on 
tribal lands, and allow the nation to benefit from additional domestic 
energy supplies. In addition, this solution would provide some 
compensation through the promotion of tribal energy projects to Indian 
tribes whose lands were flooded or taken for the generation of federal 
energy.

Proposed Legislative Text:
    Title XXVI of the Energy Policy Act of 1992 (2512 U.S.C. 3501) is 
amended, by adding at the end a new section:
    Section XXXX. Classification of Indian Energy.
    (a) In General.--The Western Area Power Administration, the 
Bonneville Power Administration, and all other Federal Power Marketing 
agencies and related agencies shall consider energy generated on Indian 
lands the same as federal energy generated or acquired by the United 
States for the purposes of transmitting and marketing such energy.

9) Tribal Energy Resource Agreements
    Problem: The effect the Tribal Energy Resource Agreement (TERA) 
program, authorized in Title V of the Energy Policy Act of 2005, on the 
federal government's trust responsibility is unclear.
    Proposed Solution: DOI must do further outreach and education on 
the TERA program and its impacts on the Secretary's trust 
responsibility, including revising TERA regulations after further 
consultation with Tribes.

Proposed Legislative Text:
    Section 2604 of the Energy Policy Act of 1992 (25 U.S.C. 3504) is 
amended by adding at the end--
    ``(f) Further Consultation.--Within six months after the passage of 
this act, the Secretary shall engage in further consultation with 
Indian tribes regarding the regulations for implementing the Tribal 
Energy Resource Agreement program. Consultation shall pay particular 
attention to fully explaining and discussing the impacts, if any, of 
the program on the Secretary's trust responsibility. Following 
consultation the Secretary shall make revisions to the regulations 
consistent with that consultation.

10) Tribal Jurisdiction Over Rights-of-Way
    Problem: Tribal jurisdiction over some rights-of-way has been 
limited by federal case law. Without clear jurisdictional authority 
over rights-of-way tribal governments are unable to provide for the 
health, safety, and welfare of reservation lands, and state and county 
governments do not have the resources to provide these services. 
Legislation is needed to clarify that Indian tribes retain their 
inherent sovereign authority and jurisdiction for any rights-of-way 
across Indian lands.
    Proposed Solution: Clarify the law to state that Indian tribes 
retain their inherent jurisdiction over any rights-of-way across Indian 
lands.

Proposed Legislative Text:
    Notwithstanding any other provision of law, Indian tribes retain 
inherent sovereignty and jurisdiction over Indian and non-Indian 
activities on any rights-of-way across Indian land granted for any 
purpose.

11) Need for Tax Revenues
    Problem: In addition to taxes levied by Indian tribes, a variety of 
other governments attempt to tax energy activities on Indian lands. In 
some cases, the other governments levying the taxes earn more from the 
project than the tribal government. Dual and triple taxation is a 
disincentive to energy development on Indian lands and results in 
decreased revenues for tribal governments. Just to encourage 
development, many tribes are unable to impose their own taxes or can 
only impose partial taxes. When tribes are not able to collect taxes on 
energy development, tribal governments lack the revenues to fund staff 
and tribal agencies to effectively oversee energy activities and tribes 
will remain dependent on federal funding and programs.
    Proposed Solution: Limit other governments from taxing energy 
projects on tribal lands. If limited taxation is allowed by other 
governments, they should only be able to tax a project to the extent 
needed to cover any impacts from the project on that government's 
infrastructure.

Proposed Legislative Text:
    (a) In General.--Indian tribes have exclusive authority to levy or 
require all assessments, taxes, fees, or levies for energy activities 
on Indian lands.
    (b) Reimbursement for Services.--State and other local governments 
may enter into agreements with Indian tribes for reimbursement of 
services provided by the state or local government that are a directly 
related to the energy activities on Indian lands. Indian tribes, state 
and local governments are directed to negotiate in good faith in 
developing such agreements. Any agreement under this section may be 
reviewed for accuracy by the Secretary of the Interior.
    (c) Definitions.--For the purposes of this section, the terms 
``Indian tribe'' and ``Indian land'' have the meaning given the terms 
in section 2601 of the Energy Policy Act of 1992 (25 U.S.C. 3501).

12) Indian Tribal Energy Loan Guarantee Program.
    Problem: Despite the success of federal loan guarantee programs, 
DOE has not implemented the Indian Energy Loan Guarantee Program from 
the Energy Policy Act of 2005. This significant loan guarantee program 
is needed to help tribes finance energy projects.
    Proposed Solution: Require DOE to implement the program in the same 
way that the Energy Policy Act required a national non-Indian loan 
guarantee program (the Title XVII program) to be implemented within one 
year after the passage of this act. The Title XVII program required DOE 
to develop regulations establishing the program and providing for its 
implementation. Once the program was established, then appropriations 
were provided by Congress to fund the program.

Proposed Legislative Text:
    Section 2602(c) of the Energy Policy Act of 1992 (25 U.S.C. 
3502(c)) is amended--
        (1)  in paragraph (1)--
                (A)  by striking the paragraph designation and all that 
                follows through ``may provide'' and inserting the 
                following:
        ``(1) Requirement.--Subject to paragraph (4), not later than 1 
        year after the date of enactment of this Act, the Secretary of 
        Energy shall provide''; and
                (B)  by striking ``any loan made to an Indian tribe for 
                energy development'' and inserting ``such loans made to 
                Indian tribes or tribal energy development 
                organizations for energy development, energy 
                transmission projects, or the integration of energy 
                resources as the Secretary determines to be 
                appropriate'';
        (2)  in paragraph (3), by striking the paragraph designation 
        and all that follows through ``made by--'' and inserting the 
        following:
        ``(3) Eligible providers of loans.--A loan for which a loan 
        guarantee is provided under this subsection shall be made by--
        '';
        (3)  in paragraph (4)--
                (A)  by striking ``(4) The aggregate'' and inserting 
                the following:
        ``(4) Limitations.--
                ``(A) Aggregate outstanding amount.--The aggregate''; 
                and
                (B)  by adding at the end the following:
                ``(B) Specific appropriation or contribution.--No loan 
                guarantee may be provided under this subsection 
                unless--
                        ``(i) an appropriation for the cost of the 
                        guarantee has been made; or
                        ``(ii) the Secretary of Energy has--
                                ``(I) received from the borrower a 
                                payment in full for the cost of the 
                                obligation; and
                                ``(II) deposited the payment into the 
                                Treasury.'';
        (4)  in paragraph (5), by striking the paragraph designation 
        and all that follows through ``may issue'' and inserting the 
        following:
        ``(5) Regulations.--The Secretary of Energy shall promulgate''; 
        and
        (5)  in paragraph (7), by striking ``1 year after the date of 
        enactment of this section'' and inserting ``2 years after the 
        date of enactment of the Indian Energy Parity Act of 2010''.

13) Coordination of Agency Funding and Programs
    Problem: Funding for Indian energy activities is spread across many 
agencies. Individual funding sources are typically too small to meet 
the financial needs of developing energy projects. Tribal 
administration costs are increased because each agency requires 
different application and reporting requirements.
    Proposed Solution: Allow tribes to integrate and coordinate energy 
funding from the departments of Agriculture, Commerce, Energy, EPA, 
Housing and Urban Development (HUD), Interior, Labor and Transportation 
to ensure efficient use of existing federal funding. The proposal is 
modeled after the successful Pub.L.102-477 employment training 
integration program. The proposal would allow individual agencies to 
retain discretion over approval of individual projects.

Proposed Legislative Text:
    (a) Definitions.--In this section:
        (1)  Agency.--The term ``agency'' has the meaning given the 
        term in section 551 of title 5, United States Code.
        (2)  Agency leader.--The term ``Agency leader'' means 1 or more 
        of the following:
                (A)  The Secretary of Agriculture.
                (B)  The Secretary of Commerce.
                (C)  The Secretary of Energy.
                (D)  The Secretary of Housing and Urban Development.
                (E)  The Administrator of the Environmental Protection 
                Agency.
                (F)  The Secretary of the Interior.
                (G)  The Secretary of Labor.
                (H)  The Secretary of Transportation.
        (3)  Tribal energy development organization.--The term ``tribal 
        energy development organization'' has the meaning given the 
        term in section 2601 of the Energy Policy Act of 1992 (25 
        U.S.C. 3501).
    (b) Single Integrated Program.--
        (1)  In general.--An Indian tribe or tribal energy development 
        organization may submit to the Secretary, and to applicable 
        Agency leaders, a plan to fully integrate into a single, 
        coordinated, comprehensive program federally funded energy-
        related activities and programs (including programs for 
        employment training, energy planning, financing, construction, 
        and related physical infrastructure and equipment).
        (2)  No additional requirements.--The Agency leaders shall not 
        impose any additional requirement or condition, additional 
        budget, report, audit, or supplemental audit, or require 
        additional documentation from, an Indian tribe or tribal energy 
        development organization that has satisfied the plan criteria 
        described in subsection (c).
        (3)  Procedure.--
                (A)  In general.--On receipt of a plan of an Indian 
                tribe or a tribal energy development organization 
                described in paragraph (1) that is in a form that the 
                Secretary determines to be acceptable, the Secretary 
                shall consult with the applicable Agency leaders to 
                determine whether the proposed use of programs and 
                services is in accordance with the eligibility rules 
                and guidelines on the use of agency funds.
                (B)  Integration.--If the Secretary and the applicable 
                Agency leaders make a favorable determination pursuant 
                to subparagraph (A), the Secretary shall authorize the 
                Indian tribe or tribal energy development 
                organization--
                         (i)  to integrate and coordinate the programs 
                        and services described in paragraph (4) into a 
                        single, coordinated, and comprehensive program; 
                        and
                        (ii)  to reduce administrative costs by 
                        consolidating administrative functions.
        (4)  Description of activities.--The activities referred to in 
        paragraph (1) are federally funded energy-related activities 
        and programs (including programs for employment training, 
        energy planning, financing, construction, and related physical 
        infrastructure and equipment), including--
                (A)  any program under which an Indian tribe or tribal 
                energy development organization is eligible to receive 
                funds under a statutory or administrative formula;
                (B)  activities carried out using any funds an Indian 
                tribe or members of the Indian tribe are entitled to 
                under Federal law; and
                (C)  activities carried out using any funds an Indian 
                tribe or a tribal energy development organization may 
                secure as a result of a competitive process for the 
                purpose of planning, designing, constructing, 
                operating, or managing a renewable or nonrenewable 
                energy project on Indian land.
        (5)  Inventory of affected programs.--
                (A)  Reports.--Not later than 90 days after the date of 
                enactment of this Act, the Agency leaders shall--
                          (i)  conduct a survey of the programs and 
                        services of the agency that are or may be 
                        included in the plan of an Indian tribe or 
                        tribal energy development organization under 
                        this subsection;
                         (ii)  provide a description of the eligibility 
                        rules and guidelines on the manner in which the 
                        funds under the jurisdiction of the agency may 
                        be used; and
                        (iii)  submit to the Secretary a report 
                        identifying those programs, services, rules, 
                        and guidelines.
                (B)  Publication.--Not later than 60 days after the 
                date of receipt of each report under subparagraph (A), 
                the Secretary shall publish in the Federal Register a 
                comprehensive list of the programs and services 
                identified in the reports.
    (c) Plan Requirements.--A plan submitted by an Indian tribe or 
tribal energy development organization under subsection (b) shall--
        (1)  identify the activities to be integrated;
        (2)  be consistent with the purposes of this section regarding 
        the integration of the activities in a demonstration project;
        (3)  describe--
                (A)  the manner in which services are to be integrated 
                and delivered; and
                (B)  the expected results of the plan;
        (4)  identify the projected expenditures under the plan in a 
        single budget;
        (5)  identify each agency of the Indian tribe to be involved in 
        the administration of activities or delivery of the services 
        integrated under the plan;
        (6)  address any applicable requirements of the Agency leaders 
        for receiving funding from the federally funded energy-related 
        activities and programs under the jurisdiction of the Agency 
        leaders, respectively;
        (7)  identify any statutory provisions, regulations, policies, 
        or procedures that the Indian tribe recommends to be waived to 
        implement the plan, including any of the requirements described 
        in paragraph (6); and
        (8)  be approved by the governing body of the affected Indian 
        tribe.
    (d) Approval Process.--
        (1)  In general.--Not later than 90 days after the receipt of a 
        plan of an Indian tribe or tribal energy development 
        organization, the Secretary and applicable Agency leaders shall 
        coordinate a single response to inform the Indian tribe or 
        tribal energy development organization in writing of the 
        determination to approve or disapprove the plan, including any 
        request for a waiver that is made as part of the plan.
        (2)  Plan disapproval.--Any issue preventing approval of a plan 
        under paragraph (1) shall be resolved in accordance with 
        subsection (e)(3).
    (e) Plan Review; Waiver Authority; Dispute Resolution.--
        (1)  In general.--On receipt of a plan of an Indian tribe or 
        tribal energy development organization, the Secretary shall 
        consult regarding the plan with--
                (A)  the applicable Agency leaders; and
                (B)  the governing body of the applicable Indian tribe.
        (2)  Identification of waivers.--
                (A)  In general.--In carrying out the consultation 
                described in paragraph (1), the Secretary, the 
                applicable Agency leaders, and the governing body of 
                the applicable Indian tribe shall identify the 
                statutory, regulatory, and administrative requirements, 
                policies, and procedures that must be waived to enable 
                the Indian tribe or tribal energy development 
                organization to implement the plan.
                (B)  Waiver authority.--Notwithstanding any other 
                provision of law, the applicable Agency leaders may 
                waive any applicable regulation, administrative 
                requirement, policy, or procedure identified under 
                subparagraph (A) in accordance with the purposes of 
                this section.
                (C)  Tribal request to waive.--In consultation with the 
                Secretary and the applicable Agency leaders, an Indian 
                tribe may request the applicable Agency leaders to 
                waive a regulation, administrative requirement, policy, 
                or procedure identified under subparagraph (A).
                (D)  Declination of waiver request.--If the applicable 
                Agency leaders decline to grant a waiver requested 
                under subparagraph (C), the applicable Agency leaders 
                shall provide to the requesting Indian tribe and the 
                Secretary written notice of the declination, including 
                a description of the reasons for the declination.
(3) Dispute resolution.--
                (A)  In general.--The Secretary, in consultation with 
                the Agency leaders, shall develop dispute resolution 
                procedures to carry out this section.
                (B)  Procedures.--If the Secretary determines that a 
                declination is inconsistent with the purposes of this 
                section, or prevents the Department from fulfilling the 
                obligations under subsection (f), the Secretary shall 
                establish interagency dispute resolution procedures 
                involving--
                         (i)  the participating Indian tribe or tribal 
                        energy development organization; and
                        (ii)  the applicable Agency leaders.
        (4)  Final decision.--In the event of a failure of the dispute 
        resolution procedures under paragraph (3), the Secretary shall 
        inform the applicable Indian tribe or tribal energy development 
        organization of the final determination not later than 180 days 
        after the date of receipt of the plan.
    (f) Responsibilities of Department.--
        (1)  Memorandum of agreement.--Not later than 180 days after 
        the date of enactment of this Act, the Secretary and the Agency 
        leaders shall enter into an interdepartmental memorandum of 
        agreement that shall require and include--
                (A)  an annual meeting of participating Indian tribes, 
                tribal energy development organizations, and Agency 
                leaders, to be co-chaired by a representative of the 
                President and a representative of the participating 
                Indian tribes and tribal energy development 
                organizations;
                (B)  an annual review of the achievements made under 
                this section and statutory, regulatory, administrative, 
                and policy obstacles that prevent participating Indian 
                tribes and tribal energy development organizations from 
                fully carrying out the purposes of this section;
                (C)  a forum comprised of participating Indian tribes, 
                tribal energy development organizations, and agencies 
                to identify and resolve interagency or Federal-tribal 
                conflicts that occur in carrying out this section; and
                (D)  the dispute resolution procedures required by 
                subsection (e)(3).
        (2)  Department responsibilities.--The responsibilities of the 
        Department include--
                (A)  in accordance with paragraph (3), developing a 
                model single report for each approved plan of an Indian 
                tribe or tribal energy development organization 
                regarding the activities carried out and expenditures 
                made under the plan;
                (B)  providing, subject to the consent of an Indian 
                tribe or tribal energy development organization with an 
                approved plan under this section, technical assistance 
                either directly or pursuant to a contract;
                (C)  developing a single monitoring and oversight 
                system for the plans approved under this section;
                (D)  receiving and distributing all funds covered by a 
                plan approved under this section; and
                (E)  conducting any required investigation relating to 
                a waiver or an interagency dispute resolution under 
                this section.
        (3)  Model single report.--The model single report described in 
        paragraph (2)(A) shall--
                (A)  be developed by the Secretary, in accordance with 
                the requirements of this section; and
                (B)  together with records maintained at the Indian 
                tribal level regarding the plan of the Indian tribe or 
                tribal resource development organization, contain such 
                information as would allow a determination that the 
                Indian tribe or tribal energy development 
                organization--
                         (i)  has complied with the requirements 
                        incorporated in the applicable plan; and
                        (ii)  will provide assurances to each 
                        applicable agency that the Indian tribe or 
                        tribal energy development organization has 
                        complied with all directly applicable statutory 
                        and regulatory requirements.
    (g) No Reduction, Denial, or Withholding of Funds.--No Federal 
funds may be reduced, denied, or withheld as a result of participation 
by an Indian tribe or tribal energy development organization in the 
program under this section.
    (h) Interagency Fund Transfers.--
        (1)  In general.--If a plan submitted by an Indian tribe or 
        tribal energy development organization under this section is 
        approved, the Secretary and the applicable Agency leaders shall 
        take all necessary steps to effectuate interagency transfers of 
        funds to the Department for distribution to the Indian tribe or 
        tribal energy development organization.
        (2)  Coordinated agency action.--As part of an interagency 
        transfer under paragraph (1), the applicable Agency leader 
        shall provide the Department a 1-time transfer of all required 
        funds by not later than October 1 of each applicable fiscal 
        year.
        (3)  Agencies not authorized to withhold funds.--If a plan is 
        approved under this section, none of the applicable Agency 
        leaders may withhold funds for the plan.
                        (i)  Administration; Recordkeeping; Overage.--
        (1)  Administration of funds.--
                (A)  In general.--The funds for a plan under this 
                section shall be administered in a manner that allows 
                for a determination that funds from a specific program 
                (or an amount equal to the amount attracted from each 
                program) shall be used for activities described in the 
                plan.
                (B)  Separate records not required.--Nothing in this 
                section requires an Indian tribe or tribal energy 
                development organization--
                         (i)  to maintain separate records relating to 
                        any service or activity conducted under the 
                        applicable plan for the program under which the 
                        funds were authorized; or
                        (ii)  to allocate expenditures among those 
                        programs.
        (2)  Administrative expenses.--
                (A)  Commingling.--Administrative funds for activities 
                under a plan under this section may be commingled.
                (B)  Entitlement.--An Indian tribe or tribal energy 
                development organization shall be entitled to the full 
                amount of administrative costs for the activities of a 
                plan under this section, in accordance with applicable 
                regulations.
                (C)  Overages.--No overage of administrative costs for 
                the activities of a plan under this section shall be 
                counted for Federal audit purposes, if the overage is 
                used for the purposes described in this section.
    (j) Single Audit Act.--Nothing in this section interferes with the 
ability of the Secretary to fulfill the responsibilities for the 
safeguarding of Federal funds pursuant to chapter 75 of title 31, 
United States Code (commonly known as the ``Single Audit Act'').
    (k) Training and Technical Assistance.--
    (1) In general.--The Department, with the participation and 
assistance of the Agency leaders, shall conduct activities for 
technical assistance and training relating to plans under this section, 
including--
                (A)  orientation sessions for Indian tribal leaders;
                (B)  workshops on planning, operations, and procedures 
                for employees of Indian tribes;
                (C)  training relating to case management, client 
                assessment, education and training options, employer 
                involvement, and related topics; and
                (D)  the development and dissemination of training and 
                technical assistance materials in printed form and over 
                the Internet.
        (2)  Administration.--To effectively administer the training 
        and technical assistance activities under this subsection, the 
        Department shall collaborate with an Indian tribe that has 
        experience with federally funded energy-related activities and 
        programs (including programs for employment training, energy 
        planning, financing, construction, and related physical 
        infrastructure and equipment).

14) Tribal Economic Development Bonds
    Problem: Section 1402 of the American Recovery and Reinvestment Act 
of 2009, P.L. 115-5, 123 Stat. 115 (2009) authorized tribal governments 
to issue, on a temporary basis, tribal economic development bonds (TED 
Bonds) without satisfying the essential government function test. The 
bond limitation was set at $2 billion. The allocation of these bonds 
has been completed.
    Proposed Solution: Permanently repeal the ``essential government 
function'' test currently applied by the Internal Revenue Service (IRS) 
to tribes who wish to issue tax exempt bonds. On a recurring annual 
basis, have a TED Bond allocation available to Tribes. Reallocate any 
unused allocation on a yearly basis.

15) Hypothecation of Coal Resources.
    Problem: Many tribes and individual Indians own mineral rights to 
subsurface coal on split estates where non-Indians own the surface 
rights. To realize the benefit of the coal resources without affecting 
the environment or disturbing the non-Indian surface estates, tribes 
need to be able to hypothecate the coal resources in situ. Through 
hypothecation, tribes could pledge their coal resources as collateral 
to secure debts and obtain loans without having to extract the coal.
    Proposed Solution: Clarify the law to specifically allow for the 
hypothecation of coal resources.

Proposed Legislative Text:
    (a) PURPOSES.--The purposes of this section are -
        (1)  To ensure that Indian tribes and individual Indians are 
        able to fully benefit from their coal resources in accordance 
        with the Indian Mineral Leasing Act of 1938 (25 U.S.C. 396a-
        396g), the Indian Mineral Development Act of 1982 (25 U.S.C. 
        2101-2108) and other provisions of law that advance those Acts; 
        and
        (2)  To ensure undiminished protection of the environment and 
        the protection of surface owners under existing split estates.
    (b) REVIEW--Notwithstanding any other law, Congress hereby 
authorizes Indian tribes and individual Indians to hypothecate their 
coal mineral interests in situ that tribes or individual Indians own 
within the boundaries of their reservations.

16) Study on Transmission Infrastructure and Access
    Problem: Historically Federal and state electric transmission 
planning overlooked or ignored energy generation potential on Indian 
lands. Consequently, energy projects on tribal lands lack access to 
high voltage transmission.
    Proposed Solution: Direct DOE to conduct a study of the electric 
generation potential on Indian lands and related transmission needs. 
The study should involve Indian tribes, federal agencies, and 
transmission providers and utilities operating in and around Indian 
country.

Proposed Legislative Text:
    (a) Study.--
        (1)  In general.--The Secretary of Energy, in consultation with 
        Indian tribes, intertribal organizations, the Secretary of the 
        Interior, the Federal Energy Regulatory Commission, the Federal 
        power marketing administrations, regional transmission 
        operators, national, regional, and local electric transmission 
        providers, electric utilities, electric cooperatives, electric 
        utility organizations, and other interested stakeholders, shall 
        conduct a study to assess--
                (A)  the potential for electric generation on Indian 
                land and on the Outer Continental Shelf adjacent to 
                Indian land, from renewable energy resources; and
                (B)  the electrical transmission needs relating to 
                carrying that energy to the market.
        (2)  Requirements.--The study under paragraph (1) shall--
                (A)  identify potential energy generation resources on 
                Indian land and on the Outer Continental Shelf adjacent 
                to Indian land, from renewable energy resources;
                (B)  identify existing electrical transmission 
                infrastructure on, and available to provide service to, 
                Indian land;
                (C)  identify relevant potential electric transmission 
                routes and paths that can carry electricity generated 
                on Indian land to loads;
                (D)  assess the capacity and availability of 
                interconnection of existing electrical transmission 
                infrastructure;
                (E)  identify options to ensure tribal access to 
                electricity, if the development of transmission 
                infrastructure to reach tribal areas is determined to 
                be unfeasible;
                (F)  identify regulatory, structural, financial, or 
                other obstacles that Indian tribes encounter or would 
                encounter in attempting to develop energy transmission 
                infrastructure or connect with existing electrical 
                transmission infrastructure; and
                (G)  make recommendations for legislation to help 
                Indian tribes overcome the obstacles identified under 
                subparagraph (F).
    (b) Report.--Not later than 1 year after the date of enactment of 
this Act, the Secretary shall submit to Congress a report describing 
the results of the study under subsection (a).

17) Tribal Energy Efficiency
    Problem: There are no ongoing programs to support tribal energy 
efficiency efforts. DOE's longstanding State Energy Program supporting 
energy efficiency efforts at the state level does not include tribes.
    Proposed Solution: Direct DOE to allocate not less than 5 percent 
of existing state energy efficiency funding to establish a grant 
program for Indian tribes interested in conducting energy efficiency 
activities for their lands and buildings. Funding should be provided in 
a manner similar to successful Energy Efficiency Block Grant Program to 
promote projects and simplify reporting requirements.

Proposed Legislative Text:
    Part D of title III of the Energy Policy and Conservation Act (42 
U.S.C. 6321 et seq.) is amended by adding at the end the following:
    ``(a) Definition of Indian Tribe.--In this section, the term 
`Indian tribe' has the meaning given the term in section 4 of the 
Indian Self-Determination and Education Assistance Act (25 U.S.C. 
450b).
    ``(b) Purpose.--The purpose of the grants provided under subsection 
(d) shall be to assist Indian tribes in implementing strategies--
        ``(1) to reduce fossil fuel emissions created as a result of 
        activities within the jurisdictions of eligible entities in a 
        manner that--
                ``(A) is environmentally sustainable; and
                ``(B) to the maximum extent practicable, maximizes 
                benefits for Indian tribes and tribal members;
        ``(2) to increase the energy efficiency of Indian tribes and 
        tribal members; and
        ``(3) to improve energy efficiency in--
                ``(A) the transportation sector;
                ``(B) the building sector; and
                ``(C) other appropriate sectors.
    ``(c) Tribal Allocation.--Of the amount of funds authorized to be 
appropriated for each fiscal year under section 365(f) to carry out 
this part, the Secretary shall allocate not less than 5 percent of the 
funds for each fiscal year to be distributed to Indian tribes in 
accordance with subsection (d).
    ``(d) Grants.--Of the amounts available for distribution under 
subsection (c), the Secretary shall establish a competitive process for 
providing grants under this section that gives priority to projects 
that--
        ``(1) increase energy efficiency and energy conservation rather 
        than new energy generation projects;
        ``(2) integrate cost-effective renewable energy with energy 
        efficiency;
        ``(3) move beyond the planning stage and are ready for 
        implementation;
        ``(4) clearly articulate and demonstrate the ability to achieve 
        measurable goals;
        ``(5) have the potential to make an impact in the government 
        buildings, infrastructure, communities, and land of an Indian 
        tribe; and
        ``(6) maximize the creation or retention of jobs on Indian 
        land.
    ``(e) Use of Funds.--An Indian tribe may use a grant received under 
this section to carry out activities to achieve the purposes described 
in subsection (b), including--
        ``(1) the development and implementation of energy efficiency 
        and conservation strategies;
        ``(2) the retention of technical consultant services to assist 
        the Indian tribe in the development of an energy efficiency and 
        conservation strategy, including--
                ``(A) the formulation of energy efficiency, energy 
                conservation, and energy usage goals;
                ``(B) the identification of strategies to achieve the 
                goals--
                        ``(i) through efforts to increase energy 
                        efficiency and reduce energy consumption; and
                        ``(ii) by encouraging behavioral changes among 
                        the population served by the Indian tribe;
                ``(C) the development of methods to measure progress in 
                achieving the goals;
                ``(D) the development and publication of annual reports 
                to the population served by the eligible entity 
                describing--
                        ``(i) the strategies and goals; and
                        ``(ii) the progress made in achieving the 
                        strategies and goals during the preceding 
                        calendar year; and
                ``(E) other services to assist in the implementation of 
                the energy efficiency and conservation strategy;
        ``(3) the implementation of residential and commercial building 
        energy audits;
        ``(4) the establishment of financial incentive programs for 
        energy efficiency improvements;
        ``(5) the provision of grants for the purpose of performing 
        energy efficiency retrofits;
        ``(6) the development and implementation of energy efficiency 
        and conservation programs for buildings and facilities within 
        the jurisdiction of the Indian tribe, including--
                ``(A) the design and operation of the programs;
                ``(B) the identification of the most effective methods 
                of achieving maximum participation and efficiency 
                rates;
                ``(C) the education of the members of an Indian tribe;
                ``(D) the measurement and verification protocols of the 
                programs; and
                ``(E) the identification of energy efficient 
                technologies;
        ``(7) the development and implementation of programs to 
        conserve energy used in transportation, including--
                ``(A) the use of--
                        ``(i) flextime by employers; or
                        ``(ii) satellite work centers;
                ``(B) the development and promotion of zoning 
                guidelines or requirements that promote energy-
                efficient development;
                ``(C) the development of infrastructure, including bike 
                lanes, pathways, and pedestrian walkways;
                ``(D) the synchronization of traffic signals; and
                ``(E) other measures that increase energy efficiency 
                and decrease energy consumption;
        ``(8) the development and implementation of building codes and 
        inspection services to promote building energy efficiency;
        ``(9) the application and implementation of energy distribution 
        technologies that significantly increase energy efficiency, 
        including--
                ``(A) distributed resources; and
                ``(B) district heating and cooling systems;
        ``(10) the implementation of activities to increase 
        participation and efficiency rates for material conservation 
        programs, including source reduction, recycling, and recycled 
        content procurement programs that lead to increases in energy 
        efficiency;
        ``(11) the purchase and implementation of technologies to 
        reduce, capture, and, to the maximum extent practicable, use 
        methane and other greenhouse gases generated by landfills or 
        similar sources;
        ``(12) the replacement of traffic signals and street lighting 
        with energy-efficient lighting technologies, including--
                ``(A) light-emitting diodes; and
                ``(B) any other technology of equal or greater energy 
                efficiency;
        ``(13) the development, implementation, and installation on or 
        in any government building of the Indian tribe of onsite 
        renewable energy technology that generates electricity from 
        renewable resources, including--
                ``(A) solar energy;
                ``(B) wind energy;
                ``(C) fuel cells; and
                ``(D) biomass; and
        ``(14) any other appropriate activity, as determined by the 
        Secretary, in consultation with--
                ``(A) the Secretary of the Interior;
                ``(B) the Administrator of the Environmental Protection 
                Agency;
                ``(C) the Secretary of Transportation;
                ``(D) the Secretary of Housing and Urban Development; 
                and
                ``(E) Indian tribes.
    ``(f) Grant Applications.--
        ``(1) In general.--
                ``(A) Application.--To apply for a grant under this 
                section, an Indian tribe shall submit to the Secretary 
                a proposed energy efficiency and conservation strategy 
                in accordance with this paragraph.
                ``(B) Contents.--A proposed strategy described in 
                subparagraph (A) shall include a description of--
                        ``(i) the goals of the Indian tribe for 
                        increased energy efficiency and conservation in 
                        the jurisdiction of the Indian tribe;
                        ``(ii) the manner in which--
                                ``(I) the proposed strategy complies 
                                with the restrictions described in 
                                subsection (e); and
                                ``(II) a grant will allow the Indian 
                                tribe fulfill the goals of the proposed 
                                strategy.
        ``(2) Approval.--
                ``(A) In general.--The Secretary shall approve or 
                disapprove a proposed strategy under paragraph (1) by 
                not later than 120 days after the date of submission of 
                the proposed strategy.
                ``(B) Disapproval.--If the Secretary disapproves a 
                proposed strategy under paragraph (1)--
                        ``(i) the Secretary shall provide to the Indian 
                        tribe the reasons for the disapproval; and
                        ``(ii) the Indian tribe may revise and resubmit 
                        the proposed strategy as many times as 
                        necessary, until the Secretary approves a 
                        proposed strategy.
                ``(C) Requirement.--The Secretary shall not provide to 
                an Indian tribe a grant under this section until a 
                proposed strategy is approved by the Secretary.
        ``(3) Limitations on use of funds.--Of the amounts provided to 
        an Indian tribe under this section, an Indian tribe may use for 
        administrative expenses, excluding the cost of the reporting 
        requirements of this section, an amount equal to the greater 
        of--
                ``(A) 10 percent of the administrative expenses; or
                ``(B) $75,000.
        ``(4) Annual report.--Not later than 2 years after the date on 
        which funds are initially provided to an Indian tribe under 
        this section, and annually thereafter, the Indian tribe shall 
        submit to the Secretary a report describing--
                ``(A) the status of development and implementation of 
                the energy efficiency and conservation strategy; and
                ``(B) to the maximum extent practicable, an assessment 
                of energy efficiency gains within the jurisdiction of 
                the Indian tribe.''.

18) Weatherization of Indian Homes
    Problem: Under current law, Indian tribes are supposed to receive 
federal weatherization funding through state programs funded by DOE. 
However, very little weatherization funding reaches Indian tribes 
despite significant weatherization needs. If a tribe wants to receive 
direct funding from DOE, it must prove to DOE that it is not receiving 
funding that is equal to what the state is providing its non-Indian 
population. Currently, out of 565 federally recognized tribes, only two 
tribes and one tribal organization receive direct weatherization 
funding from DOE.
    Proposed Solution: Pursuant to the federal government's government-
to-government relationship with Indian tribes, DOE should directly fund 
tribal weatherization programs. Training programs should also be 
supported to ensure availability of energy auditors in Indian Country.

Proposed Legislative Text:
    Section 413 of the Energy Conservation and Production Act (42 
U.S.C. 6863) is amended by striking subsection (d) and inserting the 
following:
    ``(d) Direct Grants to Indian Tribes for Weatherization of Indian 
Homes.--
        ``(1) Definitions.--In this subsection:
                ``(A) Indian area.--The term `Indian area' has the 
                meaning given the term in section 4 of the Native 
                American Housing Assistance and Self-Determination Act 
                of 1996 (25 U.S.C. 4103).
                ``(B) Indian tribe.--The term `Indian tribe' has the 
                meaning given the term in section 4 of the Indian Self-
                Determination and Education Assistance Act (25 U.S.C. 
                450b).
        ``(2) In general.--Of the amounts made available for each 
        fiscal year to carry out the Weatherization Assistance Program 
        for Low-Income Persons established under part A of title IV, 
        the Secretary shall allocate for Indian tribes not less than 10 
        percent.
        ``(3) Regulations.--
                ``(A) Proposed regulations.--Not later than 90 days 
                after the date of enactment of the Indian Energy Parity 
                Act of 2010, the Secretary, after consulting with the 
                Secretary of the Interior, the Secretary of Housing and 
                Urban Development, the Secretary of Health and Human 
                Services, the Secretary of Labor, Indian tribes, and 
                intertribal organizations, shall publish in the Federal 
                Register proposed regulations to carry out this 
                subsection.
                ``(B) Final regulations.--
                        ``(i) In general.--Not later than 120 days from 
                        the date of enactment of the Indian Energy 
                        Parity Act of 2010, the Secretary shall 
                        promulgate final regulations to carry out this 
                        subsection, taking into consideration the 
                        comments submitted in response to the 
                        publication of the proposed regulations 
                        described in subparagraph (A).
                        ``(ii) Criteria.--Final regulations promulgated 
                        by the Secretary to carry out this subsection 
                        shall--
                                ``(I) provide a formula or process for 
                                ensuring that weatherization funding is 
                                available for any Indian tribe that 
                                submits a qualifying weatherization 
                                funding application under paragraph 
                                (4)(C);
                                ``(II) promote efficiency in carrying 
                                out this subsection by the Secretary 
                                and Indian tribes; and
                                ``(III) consider--
                                        ``(aa) the limited resources of 
                                        Indian tribes to carry out this 
                                        subsection;
                                        ``(bb) the unique 
                                        characteristics of housing in 
                                        Indian areas; and
                                        ``(cc) the remoteness of Indian 
                                        areas.
        ``(4) Allocation of funding.--
                ``(A) In general.--The Secretary shall provide 
                financial assistance to an Indian tribe from the 
                amounts provided under paragraph (2), if the Indian 
                tribe submits to the Secretary a weatherization funding 
                application.
                ``(B) Contents.--A weatherization funding application 
                described in subparagraph (A) shall--
                        ``(i) describe--
                                ``(I) the estimated number and 
                                characteristics of the persons and 
                                dwelling units to be provided 
                                weatherization assistance; and
                                ``(II) the criteria and methods to be 
                                used by the Indian tribe in providing 
                                the weatherization assistance; and
                        ``(ii) contain any other information (including 
                        information needed for evaluation purposes) and 
                        assurances that are required under regulations 
                        promulgated by the Secretary to carry out this 
                        section.
                ``(C) Qualifying weatherization funding.--A 
                weatherization funding application that meets the 
                criteria under subparagraph (B) shall be considered a 
                qualifying weatherization funding application.
                ``(D) Initial distribution of funding.--The Secretary 
                shall distribute funding under this subsection to 
                Indian tribes that submit qualifying weatherization 
                funding applications--
                        ``(i) on the basis of the relative need for 
                        weatherization assistance; and
                        ``(ii) taking into account--
                                ``(I) the number of dwelling units to 
                                be weatherized;
                                ``(II) the climatic conditions 
                                respecting energy conservation, 
                                including a consideration of annual 
                                degree days;
                                ``(III) the type of weatherization work 
                                to be done;.
                                ``(IV) any data provided in the most 
                                recent version of the Bureau of Indian 
                                Affairs American Indian Population and 
                                Labor Force Report prepared pursuant to 
                                Public Law 102-477 (106 Stat. 2302), or 
                                if not available, any similar 
                                publication; and
                                ``(V) any other factors that the 
                                Secretary determines to be necessary, 
                                including the cost of heating and 
                                cooling, in order to carry out this 
                                section.
                ``(E) Competitive grants.--For each fiscal year, if any 
                amounts remain available after the initial distribution 
                of funding described in subparagraph (D), the Secretary 
                shall solicit applications for grants from Indian 
                tribes--
                        ``(i) to carry out weatherization projects and 
                        weatherization training;
                        ``(ii) to supply weatherization equipment; and
                        ``(iii) to develop tribal governing capacity to 
                        carry out a weatherization program consistent 
                        with this subsection.
                ``(F) Remaining funding.--For each fiscal year, if any 
                amounts remain available after distribution under 
                subparagraphs (D) and (E), the amounts shall remain 
                available to fulfill the purpose of this subsection in 
                subsequent fiscal years.
                ``(G) Renewal of qualifying weatherization funding 
                applications.--
                        ``(i) In general.--To achieve maximum 
                        efficiency in the allocation of funding, an 
                        Indian tribe that submits a qualifying 
                        weatherization funding application may request 
                        that the weatherization funding application of 
                        the Indian tribe be renewed in subsequent 
                        fiscal years.
                        ``(ii) Contents.--A request to renew a 
                        qualifying weatherization funding application 
                        shall contain such information as the Secretary 
                        determines to be necessary to achieve 
                        efficiency in the allocation of funding under 
                        this subsection.
        ``(5) Use of funds.--
                ``(A) In general.--An Indian tribe shall use funds 
                provided under paragraph (4) to carry out 
                weatherization and energy conservation activities that 
                benefit the members of an Indian tribe in Indian areas.
                ``(B) Eligible activities.--The weatherization and 
                energy conservation activities described in 
                subparagraph (A) include--
                        ``(i) the provision of existing services under 
                        this section;
                        ``(ii) the acquisition and installation of 
                        energy-efficient windows and doors and heating 
                        and cooling equipment; or
                        ``(iii) the repair, replacement, or insulation 
                        of floors, walls, roofs, and ceilings.
                ``(C) Applicability of requirements.--
                        ``(i) In general.--Notwithstanding any other 
                        provision of law, the use of funds under this 
                        paragraph by an Indian tribe shall be subject 
                        only to--
                                ``(I) the requirements of this 
                                subsection; and
                                ``(II) implementing regulations of the 
                                Department of Energy.
                        ``(ii) Other requirements of act.--In 
                        accordance with the government-to-government 
                        and trust relationships between the United 
                        States and Indian tribes, the income, energy 
                        audit, grant limitation, and other 
                        administrative and eligibility requirements of 
                        this Act shall not apply to the use of funds 
                        under this paragraph by an Indian tribe.
        ``(6) Report.--Not later than 90 days after the closing date of 
        each applicable project year, each Indian tribe that receives 
        funds under this subsection shall submit to the Secretary a 
        simple outcome report that describes, for that project year--
                ``(A) each activity carried out by the Indian tribe 
                under this subsection, including the amounts used for 
                each such activity;
                ``(B) the number of Indian households benefitted by the 
                activities of the Indian tribe under this subsection; 
                and
                ``(C) the estimated savings in energy costs realized in 
                the communities served by the Indian tribe.
        ``(7) Training and technical assistance.--The Secretary shall 
        carry out technical assistance and training activities relating 
        to weatherization under this subsection, including--
                ``(A) orientation sessions for Indian tribes;
                ``(B) workshops on planning, operations, and procedures 
                for Indian tribes to use the funding provided under 
                this subsection;
                ``(C) training relating to carrying out weatherization 
                projects; and
                ``(D) the development and dissemination of training and 
                technical assistance materials in printed form and over 
                the Internet.''.

19) Hydroelectric Licensing Preferences
    Problem: Section 7(a) of the Federal Power Act (16 U.S.C. 800(a)) 
provides a preference to states and municipalities, but not tribes, 
when applying for hydroelectric preliminary permits and original 
licenses.
    Proposed Solution: Provide tribes with the same preference as 
states and municipalities.

Proposed Legislative Text:
    Section 7(a) of the Federal Power Act (16 U.S.C. 800(a)) is 
amended--
        (1)  by striking ``In issuing'' and inserting ``(1) In 
        general.--In issuing''; and
        (2)  in paragraph (1) (as so designated)--
                (A)  by striking ``States and municipalities'' and 
                inserting ``States, Indian tribes, and 
                municipalities''; and
                (B)  by adding at the end the following:
        ``(2) Definition of indian tribe.--In this section, the term 
        `Indian tribe' has the meaning given the term in section 4 of 
        the Indian Self-Determination and Education Assistance Act (25 
        U.S.C. 450b).''.

20) Department of Energy Laboratories Technical Assistance
    Problem: DOE's national laboratories have extensive research and 
technical expertise that is underutilized by Indian tribes.
    Proposed Solution: Encourage DOE's national laboratories to reach 
out to Indian tribes and make research, training, and expertise more 
accessible to Indian tribes.

Proposed Legislative Text:
    Section 2602(b) of the Energy Policy Act of 1992 (25 U.S.C. 
3502(b)) is amended--
        (1)  by redesignating paragraphs (3) through (6) as paragraphs 
        (4) through (7), respectively; and
        (2)  by inserting after paragraph (2) the following:
        ``(3) Technical and scientific resources.--In addition to 
        providing grants to Indian tribes under this subsection, the 
        Secretary shall collaborate with the Directors of the National 
        Laboratories in making the full array of technical and 
        scientific resources of the Department of Energy available for 
        tribal energy activities and projects.''
                                 ______
                                 
    Mr. Gosar. Thank you.
    Ms. Sweeney?

STATEMENT OF TARA SWEENEY, SENIOR VICE PRESIDENT, ARCTIC SLOPE 
            REGIONAL CORPORATION, ANCHORAGE, ALASKA

    Ms. Sweeney. [Speaks in native language.] Honorable 
Chairman Young, Congressman Gosar, Ranking Member Boren, and 
distinguished members of the Subcommittee, my name is Tara 
Sweeney, and I am an Inupiaq Eskimo from Barrow, Alaska.
    I serve as the Senior Vice President for External Affairs 
for Arctic Subregional Corporation, or ASRC. And I am here 
representing the interests of 11,000 Inupiaq Eskimo 
shareholders of ASRC. We are an Alaska Native corporation 
formed pursuant to the Alaska Native Claims Settlement Act of 
1971 for the area that encompasses the entire North Slope of 
Alaska. We own approximately 5 million acres of surface and 
subsurface estate on Alaska's North Slope conveyed to the 
corporation under ANCSA as a settlement of our aboriginal land 
claims.
    ASRC is the largest private land owner on the North Slope, 
and the North Slope is a national energy province. It covers 50 
million acres of the northern portion of our state. It is 
adjacent to both the Beaufort and Chukchi Seas, which overlie 
the most prospective hydrocarbon basins of Alaska's Outer 
Continental Shelf.
    Energy development on Native lands is familiar to ASRC, and 
we recognize that this is very important legislation. Despite 
the fact that there are significant known energy resources in 
Alaska, prospects lie fallow because there is a near-shutdown 
of new onshore and offshore development. A significant 
disincentive to develop these resources is the continuous 
administrative and legal challenges brought by third parties 
whose sole mission is to prevent further development in Alaska.
    No one would suffer greater harm than our people in the 
event of mismanagement of our lands. It is for this reason that 
we welcome a robust discussion about safe and responsible 
development. This legislation contains a mechanism that would 
require that a party seeking a preliminary injunction or 
administrative stay regarding the issuance of permits, 
licenses, or other permissions for Native energy projects post 
a bond in support of that challenge. If the litigant ultimately 
fails to prevail on the merits of the challenge, it would 
forfeit the bond in favor of the permitting agency entity.
    As it stands now, the risks and the costs are all on the 
side of impacted Native communities and sponsors of Native 
energy projects. It would be more equitable to require a bond 
to be posted by parties seeking to challenge such projects. 
Congress would remove one of the significant disincentives of 
production of resources on Native-owned lands by balancing the 
risks between those who seek to responsibly develop Native 
energy projects and--between those who seek to prevent the 
delay of those projects from being developed.
    Without a provision like this, the financial burden on 
Native communities may be too great to move an energy project 
forward because of endless litigation. In fact, we respectfully 
suggest expanding the language to further include mining or, in 
a more general sense, natural resource development projects on 
or near Native lands.
    We are not advocating for, nor do we favor, attempts to 
restrict parties from legitimate challenges to projects that do 
not adhere to applicable Federal and state requirements. We do 
not want to limit our ability to challenge projects that fail 
to meet regulatory requirements designed to ensure that such 
projects do not adversely impact our Inupiaq shareholders, our 
subsistence lifestyle, or cultural resources.
    This legislation strikes an appropriate balance by removing 
incentives for filing ideologically based challenges designed 
simply to delay those projects, while preserving the right to 
bring meritorious challenges.
    It is important to note that the North Slope of Alaska is 
the place that our people have called home since time 
immemorial. We depend on the land and the sea for subsistence 
resources. This defines who we are as people. We recognize and 
accept that our community survival depends on continued energy 
production from our region. Energy developed from resources 
that are located on Native land can play a substantial role in 
domestic energy production, contribute to energy independence, 
and further promote economic growth. Consistent with Federal 
Indian policy, Congress should do everything in its power to 
ensure such resources can be safely and responsibly developed 
without undue delay.
    Thank you again for allowing me to share our views 
regarding this legislation.
    [The prepared statement of Ms. Sweeney follows:]

         Statement of Tara M. Sweeney, Senior Vice President, 
          External Affairs, Arctic Slope Regional Corporation

    Honorable Chairman Young, ranking member Boren, and distinguished 
members of the subcommittee, my name is Tara Sweeney and I am an 
Inupiaq Eskimo from Barrow, Alaska.
    I serve as the senior vice president of External Affairs for Arctic 
Slope Regional Corporation, or ASRC, and I am here representing the 
interests of over 11,000 Inupiaq shareholders of ASRC.
    ASRC is an Alaska Native corporation formed pursuant to the Alaska 
Native Claims Settlement Act of 1971 (ANCSA) for the area that 
encompasses the entire North Slope of Alaska. Shareholders of ASRC 
include nearly all residents of eight villages on the North Slope, 
Point Hope, Point Lay, Wainwright, Atqasuk, Barrow, Nuiqsut, Kaktovik 
and Anaktuvuk Pass.
    ASRC owns approximately five million acres of surface and 
subsurface estate on Alaska's North Slope, conveyed to the corporation 
under ANCSA, as a settlement of aboriginal land claims. ASRC is the 
largest private landowner on the North Slope. Under the terms of both 
ANCSA and the Alaska National Interest Lands Conservation Act of 1980 
(ANILCA), village and regional corporations like ASRC were charged with 
developing their assets, including the ANCSA-conveyed lands, for the 
benefit of their Alaska Native shareholders. The unique character of 
this relationship and these lands, founded in federal Indian law and 
the most significant Native claims settlement in U.S. history, must be 
recognized by Congress and the Federal government in making any land 
management decisions, including decisions that impact the ability to 
develop energy resources on Native lands. ASRC lands are located in 
areas that either have known resources or are prospective for oil, gas, 
coal, and minerals. We remain committed to developing these resources 
and bringing them to market in a manner that respects Inupiat 
subsistence values and ensures proper care of the environment, habitat 
and wildlife.
    As part of this commitment to fulfill our Congressionally-mandated 
obligation to develop resources for the benefit of our shareholders, we 
constantly look to increase economic and individual development 
opportunities within our region, while preserving Inupiat culture and 
traditions. ASRC has fostered a balanced resource development agenda by 
adhering to the traditional values of protecting the land, the 
environment, and the culture of the Inupiat, while promoting 
development which improves the quality of life in the Arctic Slope 
communities.
    Alaska's North Slope is a national energy province. It covers 50 
million acres of the northern portion of our state and hosts many well 
known energy resource prospects and production areas including Prudhoe 
Bay and nearby oil fields, the National Petroleum Reserve in Alaska 
(NPR-A), the Coastal Plain of the Arctic National Wildlife Refuge and 
many others. It is adjacent to both the Beaufort and Chukchi Seas, 
which overlie the most prospective hydrocarbon basins of Alaska's Outer 
Continental Shelf (OCS).
    Energy development on Native lands is familiar to ASRC, and we 
recognize that this is very important legislation. By facilitating 
development of energy on Indian lands, the proposed legislation would 
mark an important step in advancing the causes of energy security and 
providing for economic development in Indian communities. ASRC commends 
this subcommittee for making a significant effort to improve the laws 
which are intended to encourage, but sometime discourage, energy 
development on Indian lands.
    Our communities realize that our survival depends on a healthy 
environment and upon resource development that exists in our region. 
Safe, responsible oil and gas development is the only industry that has 
remained in our region long enough to foster improvements to our remote 
communities. We formed our regional government in part to exercise 
permitting control on the explorers and producers of these energy 
resources and to benefit from the property tax revenues contributed by 
the industry that built energy infrastructure in our region.
    Despite the fact that there are significant known energy resources 
in Alaska that could contribute significantly to both domestic oil and 
gas production and the continued livelihood of Alaska natives, 
prospects lie fallow today because there is a near shutdown of new 
onshore and offshore development. This is due at least in part to a 
mixture of federal policy and land use decisions that have chilled 
exploration and development. However, another significant disincentive 
to development of these resources has been the reality that seemingly 
every stage of every project has been and continues to be the subject 
of administrative and legal challenges, brought by third parties whose 
sole mission is to prevent further development in Alaska.
    Recognizing that the responsible development of Indian energy 
resources both serves the national interest and allows Indian tribes to 
pursue greater economic development and self-sufficiency, we are 
pleased to see that the legislation that is the subject of today's 
hearing contains a mechanism that is designed to reduce the 
uncertainties associated with such responsible development.
    The mechanism would require that a party that seeks a preliminary 
injunction or administrative stay regarding the issuance of permits, 
licenses or other permissions for Indian energy projects post a bond in 
support of that challenge. If the litigant ultimately fails to prevail 
on the merits of the challenge, it would forfeit the bond in favor of 
the permitting entity.
    Currently, the risks and costs are all on the side of the sponsor 
of an Indian energy project--we believe it would be more fair and 
equitable to require a bond to be posted so that parties seeking to 
challenge such projects are encouraged to more fully consider the 
merits of a challenge and face some risk (similar to the risks faced by 
the project developer) in challenging the projects. By balancing the 
risks between those who seek to develop Indian energy projects and 
those who seek to prevent those projects from being developed, we 
believe that Congress would be removing one of the significant 
disincentives that currently exists that has prevented greater energy 
production from resources in Alaska, including on lands owned by Native 
Corporations.
    Similarly, we believe that the manner in which courts have awarded 
attorneys' fees to litigants under the Equal Access to Justice Act is 
skewing the litigation process, particularly where attorneys' fees are 
awarded even in cases where there is no final judgment for the litigant 
challenging the project. This provides an inequitable incentive for 
such litigants to file challenges to every proposed project. In light 
of the trend towards awarding attorneys' fees in all but the rarest of 
cases, we believe that it is necessary (and equitable) to remove this 
financial incentive to challenge every step of every Indian energy 
project.
    We further suggest expanding the language to include mining, or in 
a more general sense, natural resource development projects on or near 
Native lands.
    Please note that we are not advocating for, nor do we favor, 
attempts to restrict parties from legitimate challenges to projects 
that do not adhere to applicable federal and state requirements. 
Indeed, we have been very involved in ensuring that energy exploration 
and development on the North Slope and elsewhere in Alaska does not 
adversely impact the subsistence lifestyle of our Inupiaq shareholders. 
We have pushed project developers to implement extra measures to avoid 
conflict with our subsistence hunters, and we do not want to limit our 
ability to challenge projects that fail to meet regulatory requirements 
designed to ensure that such projects do not adversely impact our 
Inupiaq shareholders, their subsistence lifestyle, or their cultural 
resources. We believe that the legislation strikes an appropriate 
balance in terms of the risks and costs of Indian energy projects by 
removing incentives for filing meritless challenges designed simply to 
delay those projects, while preserving the right to bring meritorious 
challenges.
    In conclusion, it is important to remember that the North Slope of 
Alaska is the place that our people have called home since time 
immemorial. The North Slope Inupiat community subsists off the land and 
the sea that continue to provide the resources that support our 
survival. In addition to the substantial potential value that 
responsible development of the area's natural resources holds for our 
people, the land and its resources are essential to our subsistence way 
of life.
    Congress must take a leadership role in developing sound energy 
policy for our nation. The federal government continues to send mixed 
messages about domestic energy production, and now is the time for 
Congress to act in the best interests of Americans with respect to 
domestic energy and energy supply. Energy developed from resources that 
are located on Indian land, including land owned by Native Corporations 
under ANCSA, can play a substantial role in domestic energy production, 
and Congress should do everything in its power to ensure that such 
resources can be safely and responsibly developed, and without undue 
delay. ASRC stands ready to be part of the domestic energy supply 
solution for Congress.
    We find that our community survival depends on continued energy 
production from our region. Let me be clear, without development in our 
region our communities will not survive. Thank you again, Committee 
members, for allowing me to share our views regarding this important 
legislation.
                                 ______
                                 
    Mr. Gosar. Thank you.
    Mr. King?

STATEMENT OF RANDALL KING, CHAIRMAN, SHINNECOCK NATION BOARD OF 
                TRUSTEES, SOUTHAMPTON, NEW YORK

    Mr. King. Good afternoon, Chairman Young, Congressman 
Gosar, Ranking Member Boren, and members of the Subcommittee. 
My name is Randy King; I am the Chairman of the Shinnecock 
Indian Nation Board of Trustees. Thank you for the opportunity 
to testify today on H.R. 3973, the Native American Energy Act.
    I must apologize in advance, due to tight travel 
restrictions, if I have to leave early. I will have a wife soon 
at the train station not knowing whether she is coming or 
going, and I take full responsibility for that, for the record.
    [Laughter.]
    Mr. King. The Shinnecock Nation's Reservation is located in 
Suffolk County, New York, on Long Island. We have lived on Long 
Island as a self-governing nation exercising jurisdiction over 
our land since time immemorial. Despite this long history, we 
were only recently acknowledged by the Federal Government as a 
Federally recognized Indian tribe. Federal acknowledgment opens 
up new opportunities for us to provide for the critical needs 
of our communities, including the development and management of 
our energy resources.
    Because the Nation's Reservation is geographically limited 
and surrounded on three sides by water, we have an acute sense 
of the growing threat of climate change, and the need to plan 
for our energy future. Our energy planning includes developing 
sustainable energy projects that will serve the immediate needs 
of the nation, and longer-term adaptation that will be needed 
in the face of climate change impacts over time.
    In order to be self-sufficient, the Shinnecock people will 
need reliable sources of energy, not just energy generation, 
but also energy efficiency and weatherization measures that 
will help us control energy costs. We are currently working on 
a potential partnership with a local university, Stony Brook 
University at Long Island Southampton Campus, to develop a 
hydrokinetic project. Hydrokinetic power offers a clean, 
reliable, domestic source of energy that could have far-
reaching benefits for all coastal communities. We hope that 
this project will help diversify our economy, provide energy 
experience for tribe members, and be a demonstration project 
for others.
    We support H.R. 3973 and believe that the bill is 
consistent with our energy-planning goals. We specifically 
support the bill's reforms to the appraisal process, the 
environmental review process, and the creation of Indian energy 
development offices. In addition to what is already in H.R. 
3973, we ask that the Subcommittee include additional changes 
needed for small coastal communities like ours.
    First, we appreciate Chairman Young's work to support 
hydrokinetic projects by cosponsoring another bill, H.R. 2994, 
which will improve marine and hydrokinetic renewable energy 
research and development. We request that the Subcommittee 
consider including the provisions of H.R. 2994 in this Indian 
energy bill. Or, if that is not possible, we ask that you work 
with the bill's sponsors to ensure the tribes are included in 
H.R. 2994, as eligible entities for grant funds to implement 
hydrokinetic test facilities.
    Second, the need for energy security and sound domestic 
energy supply justifies an expedited fee to trust process for 
tribal energy projects. This, however, does not negate or 
resolve the current issues many tribal nations face in the wake 
of the Carcieri Decision. We believe resolving the Carcieri 
problem through adoption of a Carcieri fix will significantly 
assist tribal nations in moving forward with social welfare and 
economic development projects such as new, more efficient 
housing and renewable energy projects.
    Third, we aspire to make the President's executive order on 
stewardship of the ocean, our coast, and Great Lakes a reality. 
We plan to examine opportunities for development of ocean 
energy technology. This would be a monumental step toward 
energy security and conservation for the entire northeast 
region. In order to be successful in this pursuit, we will need 
the ability to permit such facilities and have access to 
Federal programs and funds that promote the development of 
offshore energy projects. We ask that the Subcommittee help to 
make sure that tribes are included in programs and legislation 
supporting offshore energy projects.
    Fourth, we recommend that the Subcommittee ensure that 
tribes are able to take advantage of renewable energy tax 
credits. These tax credits have become essential to financing 
renewable energy projects and lowering the cost of the energy 
produced. Tribes need to be able to monetize these tax credits, 
or share them with a private energy partner. Without the 
ability to utilize renewable energy tax credits, tribes will be 
priced out of the market.
    Finally, the Nation supports many of the other suggestions 
made by tribes at this hearing. Like many tribes, the Nation 
wants to exercise self-determination over its energy resources. 
To do this, we need Congress to reform laws that stand in our 
way, include tribes in all Federal energy programs, and ensure 
that tribes can exercise the full range of governmental 
authorities needed to develop the physical and legal 
infrastructure to support energy development.
    I would like to thank Chairman Young, Congressman Gosar, 
Ranking Member Boren, and members of the Subcommittee for the 
opportunity to present this testimony on behalf of the Nation. 
I am available to answer any questions.
    Thank you.
    [The prepared statement of Mr. King follows:]

           Statement of The Honorable Randy King, Chairman, 
                        Shinnecock Indian Nation

    Good afternoon Chairman Young, Ranking Member Boren, and Members of 
the Subcommittee on Indian and Alaska Native Affairs. My name is Randy 
King. I am the Chairman of the Shinnecock Nation Board of Trustees. 
Thank you for the opportunity to testify today on H.R. 3973, the Native 
American Energy Act.
    The Shinnecock Nation's Reservation is located within the 
geographic boundaries of Suffolk County, New York--on Long Island. The 
Nation has maintained its existence on Long Island as a self-governing 
nation with a land base that it has exercised jurisdiction over since 
time immemorial. Despite this long history, the Nation was only 
recently acknowledged by the federal government. This circumstance has 
resulted in a situation where the Nation bears all the burdens and 
responsibilities of governing its land base without the support of 
federal resources that other tribes utilize.
    Federal acknowledgement opens up new opportunities for the Nation 
to provide for the critical needs of its communities, including 
implementation of energy development and efficiency measures. The 
Nation is facing impacts from climate change, growing energy costs, and 
the need to provide jobs for its members. In order to provide long-term 
economic opportunities for our members, protect our Reservation 
homelands, and address the imminent challenges of climate change, the 
Nation must plan for its energy future. We have already begun by 
partnering with local organizations, including Stony Brook University, 
to develop and implement renewable energy projects that will benefit 
both the Nation and the surrounding communities.
    Since the Nation gained federal recognition status, it has worked 
to build its sovereign capacity and self-governing infrastructure to 
better serve its tribal members. The Nation now has the ability to 
apply for federal grants to support and expand land use planning, 
environmental protection, health and safety, energy sovereignty, and 
economic self-sufficiency. Prior to now, the Nation has never been able 
to take advantage of federal assistance programs that many tribes 
utilize. The Nation plans to use this new opportunity to meet the needs 
of its members in the area of energy development by examining options 
for energy self-sufficiency, and economic development, including 
training and jobs for tribal members, as well as energy efficiency 
programs.
    According to the economic characteristics data set from 2005-2009, 
the U.S. Census Bureau reports that a significant portion of the tribal 
membership is unemployed, underemployed, or in need of employment. This 
percentage does not include tribal members who are living off the 
Reservation, and want to come home to raise their families within their 
traditional community. In 2003, more than 70 percent of the Shinnecock 
citizens lived in Suffolk or Nassau County on Long Island or in one of 
the boroughs of New York City, all approximately within a two-hour 
drive of the Reservation. The Nation is faced with the challenge of 
developing and promoting energy projects that will provide benefits to 
all its members both on the Reservation and off. In order to meet this 
challenge the Nation must be able to create and implement sustainable 
energy projects that benefit the Reservation and surrounding area.
    Because the Nation's Reservation is geographically limited and 
surrounded on three sides by water, we have an acute sense of the 
growing threat of climate change and the need to plan for our energy 
future.
    The Nation's energy planning includes developing sustainable energy 
projects that will serve the immediate needs of the Nation, and longer 
term adaptive measures that will be needed in the face of climate 
change impacts over time. Energy independence will play a critical role 
in meeting these challenges. In order to be self-sufficient and 
sustainable as a Nation, the Shinnecock people will need to have sound 
reliable sources of energy. This includes not just generation 
resources, but also energy efficiency and weatherization measures that 
will help the Nation control energy costs for itself and its members.
    Environmentally sound energy development and the promotion of 
tribal energy sustainability would dramatically and positively impact 
the Shinnecock tribal economy by creating revenue through the sales of 
clean energy and, potentially, carbon credits, into the regional 
economy. Our effort to gain energy independence would promote the long-
term security of our communities, provide a major regional economic 
boost, and provide a test-case in clean energy development that can 
assist the Department of the Interior (DOI), the Department of Energy 
(DOE), and other tribal communities seeking examples of successful 
tribal energy management and renewable energy development.
    The Nation intends to implement its energy planning through a 
potential partnership with Stony Brook University's Southampton Campus 
to develop a hydrokinetic project. This project would allow a research 
facility to be put in place off the coast of the Nation's Reservation. 
Tribal members and the University will be able to gain practical 
engineering experience and electric market experience in the 
development of the project. Hydrokinetic power offers a clean reliable 
domestic source of energy that could have far reaching benefits not 
only for Shinnecock, but for all coastal communities.
    The Tribe supports H.R. 3973. Promoting Indian energy and tribal 
management of energy resources is consistent with the Nation's energy 
planning and goals described above. The Nation specifically supports 
the bill's reforms to the appraisal process, the environmental review 
process and the creation of Indian Energy Development Offices. In 
addition to what is already in H.R. 3973, the Nation requests that the 
Subcommittee include additional changes needed to overcome barriers to 
Indian energy development.
    As a newly acknowledged tribe, the Shinnecock Nation needs support 
for land into trust, tribal permitting processes, and restructuring of 
renewable tax credits. We ask the Subcommittee to consider including 
provisions for incentives for development of offshore technologies, and 
an expedited fee to trust process for lands where energy projects are 
intended to be developed. Below, we provide some specific examples of 
how these changes in law and additional tools for tribal governments 
would help us manage our energy resources and provide long-term 
economic resources for our communities.
    First, the Nation appreciates Chairman Young's work to support 
hydrokinetic projects by co-sponsoring another bill, H.R. 2994, which 
will improve marine and hydrokinetic renewable energy research and 
development. The Nation requests that the Subcommittee consider 
including the provisions of H.R. 2994 it this Indian energy bill. Or, 
if that is not possible, the Nation asks that the Subcommittee work 
with the bill's sponsor, Congressman Inslee, to ensure that tribes are 
included as eligible entities for grant funds to implement hydrokinetic 
test facilities. Currently, H.R. 2994 does not include tribes as an 
eligible entity. The Nation request that the legislation be amended to 
include federally recognized tribes so that the Nation has an equal 
opportunity to apply for such funding and participate with other 
entities on Long Island as an equal partner for implementation of this 
important project.
    Second, the Nation also has an opportunity to purchase a tract of 
land on eastern Long Island that could be utilized for the development 
of a solar power facility that would bring clean and reliable energy to 
Long Island. Currently, there are transmission constraints on Long 
Island that have impacted the ability for the eastern end of the Island 
to have reliable power. The Nation's plan to acquire the lands and 
develop a solar facility on eastern Long Island would help meet New 
York State's renewable portfolio standard and also provide local power 
without the constraints of wheeling power from other areas which would 
promote the reliability of electricity for the Nation and Long Island.
    In addition, this potential project is consistent with Governor 
Cuomo's Energy Highway concept as it creates new clean sources of power 
to meet the needs of Downstate New York, while providing skilled jobs 
for tribal members and revenue for the Nation. This provides a win-win 
for both the Nation and the state of New York, allowing for a 
beneficial partnership that can be built on for future tribal energy 
projects in New York. However, in order to move forward with the 
proposed solar project the Nation will need to acquire the land and 
have it placed into trust. The Nation recommends including legislation 
in this bill that would require the DOI to expedite fee to trust 
applications for tribal energy projects.
    Third, the Subcommittee should consider exemptions from DOI 
approvals for energy projects in Indian country. As an alternative to 
DOI approvals, tribes could conduct their own environmental review and 
approval programs. While the Tribal Energy Resource Agreement 
provisions of the 2005 Energy Policy Act already allow tribes to do 
this, not every tribe has the resources to develop a TERA application. 
Every tribe is at a different place it is capacity to oversee energy 
projects and alternatives should be available for tribes to take over 
some DOI approvals, but not necessarily the whole program.
    Fourth, the Nation aspires to make President Barack Obama's 
Executive Order on ``Stewardship of the Ocean, Our Coasts and the Great 
Lakes'' a reality and plans to examine its opportunities for 
development of ocean energy technology, which will be a monumental step 
towards energy security and conservation for the entire Northeast 
Region. In order to be successful in this pursuit, the Nation will need 
to have the ability to permit such facilities, and have access to 
federal programs and funds that promote the development of offshore 
energy projects.
    On July 19, 2010, President Obama signed the Executive Order and 
established a National Ocean Policy to ensure the United States' 
coasts, oceans and lakes are ``healthy and resilient, safe and 
productive. . .so as to promote the well-being, prosperity, and 
security of present and future generations.'' Exec. Order No. 13547, 
Sec. 2. The Executive Order contemplates direct participation by tribal 
officials in the promotion of this policy, as well as tribal 
collaboration with state and Federal officials, with the goal of 
developing and implementing regional coastal and marine spatial 
planning that includes assessment and consideration of offshore 
renewable energy technologies.
    The Nation intends to participate in the process, and pursue the 
potential for clean renewable ocean energy development; including both 
the aforementioned hydrokinetic project, as well as examining the 
potential for offshore wind projects. The Nation asks that the 
Subcommittee help to make sure that tribes are included in programs and 
legislation supporting offshore energy projects.
    Fifth, the Nation looks to the Subcommittee and Congress for 
support in the development and implementation of sound energy policies 
that will be able to promote environmentally friendly energy resources, 
and economic opportunities. An environmentally sound and predictable 
order for development on the reservation allows the Nation to move 
forward with implementation of much needed energy projects, and, in 
turn, provides certainty for those considering investing in the Nation 
from an economic stand point, as well as for government agencies 
considering awards to the Nation for energy programs.
    The Nation has struggled for more than three decades for its 
rightful place as a federally recognized Indian tribe, it now needs to 
focus on the long term sustainable development of tribal resources. It 
is critical that Congress adopt policies that will allow for Indian 
tribes to meet our long term goals by ensuring that federal programs 
designed to promote development of renewable power projects include 
Indian tribes as beneficiaries, and that policies supporting tribal 
permitting of such projects on tribal land be in place.
    The Nation is confident that tribal members and the surrounding 
communities will mutually benefit from environmental conservation, 
economic self-sufficiency and job creation that would come from a more 
streamlined tribal permitting process, expedited fee to trust 
applications for energy projects, and full access to grants, loan 
guarantees and tax credits used to advance energy technology and 
promote energy development. The Nation believes that the renewable 
energy mandatory purchase requirements of state and federal agencies 
are only going to increase. The Nation hopes to be a part of this 
growing market while at the same time promoting environmentally 
positive energy resources, as well as providing resources to assist 
coastal communities in climate change adaption measures.
    Fifth, as the Nation increases its energy activities, our tribal 
government will need to use the same tax revenues as other governments 
use to staff our energy programs, finance energy projects, and oversee 
tribal infrastructure. The bill should also ensure that tribes can 
raise needed tax revenues. Without tax revenues we will not be able to 
develop the infrastructure necessary to manage and oversee our energy 
resources.
    Sixth, tribes also need to be able to take advantage of renewable 
energy tax credits. These tax credits have become essential to 
financing renewable energy projects and lowering the cost of the energy 
produced. Tribes need to be able to monetize these tax credits or share 
them with a private energy partner. Without the ability to utilize 
renewable energy tax credits tribes will be priced out of the market.
    Seventh, the bill should open up federal energy efficiency and 
weatherization programs to tribal participation. For decades the 
federal government has helped state governments manage their energy 
costs by providing around $50 million a year in energy efficiency 
funding. Tribal governments need the same support.
    The bill should also require the DOE to send weatherization funding 
directly to tribal governments. Currently, DOE sends the money to state 
non-profits and tribes barely see a dime. DOE does not even know how 
much funding tribes receive. This funding should go to those who need 
it most, but for decades DOE has ignored the needs of reservation 
homes.
    Finally, we support many of the other suggestions made by tribes at 
this hearing. Like many tribes, the Nation wants to exercise self-
determination over its energy resources. To do this, we need Congress 
to reform laws that stand in our way, include tribes in all federal 
energy programs, and ensure that tribes can exercise the full range of 
governmental authorities needed to develop the physical and legal 
infrastructure to support energy development.
    I would like to thank Chairman Young, Ranking Member Boren and 
members of the Subcommittee for the opportunity to present this 
testimony on behalf of the Nation.
[GRAPHIC] [TIFF OMITTED] T2944.006

[GRAPHIC] [TIFF OMITTED] T2944.007

                                 __
                                 
    Mr. Gosar. Chairman King, thank you very much, and I know 
you have to run. I know that feeling.
    At this time I would like to acknowledge Mr. Groen.
    Mr. Groen?

STATEMENT OF WILSON GROEN, PRESIDENT AND CEO, NAVAJO NATION OIL 
AND GAS COMPANY EXPLORATION AND PRODUCTION (ARIZONA/NEW MEXICO/
                  UTAH), WINDOW ROCK, ARIZONA

    Mr. Groen. Thank you, Chairman Young, Congressman Gosar, 
Ranking Member Boren, other distinguished members. I am Wilson 
Groen, President and CEO of Navajo Nation Oil and Gas Company. 
Accompanying me today is Louis Denetsosie, our General Counsel, 
former Attorney General for the Navajo Nation, and the first 
Chairman and President of Navajo Oil and Gas.
    Again, I want to thank----
    Mr. Gosar. Can you pull that microphone closer to you, so 
we can all hear?
    Mr. Groen. OK.
    Mr. Gosar. There you go.
    Mr. Groen. That better? OK. We again want to thank Chairman 
Young and all those present for their support of this bill. We 
feel it is a very positive step forward, as we move forward 
with energy development in Indian Country.
    Navajo Oil and Gas is a for-profit energy corporation that 
was formed to reacquire, develop, and optimize the value of the 
Nation's energy resources, and to do these in an efficient, 
sustainable, and environmentally and culturally sensitive 
manner. I want to stress that. Because that is what we feel is 
critical, not only the development of it but the environmental 
and cultural sensitivity.
    As you know, the Nation is larger than the State of West 
Virginia. It has vast oil and gas, helium, wind, coal, solar 
resources. On your right is a map showing the size of the 
Nation. The Nation is--an NNOGC--is in a robust growth mode. It 
has returned significant royalty, taxes, right-of-way, and 
lease payments to the Navajo Nation. We also support an active 
scholarship program for the development of the Navajo Nation 
students. And the future of our company is the Navajo Nation 
people itself.
    On the Navajo Nation's production, oil was discovered back 
in the 1920s on the Navajo Nation lands. In the 1950s, one of 
the largest oil fields in the lower 48 states was discovered, 
Aneth Field. The graph that you see on your left shows in the 
mid-1990s a very rapid decline.
    There is a 6 to 10 percent decline in the oil production 
from the Nation. The flattening that you see that starts in 
2004 and the subsequent increase, is a result of Navajo Oil and 
Gas, in coordination with Resolute Energy acquiring the 
properties from major oil companies, putting significant 
resources into that, and then now moving forward toward--in 
flattening that decline and moving it toward increased 
production on the Nation. This is all very critical to the 
overall Nation's energy self-sufficiency and the economic 
development of the Nation.
    As we move forward on to the development of these, how do 
we develop our Nation's resources and accelerate this economic 
growth, become a self-sustainable Nation? The energy 
development is the key to this. The Nation's general revenue 
fund, nearly all, probably 90-plus percent of it, comes from 
energy-related sources: royalty, taxes, and other type of 
benefits.
    We strongly support the Native American Energy Act, and our 
focus is actually on Section 11 of that, and it will very 
clearly help us reduce the Federal interference and the 
duplication and oversight of Federal agencies from the Navajo 
Nation agencies.
    The Nation has a very extensive and well-founded energy 
program in which we have an environmental protection agency, 
historic preservation, fish and wildlife, and a minerals 
department. H.R. 3973 will help us continue this growth of the 
company, and will extend and accelerate our ability to develop 
economic resources of the Nation.
    We again thank Chairman Young, and Congressmen Boren and 
Gosar.
    We appreciate your leadership and support of this energy 
effort. And we do think it will continue to lead to self-
sufficiency of the Navajo Nation. Thank you.
    [The prepared statement of Mr. Groen follows:]

    Statement of Wilson Groen, President & Chief Executive Officer, 
          Navajo Nation Oil and Gas Exploration and Production

Introduction
    Good afternoon Chairman Young, Ranking Member Boren, Congressman 
Gosar and members of this distinguished Subcommittee.
    My name is Wilson Groen and I am the President and Chief Executive 
Officer of the Navajo Nation Oil and Gas Exploration and Production 
(NNOGC), an oil and gas exploration, development and distribution 
company wholly-owned by the Navajo Nation.
    I want to thank Chairman Young, Ranking Member Boren, and our 
Congressman, Paul Gosar, for consulting with tribal leaders and experts 
in the energy sector in the development and introduction of H.R. 3973. 
I would also like to thank the Chairman and Ranking Member for the 
February 8, 2012 letter to Secretary Salazar calling his attention to 
the fact that the Bureau of Land Management's proposed hydraulic 
fracturing regulation will provide additional, harmful and unnecessary 
regulatory burdens on energy producers in Indian Country on top of 
those already in place.
History of the NNOGC
    The Zah/Plummer administration issued the Navajo Nation Energy 
Policy (Energy Policy) in January 1992. The Energy Policy was 
formulated with input from energy specialists, environmentalists, 
economic development specialists, lawyers, and political leaders of the 
Navajo Nation. The Energy Policy observed that the Navajo Nation was 
resource rich, but that it was neither obtaining proper value for its 
minerals nor, more importantly, participating in the energy industry as 
a business owner. The oil and gas leases issued by the BIA had 
relegated the Navajo Nation to the role as passive lessor, and that 
needed to be changed.
    NNOGC is a direct outgrowth of the 1992 Energy Policy. The Navajo 
Nation Council created the Navajo Nation Oil and Gas Company, Inc., in 
1993 as a tribal corporation for the purpose of engaging in oil and gas 
production as an integrated, for-profit business entity. The goal of 
the Council was to address the minimal values accruing to the Nation 
from oil and gas production on Navajo Nation trust lands.
    NNOGC received $500,000 in start-up capital from the Navajo Nation 
Division of Economic Development and, with a three-year grant from the 
BIA, produced a comprehensive business plan which initially 
concentrated on so-called ``downstream'' activities--service stations 
and convenience stores--and on increasing revenues to the Nation by 
taking oil royalties ``in kind'' and marketing that oil at better 
prices than by the Nation's lessees.
    Since its creation, NNOGC has acquired and now operates an 87-mile 
crude oil pipeline, acquired and is continuing to acquire significant 
oil and gas working interests in the Greater Aneth, Utah, oil fields, 
and expanded its retail and wholesale business. While NNOGC is still in 
a robust growth mode, it has returned significant royalty payments, 
taxes, right-of-way payments, lease payments, scholarships and other 
contributions to the Navajo Nation and host communities, which these 
entities use to provide employment and services to the Navajo People.
    NNOGC commenced operations in 1995, building two Chevron stations 
in Window Rock and Kayenta and acquiring another at Chinle. NNOGC 
immediately elevated the standards of service and cleanliness for 
stations on the Reservation; some stations did not even have toilets 
for the employees, much less the traveling public. Because of the 
favorable decision in Oklahoma Tax Comm'n v. Chickasaw Nation, 515 U.S. 
450 (1995), NNOGC was able to lawfully bring gasoline into the Navajo 
Nation without State gasoline excise taxes, and NNOGC became the 
distributor of choice on the Reservation. NNOGC then purchased crude 
oil gathering and transmission pipelines when the right-of-way for 
those lines was about to expire. Those activities made NNOGC profitable 
and increased revenues to the Nation significantly.
    After the Internal Revenue Service issued Revenue Ruling 94-16, it 
became clear to NNOGC that it should operate as a Federal corporation 
chartered under section 17 of the Indian Reorganization Act, as 
amended. The Navajo Nation Council petitioned the Secretary of the 
Interior for such a charter by Resolution in January 1997, and the 
Secretary issued the charter in December 1997. The Council ratified 
that charter by unanimous vote in February 1998. The Navajo-chartered 
corporation merged into the new Federal corporation shortly thereafter.
    The State of Arizona sought a fuel excise tax agreement with the 
Nation. NNOGC negotiated that agreement on behalf of the Nation, and it 
has proved valuable to both the State and the Navajo Nation, which now 
retains 96.5% of those taxes and devotes that money to road 
construction and maintenance. While NNOGC lost its competitive 
advantage after the tax-sharing agreement was signed, the Council 
allocated Navajo funds to launch NNOGC into the ``upstream'' 
(exploration and production) part of the business.
NNOGC's Oil and Gas Production
    From 1998 to 2004, oil and gas production on Navajo lands in 
southeastern Utah had been in decline from 6% to 10% annually. Since 
then, NNOGC, in partnership with Resolute Energy Corporation 
(``Resolute''), has improved production levels and enhanced oil and gas 
recovery and the Nation is enjoying an increase in annual production, 
and consequently oil and gas royalty revenues. It is critical to the 
development of a sustained Navajo Nation economy to continue oil and 
gas resource development on Navajo lands. Approval of the proposed 
amendments to 25 U.S.C. Sec. 415(e) will increase the likelihood that a 
sustainable reservation economy can be achieved.
    NNOGC and Resolute have now reversed the decline curve, and 
production from the Aneth Field has actually increased. The investments 
of NNOGC and Resolute have had other benefits, including increasing 
employment and adding to economic prosperity in the Four Corners Area.
    NNOGC, often with industry partners, is also leasing and developing 
additional tracts of land within and near the Navajo Reservation. NNOGC 
has recently partnered with another company to develop oil and gas 
reserves in Montana. NNOGC has also obtained rights to 150,000 acres of 
land within the Navajo Nation to develop coal bed methane, oil and 
conventional gas resources. NNOGC is also exploring the feasibility of 
developing helium reserves on the Reservation. All of this activity 
contributes not only to the self-sufficiency of the Navajo Nation, but 
also to the energy security of the United States.
    NNOGC has expanded from its main office near Window Rock, Arizona, 
with an exploration and development office in Denver. NNOGC's generous 
scholarship program seeks to educate and train capable Navajo students 
who want to participate in this dynamic field at the highest levels. 
NNOGC has returned significant royalty payments, taxes, right-of-way 
payments, rentals, bonuses, scholarships and other contributions to the 
Navajo Nation and our host communities, and that money is devoted to 
essential governmental services by the Nation.
    NNOGC's continued growth is critical to the development of a 
sustained Navajo Nation economy. Approval of the amendments to 25 
U.S.C. Sec. 415(e) as contained in section 11 of the ''Native American 
Energy Act'' will facilitate that growth and encourage Navajo self-
determination by removing federal delays and unnecessary obstacles from 
the process.
Comments on ``The Native American Energy Act''
    The NNOGC fully supports the objectives of the bill, namely to 
eliminate or reduce undue Federal interference in tribal energy 
resource development, strengthen tribal self determination, and boost 
energy resource production on Indian lands. We support the provisions 
of the bill and, in particular, believe the following sections will go 
a long way to achieve these objectives.
    Section 3 of H.R. 3973 amends existing law to reform the costly and 
inflexible appraisal process and places a 30-day limit on the Interior 
Secretary's review and approval (or disapproval) of the appraisal. This 
section also authorizes tribes to waive the appraisal requirement, 
provided it releases the United States from liability for damages as a 
result of the lack of an appraisal.
    Section 5 amends the existing law to reform the environmental 
review process triggered under the National Environmental Policy Act by 
limiting the distribution of required environmental documents to 
members of the relevant Indian tribe and other individuals residing 
``within the affected area.'' We believe this language will serve to 
reduce often-frivolous challenges made to energy projects on Indian 
lands.
    Section 6 of the legislation would direct the Secretary to 
establish 5 ``Indian Energy Development Offices'' to (1) provide 
energy-related information and resources to tribes and tribal members; 
(2) coordinate meetings and outreach among tribes, tribal members, 
energy companies, and relevant governmental agencies; (3) oversee the 
timely processing of energy applications, permits, licenses, and other 
documents subject to development, review or processing by specifically 
named Federal agencies; and (4) consult with Indian tribes to determine 
what services, information, facilities or programs would best expedite 
the responsible development of energy resources.
    We understand the objectives of section 6 but, as far as the Navajo 
Nation and the NNOGC are concerned, believe a more effective option is 
that included in section 11 of H.R. 3973.
    As the Subcommittee knows, there is a long list of impediments to 
energy resource development on Indian lands. The NNOGC supports section 
7 of the bill which will eliminate some of the financial challenges and 
prohibits the Secretary, from collecting any fee (1) for applications 
for permits to drill; (2) to conduct any oil or gas inspection 
activity; or (3) on any oil or gas lease for nonproducing acreage.
    Just as section 5 would reform the NEPA process, section 8 will 
provide disincentives to those who would challenge energy projects on 
Indian lands by requiring the posting of surety bonds and payment of 
attorneys fees if the challenge is solely for purposes of frustrating 
such energy projects. The NNOGC supports this section and believes it, 
will level the playing field when it comes to frivolous lawsuits and 
dilatory administrative tactics that prevent energy projects from being 
pursued in Indian Country.
    Likewise, the NNOGC supports sections 9 and 10 which will, 
establish a Tribal Biomass Demonstration Project, and provide that 
tribal resource management plans approved by the Secretary shall be 
considered ``sustainable management practices'' for purposes of any 
Federal standard, benefit or requirement that requires a demonstration 
of such sustainability.
    In close collaboration with the Navajo Nation, the NNOGC is 
appreciative of the inclusion of section 11 in H.R. 3973. We are also 
very appreciative of the strong support we have received from 
Congressman Paul Gosar.
Section 11. Leases of Restricted Lands for the Navajo Nation
    In 2000, the Navajo Nation requested Congress to amend the Long 
Term Leasing Act (25 U.S.C. Sec. 415) to authorize Nation to develop 
and execute its own business, home-site, agricultural and other leases 
without the approval of the Interior Secretary. The Nation made this 
request because member-owned businesses were not developing on tribal 
lands due to the overlay of tribal and Federal authority in granting 
business leases and other barriers such as bonding requirements, 
requirements for appraisals, and delays in lease processing and 
obtaining financing.
    The Congress responded by adopting 25 U.S.C. section 415(e)--the 
Navajo Nation Surface Leasing Act--which authorizes the Navajo Nation 
to execute its own leases without Federal approval, provided that the 
leases are issued pursuant to regulations approved by the Secretary and 
leases are limited to 25 years, subject to a right of renewal.
    The 25-year limitation has hindered financing of improvements and 
thus discouraged long-term investment in the business site leases, and 
the Navajo Nation Council has, by resolution, requested that this 
limitation be removed and that the Nation be permitted to issue such 
leases with terms of up to 99 years, as is permitted on other 
reservations and was permitted on the Navajo Reservation when Congress 
passed the Navajo Nation Surface Leasing Act in 2000.
    The Nation has promulgated leasing regulations, approved by the 
Secretary, and has been operating its own surface leasing regime 
without event for approximately seven years. All business site leases 
require surveys, geo-tech studies, archaeological clearances, and 
environmental assessment taking into account the impacts on the natural 
and human environment pursuant to the Navajo Nation's business leasing 
and environmental laws. The various agencies and offices of the Navajo 
Nation, which are the most advanced in Indian Country, have more than 
ten years experience in performing these studies and assuring 
regulatory compliance. The Navajo Nation successfully manages the 
Navajo Nation Environmental Protection Agency, Department of Historic 
Preservation, Fish and Wildlife Department, the Minerals Department, 
and the Navajo Land Department.Section 11 of H.R. 3973 would continue 
to advance Navajo Nation self-determination and self-sufficiency by 
amending the Nation's leasing authority to permit business and 
agricultural and other surface leases for terms up to 99 years, and by 
further amending 25 U.S.C. Sec. 415(e) to provide the Navajo Nation the 
ability to execute mineral leases, again, under the regulations 
approved by the Secretary of the Interior, for a term of 25 years, and 
potential renewal for an additional term of 25 years, the customary 
terms of minerals agreements approved by the Navajo Nation Council 
since approximately 1985.
Conclusion
    In conclusion, I want to thank Chairman Young, Ranking Member 
Boren, and Congressman Gosar for their leadership and vision in 
developing and introducing ``The Native Energy Act.''
    It is our hope that the Subcommittee and the Full Committee on 
Resources will quickly and favorably report this important legislation 
to the House Floor for its consideration.
    At this juncture, I would be happy to answer any questions you 
have.

[GRAPHIC] [TIFF OMITTED] T2944.001

[GRAPHIC] [TIFF OMITTED] T2944.002

[GRAPHIC] [TIFF OMITTED] T2944.003

                                 __
                                 
    Mr. Gosar. I thank you all for your testimony. We are going 
to go to the questioning aspect. We are going to try to keep it 
to five minutes. But if Members have more questions, we can go 
to a second round.
    We are going to go to the Ranking Member, Mr. Boren, who 
has got to leave.
    Mr. Boren. OK. Thank you very much, Mr. Chairman. I have a 
couple comments, and then just a few questions. Ms. Sweeney, 
thank you for traveling so far. And I know you are going to be 
getting back on another plane again is what my sources tell me. 
And so thank you for traveling so far. And I have been on that 
flight, and I know the Chairman has, many a time. So thank you 
for being here.
    Mr. Fox, please give Mr. Hall our best. He is one of my 
favorites, with the big old cowboy hat and everything. And he 
is a great guy.
    Mr. Groen, I want to talk or ask you a couple questions 
about the Navajo Nation and in regards to hydraulic fracturing. 
You mentioned that there was some oil production on these 
lands. There is also a lot of natural gas activity going on. 
And let me ask you. What would happen if Secretary Salazar, you 
know, whoever it may be, says, ``We are just going to stop 
fracking on these lands''? Would there be a steep drop-off? 
First question.
    And of course, I think fracking is a very useful tool, but 
that is the first question. The second question is, you know, a 
lot of tribes--you know, we have tribes, as an example, in 
Oklahoma, the Osage Nation, who has been very good at, you 
know, producing its resources. We are not a reservation-state, 
but let me ask you this. Do you all have the infrastructure and 
the governmental capacity to administer the sub-surface leasing 
program?
    You know, obviously, not all tribes are alike. Some are 
larger, some are smaller. Do you all have the infrastructure to 
do that, currently? And that is--you know, as we talk about 
self-determination and a lot of other things, the Chairman, as 
he crafts this bill--do you all have that capability? It would 
be interesting to see if you all do have that.
    And then also, we would love to hear your thoughts on 
fracking.
    Mr. Groen. Thank you, Congressman Boren. First off, the 
extensive hydraulic fracturing that is going on in the Bakken 
area and so on is not extensively used on the Nation at this 
particular point. We do fracking in the Aneth Field, and it has 
been an ongoing practice for some time. And some of the peeks 
that you see in that curve are when some of that new technology 
was applied.
    Having said that, we are in the process of developing a new 
play which has many similarities to the Bakken. And these 
restrictions would have a very negative impact on going forward 
with this play development. It is referred to as the Mancos 
Shale. So yes, there would be.
    The Navajo Nation has a very extensive regulatory 
department. They have their own environmental protection 
agency. It has primacy in a number of issues in air and water-
related activities. They also regulate the underground 
injections programs, they oversee some of that. Additionally, 
we have fish and wildlife, historic preservation, cultural 
sensitivity, and minerals departments that are fairly extensive 
and well-established departments. They have been around for 
many years, so I do believe the Nation has that regulatory 
capacity.
    Mr. Boren. Thank you. That is a great response, and good to 
hear. And with that I yield back, Mr. Chairman.
    Mr. Gosar. At this time I would recognize the Chairman of 
the Committee, Mr. Young.
    Mr. Young. Thank you, Mr. Chairman. How do you like that, 
Mr. Chairman? You like that pretty good?
    [Laughter.]
    Mr. Young. I want to thank all the witnesses. And, Mr. 
King, do me a favor--you got good legal people around you--
about tax credits. If you are a Nation, why couldn't you offer 
those credits yourselves to the interested people in Kinetic 
Energy, et cetera? That is the thing. I understand what you are 
trying to do, but you are still dealing with the Federal 
Government. And I would prefer, if you possibly could, do it 
within your own organization or your own tribe.
    Mr. King. With self-determination, tribes want to be in 
charge of their own projects. And, you know, we want to be able 
to have options in how we finance these projects. Tribes want 
to be able to collect tax credits, and to have ownership 
options of these projects. These tax incentives can reduce the 
cost of projects by up to 30 percent. Tribes, as government or 
non-profit entities, cannot currently take advantage of these 
incentives. The Indian energy bill must include provisions that 
allow for tribes to monetize these incentives to allow for an 
even playing field for energy development in Indian Country.
    Mr. Young. You are getting to where I want to. You want to 
have that ability.
    Mr. King. Yes.
    Mr. Young. You don't want tax credit from the Federal 
Government; you want the ability of the tribes to issue the tax 
credits to anybody who wants to invest in resources on your 
land.
    Mr. King. Correct.
    Mr. Young. OK, and that is something I support. I say this 
without any hesitation.
    The key to this, and the reason for this bill, is the 
impediment of the Federal Government, including, by the way, 
the environmental thing--and I appreciate the Navajo tribe--you 
can reach all the same standards, but you don't have to wait 
for all the permits and all the studies and all the possible 
lawsuits. And I don't know who is a lawyer out there. Can a 
Nation be sued? Anybody know that?
    Mr. King. We have sovereign immunity from----
    Mr. Young. So you can't be sued. So as long as you meet the 
standards--that keeps the bird dogs off our back--then there 
shouldn't be any reason why this wouldn't go forth. And that--
the tenant of this whole bill is about--and I am--thank you, 
because we are going to try to expand it to all resource 
development, just not energy, because I think that is the right 
thing. If someone can sue the agency--you see, that is--they 
don't sue you. They sue the agency that supposedly has to issue 
the permit, which delays the ability to develop your resources. 
It is a delaying tactic, they are famous about that.
    So, if you have the right, you can't be sued, you have 
sovereign immunity, and you can go--keep the standards 
themselves, they can't sue you but it keeps the bird dogs off 
your back about, you know, you are not meeting the standards, 
you are trying to cheat the standards, but you can move the 
project forward--the delay factor is what killed most of our 
projects, you know. I just--little comment about that.
    And I do appreciate you all. And Tara, how is your movie 
going?
    Ms. Sweeney. Fine.
    Mr. Young. It is going fine. Her son is in a movie. And if 
you haven't seen it, go. It is called ``The Big Miracle.'' It 
is really a good show. And it is about whales in Alaska and all 
these other good things. You will enjoy it, by the way.
    I don't have any other questions at this time. I will in a 
moment. So go to the other candidates, please.
    Mr. Gosar. Mr. Faleomavaega?
    Mr. Faleomavaega. Thank you, Mr. Chairman. I--first of all, 
I do want to commend Chairman Young for introducing--developing 
this piece of legislation. And I would like to include my name 
as a cosponsor of this bill, as we move forward, hopefully, to 
get it out of the Committee and on to the House Floor.
    I also would like to tell Mr. Fox to please do extend my 
regards also to Tex when you get back to see him, and give him 
my regards.
    It is very unfortunate that we are not able to get a member 
of the Administration to come and testify, because I believe 
that they should be here. And for some reason or another I 
don't know why they are not here. But I sincerely hope, Mr. 
Chairman, that we will continue to make this effort to get the 
Administration to participate, because it is very critical that 
we need to know their position, and what they have taken to 
resolve some of these difficult problems that we have with our 
Indians.
    I was just curious if any of the member--representatives of 
these tribes are members of the Council on Energy Resources 
Tribes. That is based out of Colorado. I don't know if--are any 
of you affiliated with this--I think it is composed of about 39 
tribes that have energy-related resources. I was just curious. 
Mr. Fox, are you----
    Mr. Fox. We were at one time. And I believe it has 
transferred over to COLT. There is also COLT, also. But Council 
of Energy Resource Tribes is, I believe, no longer existing.
    Mr. Faleomavaega. I noticed with interest, too, that we 
have the involvement of both the Department of the Interior and 
the Department of Energy involved in energy-related issues for 
our Indian tribes. Do you see that sometimes that, having to 
deal with both of these agencies, there seem to be duplication 
of efforts in this regard? Has it been your experience to find 
that you go to the Interior Department and they refer you to 
the Department of Energy? Are you getting the runaround from 
both of these agencies in the process?
    [No response.]
    Mr. Faleomavaega. I am just asking generally to any members 
of the panel to respond.
    Mr. Young. Will the gentleman yield for a moment?
    Mr. Faleomavaega. I gladly yield to----
    Mr. Young. Mr. King, you are excused if you wish to go. You 
are sitting there getting a little nervous, so--I think you 
are.
    [Laughter.]
    Mr. Young. Remember, I know who runs the ship around here, 
and it is the lady friend.
    Mr. King. My wife thanks you.
    [Laughter.]
    Mr. Faleomavaega. Here is what I am trying to get to. And 
obviously, what we are trying to resolve here is just the 
simple bureaucratic layers and layers of things that you have 
to go through, and the process.
    We had a hearing, Mr. Chairman, as you recall, about two 
months ago. After 10 years, a tribe from Oklahoma is still 
getting the runaround in trying to get permits and trying to 
get approval of the process. And I just wanted just to get a 
sense from all of you. Do I understand that all of you have 
this common experience? You are getting the bureaucratic run-
around, period. And you are simply asking not only to simplify, 
but to make the process work, practical, and it resolves your 
issues and your problems. Tara?
    Ms. Sweeney. That--yes, that is an accurate assessment.
    We--there has been a project in Alaska that was subject to 
significant regulatory delay. It is called the CD-5 project. 
And it was a project that was widely supported by the city, the 
tribe, the village corporation, the regional corporation, the 
county government, and the State of Alaska. We generally never 
agree at one juncture on widespread projects. It is tough to 
find that agreement. We were all in agreement for the CD-5 
project to go forward, and there was significant delay with 
that project inside the Federal Government.
    Mr. Faleomavaega. Anybody care to comment?
    Mr. Fox. Yes----
    Mr. Faleomavaega. Which--go ahead.
    Ms. Cuch. Yes. I just wanted to reply on the Council of 
Energy Resource Tribes. I believe the Ute tribe is--or I don't 
know if we are still--member, if that organization still 
exists. But we were a chartered member of the Council of Energy 
Resource Tribes. We haven't heard too much about them, or we 
haven't attended any of their meetings, so I don't know if they 
are still in existence. But I understand they may be still 
there.
    I just wanted to comment that, yes, I believe the 
permitting process is bureaucratic. It is a maze of Federal 
agencies. And it takes 49 steps to obtain 1 permit. Indian 
energy development offices would bring all of the agencies into 
the same room, and would streamline processing, and that way it 
could be--then we won't be, you know, be given the run-around.
    Mr. Faleomavaega. Thank you, Mr. Chairman. Thank you.
    Mr. Gosar. I am going to go ahead and I will acknowledge 
myself for five minutes.
    Mr. Groen, Navajo Nation, 20 years ago, made energy 
development a key economic part of its economy. How important 
are the revenues generated by Navajo Nation Oil and Gas, in 
terms of the Navajo general fund?
    Mr. Groen. Congressman, Gosar, thank you. The total energy-
related revenues to the Nation are nearly 100 percent. They 
are--well over 90 percent of the general revenue funds come 
from royalties, taxes, right-of-way fees, projects related to 
that. And Navajo Oil and Gas themselves contribute to 10 to 15 
percent or more of that total revenue. The other comes from 
other energy companies, and our rate is rapidly increasing.
    I may also comment that relative to the energy delays, our 
very first Navajo Nation issues--what are called operating 
agreements, not standard BIA leases--the first operating 
agreement that the Council approved took over 400 days for BIA 
approval. The more recent one was still approximately nine 
months. These type of days, when the company paid out in excess 
of $4 million to the Nation's general fund for the rights to 
explore this land, are just economic--huge economic hurdles 
that we have to overcome.
    Mr. Gosar. I know that you are fully owned by the Navajo 
Nation, and you have been experiencing some robust growth. Do 
you have any plans to add employees to the Navajo Oil and Gas?
    Mr. Groen. Yes. We are--in fact, we are in the process of 
preparing our fiscal year budget which begins April 1st. And we 
are looking at a 20 to 30 percent staff increase in the--for 
the--just for our company at this time.
    Mr. Gosar. Now, I know your core business right now is oil 
and gas. What percentage oil and gas at this current time?
    Mr. Groen. At this current time we are 90 percent oil, and 
just a small percentage of gas. One of the things that the 
Nation has besides--has vast energy resources. And one that is 
very unique that we are in the process of working on developing 
is helium resources, also. So the Nation has some of the 
richest helium resources in the world, and we are working on 
developing those, also.
    Mr. Gosar. Any others, besides helium? Because you went 
right into my next question.
    Mr. Groen. CO<INF>2</INF>, because that is used in enhanced 
oil recovery. That is one of the reasons that you see that 
reverse of that production curve, is that we are injecting 
CO<INF>2</INF> into the ground. So the Nation has 
CO<INF>2</INF> resources, coal, wind, solar. Vast.
    Mr. Gosar. Now, based on your experience with the Navajo 
Nation and government, does the Nation have strong governmental 
capacity sufficient to administer a sub-surface leasing 
program?
    Mr. Groen. Yes, I believe it does. You know, as I indicated 
earlier, they have a very extensive environmental--in fact they 
have recently passed a--something equivalent--and I think it is 
stricter standards than the nation's CERCLA Superfund laws. So 
they have that. They have primacy in water, air. So they have a 
number of organizations that are well tested.
    And from my personal experience, I worked in the region 
since 1975. And in the 1980s they were very definitely--the 
historical preservation office and the fish and wildlife were 
already presenting detailed reviews of our projects before we 
would do any surface disturbance. So they have a very--a long 
history of supervision of these type of activities.
    Mr. Gosar. In fact, if I remember, when I was there they 
were orchestrating something like a project manager, so that 
things weren't doing--you know, not seeing things in a linear 
fashion. They were doing them all at the same time, if I am not 
mistaken. Were they not?
    Mr. Groen. Yes, that is right.
    Mr. Gosar. Way ahead of the curve. My time is just up, and 
I am going to acknowledge Mr. Lujan.
    Mr. Lujan. Thank you very much, Mr. Chairman. Mr. Groen, 
just for clarification, the Navajo Nation Oil and Gas Company 
is privately owned, correct? It is not owned by the Navajo 
Nation.
    Mr. Groen. No, we are a Federal Section 17 corporation 
wholly owned by the Navajo Nation.
    Mr. Lujan. Very good. OK. With that being said, Mr. 
Chairman--and I think that the Chairman touched on some of my 
questions pertaining to the percentages of oil and gas, as 
well--a couple of questions that I have outside of that scope 
pertain to a rule that is currently being discussed through the 
Department of the Interior, that they are reforming this notion 
of a one-size-fits-all Federal leasing regulation for the 56 
million surface acres the Federal Government holds in trust for 
tribes and individual Indians to further encourage and speed up 
economic development in Indian Country.
    The proposed rule incorporates a number of the principles 
in H.R. 3973 by establishing a separate, simplified process for 
residential, business, and renewable energy development. The 
proposed regulation incorporates many changes requested by 
tribal leaders during extensive consultations over the past 
year to better meet the goals of facilitating and expediting 
the leasing process for trust lands. And BIA is expected to 
publish the final rule in 2012.
    So, my questions inherently are related to the two. With 
some of the testimony that was given, would you be in favor of 
H.R. 3973, if it meant expressly absolving the Federal 
Government of its trust responsibility for tribes? And I would 
ask Vice President Sweeney or Administrator Fox.
    Mr. Fox. Just like our testimony that we have given for 
Chairman Hall, a lot of the infrastructure that we have--that 
is with the three affiliated tribes, or MHA Nation, we would 
have the ability, but a lot of times we don't have the revenue 
that is coming in to create that infrastructure that would 
eliminate the Bureau of Indian Affairs.
    Today, just for example----
    Mr. Lujan. But specifically--because my time is running 
out, and I apologize for----
    Mr. Fox. OK.
    Mr. Lujan [continuing]. For interrupting, Mr. Fox. If the 
Federal Government absolved--if the trust responsibilities were 
absolved, is that something you would support?
    Mr. Fox. That is--you know, it all depends on what--you 
know, the process we would have to go through. I think, you 
know, it would have to go through our government, and maybe one 
of the other ones could answer the question.
    Mr. Lujan. Ms. Sweeney?
    Ms. Sweeney. Thank you. The Federal Government's 
relationship with Alaska Native corporations is very--is 
different than the trust responsibility that tribes have with 
the Department of the Interior, with the Federal Government in 
general. So I am happy to provide background information about 
the Alaska Native Claims Settlement Act and that relationship.
    But the trust responsibility that tribes have as a 
government-to-government relationship with the Federal 
Government is very different than the relationship that----
    Mr. Lujan. That is fair. And I am not suggesting that 
Chairman Young's legislation would move in that direction. It 
is a question that I had, just for clarification for the 
Chairman.
    The other question that I have is--and it was brought up 
from the perspective of posting the bond with the concern 
associated with litigation. My concern is this. Although 
uranium hasn't been talked about today, and we talked about all 
energy resources, I have a concern with something that happened 
back in 1979 on the Navajo Nation with the Church Rock uranium 
spill. It has been compared to Three Mile Island. It never got 
the support or attention that Three Mile Island got, because we 
were in a rural state. The clean-up still hasn't taken place. 
We have people suffering from kidney disease and cancer 
disease.
    Myself, I have a piece of legislation called the Radiation 
Exposure Compensation Act. Senator Udall has it in the U.S. 
Senate. I still can't get cosponsors of that legislation here, 
because they are concerned about the price tag of people that 
are sick and have died because of that.
    And I say that only that we need to be careful in our 
approach. While I agree that we need to make sure we are 
alleviating concerns where it doesn't make sense, for instance, 
with utility easements, where you have a utility easement for 
telephone and then you are going to go in and put--add 
additional bandwidth or electrical services there, that you go 
through another ridiculous process, but we also have to keep in 
mind that when there is something bad that happens, we have to 
make sure that the tribes are in a position to recoup what 
needs to be done without having to post additional dollars 
themselves, and that we can go and clean up what needs to be 
cleaned up.
    So, with that, Mr. Chairman, I yield back and I look 
forward to the second round of questions.
    Mr. Gosar. Mr. Chairman?
    Mr. Young. I want to assure everybody there is no attempt 
in this bill to lose the trust responsibility to the tribes. It 
never has been. And I am sure the gentleman understands that. 
There is the intent here to make sure that tribes have an 
opportunity to fulfill the benefits of their lands for the 
benefit of their tribal members without being impeded by 12 
months, 16 months, 10 years of nonsense.
    And being an agency that is being sued by an interest group 
because the agency issued a permit to a tribe after four years, 
this is not the way to go.
    And Tara, I want to remind you, don't mention the numbers. 
What was that project that was held up?
    Ms. Sweeney. There have been several.
    Mr. Young. That one project that you talked about. What was 
it?
    Ms. Sweeney. CD-5.
    Mr. Young. Yes, I know, but what was it?
    Ms. Sweeney. It is----
    Mr. Young. What was the project?
    Ms. Sweeney. It is a development project on Native lands 
within the national----
    Mr. Young. In fact, it was a bridge.
    Ms. Sweeney. It was a bridge.
    Mr. Young. Yes. Now, I have never understood--it was Native 
land, they had the land here, and they owned the land over 
here, and they owned the land in between. All they wanted to do 
was build a bridge from one field to another field. And an 
interest group came along and said, ``Oh, no. The alternative 
to that is to put the so-called pipe 60 feet under the river 
and bring it up on the other side,'' which is very nearly 
impossible, terribly environmentally dangerous.
    Yet it was Native land. This was not Federal land. But they 
claimed, because the water flowed through their area--and then 
they based it upon a view effect--I don't know how many of you 
know what a ``view effect is.'' It disturbs the view. Now, who 
in the world is going to see it to begin with, other than 
people in--that is the only people who are going to see it. So 
they stopped that project for, what, four years? Three years?
    Ms. Sweeney. There was significant delay, yes.
    Mr. Young. Yes. So that is what I am trying to avoid.
    Chairman--how do you pronounce that, Olguin? OK. Are you 
aware the Department of the Interior is drafting rules 
regarding hydraulic fracturing on Federal lands, that the 
Department's view in terms of Federal lands also means lands 
held by trust to the tribes?
    Yesterday an article reported that Secretary Salazar 
defended the hydraulic fracturing rules--fracking rules on the 
grounds that American people have the right to have their 
public lands used in a responsible way. I interpret this to 
mean the Secretary believes tribal lands are really public 
lands that belong to all American people.
    And I ask your view. Do you think tribes' lands are public 
lands that belong to all American people? Anyone want to answer 
that? Yes, sir.
    Mr. Olguin. Yes. My last name is Olguin, just----
    Mr. Young. Olguin?
    Mr. Olguin. Yes.
    Mr. Young. Olguin?
    Mr. Olguin. Yes.
    Mr. Young. OK.
    Mr. Olguin. No, I do not believe tribal lands are public 
lands.
    Mr. Young. And neither do I. OK.
    Mr. Olguin. Straightforward.
    Mr. Young. But that goes--what I am saying is now here 
comes the Secretary, that is proposing fracking rules that 
apply to lands other than public lands, to Native lands. And 
that is against the rules, if you recognize the sovereignty of 
those Nations. And if these fracking rules go in place, you can 
forget New Mexico. In fact, any other place.
    This is being driven by, I think, a misinformed audience, 
and there is no reason why--you can set rules about how you 
frack. But most of those so-called instances of gas spillage is 
because of bad piping or old wells that they frack through. Now 
it is your land, you can say, ``OK, you are going to frack,'' 
you are going to put a new stem in, you don't have any 
problems. And that is your responsibility. I just think that 
that is what people don't quite understand.
    And, by the way, has the Department contacted any of you on 
this new fracking rule?
    Mr. Olguin. Yes.
    Mr. Young. They have?
    Mr. Olguin. Yes.
    Mr. Young. What did they tell you?
    Mr. Olguin. Well, there was a meeting held with the Bureau 
of Land Management, and the tribe did provide its comments in 
regards to the fracking.
    Mr. Young. Have they responded at all?
    Mr. Olguin. No, not yet.
    Mr. Young. OK. That is another thing that concerns me.
    Irene, you indicated the BIA is the most important agency 
in charge of supporting Indian energy. Yet there is an office 
of Indian Energy Policy and Programs under the Department of 
Energy. Now, you got one in the Department of Energy, you got 
one in the BIA. How often have you contacted the Department of 
Energy? I mean--yes, the Department of Energy?
    Ms. Cuch. The one in BIA is in charge of permitting.
    Mr. Young. And the Energy Department is another thing?
    Ms. Cuch. The Energy----
    Mr. Young. The reason I am asking, this is a classic 
example. You have the BIA over here, you got the Energy 
Department over here. Neither one knows what they are doing.
    [Laughter.]
    Mr. Young. And how do you get anything done? That is our 
biggest challenge.
    I just--you know, that is one of the things that--nobody 
consults with you guys, really, in seriousness. They will tell 
you why you can't do it, but they won't help you get it done. 
Now--and even the proposal, the regulations coming out the 
gentleman from New Mexico mentioned, that is another shell 
game, guys. That is why this legislation is important. It is a 
shell game. They will slow-walk you, slow-talk you, and nothing 
will happen. I want to make sure this can be done. I yield 
back. I don't have no more time left.
    Mr. Gosar. Acknowledge the Ranking Member.
    Mr. Lujan. And thank you again, Mr. Chairman. And just to 
clarify with Chairman Young is that, again, as we talk about 
trust responsibilities, I appreciate the mentorship and 
advocacy that has come from Chairman Young in these areas, and 
I think that there will be ways--Mr. Chairman, the reason I 
brought it up is there were some questions that were brought to 
my attention, and I know that we will make every effort to 
clarify that that is not something that will happen. So I 
appreciate that very much.
    Again, when we are talking about impacted individuals, and 
we look at the problems and where the BIA needs to be 
simplified, to ease the way that we conduct business is 
something that I believe in. I have learned that more has to be 
done, and I support the approach that this Subcommittee is 
taking and will continue to take to make sure that we address 
those important principles. And I appreciate the conversations 
that I have had with the Chairman on those issues.
    But again, as we talk about some of the impacts with 
experiences from the past, so that we don't repeat them going 
forward is where my concern is. Again, with impacted areas in 
New Mexico and across the country, the spill that I referred to 
flowed 80 miles from New Mexico down into Arizona. Water 
streams, sheep, livestock that people ate, and waterways that 
people drank from were impacted.
    How do we assure ourselves that if something like that 
happens, that the tribe or some of those individual tribal 
members that are impacted--I appreciate where the concern is 
coming from with the surety bond, but how do we assure, and 
what provisions do you have, or do you feel it is important 
that we have a path forward to be able to provide those 
protections? And I would invite comment from any one of our 
distinguished panelists today. Tara?
    Ms. Sweeney. Congressman Lujan, thank you for the 
opportunity to respond.
    Arctic Slope Regional Corporation--I can only speak to what 
we have experienced in the past in Alaska with respect to 
energy projects on our native lands. And so, I will respond in 
that vein.
    We fully embrace a process where legitimate concerns can be 
raised, and we fully support a process where we also are 
preserving our right to challenge projects. That is something 
coming from the North Slope of Alaska, remote area of the 
country, where our people depend on those subsistence 
resources. We subsist off the land and the sea. Whether it is 
whaling or hunting caribou, we certainly want to preserve our 
right to challenge projects.
    And so, we too are looking for an alternative. Because 
delays to projects on our lands have material--also material 
impacts on the benefits that we provide to our shareholders. 
And Congress mandated that Alaska Native corporations provide 
benefits for their shareholders. We are a beast of Congress. 
And so we have to find ways to continue to provide 
scholarships, dividends, employment and training opportunities, 
medical, travel, and death benefits for our shareholders.
    And so, we are open to working within Indian Country to 
find an acceptable solution that, one, preserves our ability to 
challenge projects and put forward legitimate challenges, but 
also minimizing the impacts of frivolous lawsuits that could 
endlessly delay meaningful projects, tying it up through 
litigation. So I think that somewhere in there we do--there is 
a balance that we can strike.
    And so, while we do support the language that is in the 
proposed legislation, we are also open to reasonable 
alternatives, as well.
    Mr. Lujan. Very good. So you would be open, as long as you 
could streamline the process to make sure that adequate 
protections were in there for the tribe, for the tribal 
members, as well?
    Ms. Sweeney. Yes.
    Mr. Lujan. And Mr. Groen, if you would comment, would you 
be open to that as well, to ensure that in that catastrophic 
incident that I described--and I hope that we never see another 
one like it, but that we have the ability in place to protect 
the tribe and the tribal members, the people that could be 
impacted?
    Mr. Groen. Yes. I agree with Tara's comments. That is a 
very--you know, some sort of a compromise, being able to move 
the projects forward in a safe and environmentally sensitive 
area, that is the key to the complete development of these 
projects. We definitely do not want to move forward with 
projects in a manner that damages the environment. But they 
have to keep moving forward.
    Mr. Lujan. Thank you. Thank you, Chairman, and thank you, 
Chairman Young, for your leadership on this issue.
    Mr. Young. I just want to--again, if I can, would the 
gentleman--who let the leases go for the uranium?
    Mr. Lujan. Mr. Chairman, in the instance of the Church Rock 
incident?
    Mr. Young. Yes.
    Mr. Lujan. The leases were engaged with the Navajo Nation.
    Mr. Young. And the BIA.
    Mr. Lujan. And the BIA, yes, sir.
    Mr. Young. Yes. Because, see, I want to stress that. I 
think the Navajo Nation could probably have done a better job. 
And I am going to ask each one of you here--we just finished a 
lawsuit, which I did not agree with, as far as the amount of 
monies--I started that many years ago, I wanted $27 billion, 
not $2.5 billion.
    How much money do you think you lost through the process of 
the BIA leasing to companies, and you had no say in it? Anybody 
want to comment on that? I know you can't give--but you follow 
what I am saying? A lot of times you didn't have anything to do 
with it. Is that correct? BIA put the lease up for oil and gas 
exploration and other things. Am I wrong in this? Tell me if I 
am wrong. Yes, any one of you, I don't care.
    Mr. Groen. I guess I will comment quickly. Yes, the 
standard BIA leases have been--royalty rates have been 12-1/2 
to 16-2/3 percent. Under the operating agreements that the 
Nation has been issuing, there is a variety of them but they 
start at 20 percent, and a lot of them have a sliding scale 
royalty based on the cost of the--or the value of the product.
    Mr. Young. But you don't have much say if--is it--am I 
correct? The BIA is the one that manages the leases on most 
reservations now. Is that correct?
    Mr. Groen. Yes, in the--historically on the Navajo Nation, 
though the Navajo Nation has not authorized a BIA lease since 
the 1970s. So the Navajo Nation is quite different from that.
    Mr. Young. OK. But the rest of the Reservation--but I am 
saying do you not believe, if you have your own minerals 
management agency, you could negotiate a better lease for your 
tribal members than through the BIA?
    Mr. Groen. Absolutely. And that is what the Navajo Nation 
is doing at this time.
    Mr. Young. You think you can do the same thing?
    Mr. Fox. I think we really could do the same thing. You 
know, a lot of our tribes or reservations are not the same as 
the Navajo Nations. The Fort Berthold Reservation, you know, we 
do have 530,000 acres in trust, probably about 320,000 are 
allotted tribal members. So they do negotiate their own tribal 
mineral leases themselves.
    Now, you know, the tribe does have 210,000 mineral acres 
that they negotiate for themselves also. But with the 
infrastructure that is needed, like I have said in our 
testimony, with the tax infrastructure that is built in the 
state, you know, the tribe can do a lot better at administering 
these leases for ourselves and for our tribal members if we had 
the infrastructure in our tribal----
    Mr. Young. And an expedited process, too.
    Mr. Fox. Yes, we can, sir.
    Mr. Young. OK, good. I don't----
    Mr. Olguin. Mr. Chairman?
    Mr. Young. Yes, go ahead.
    Mr. Olguin. Yes, I would like to respond to your question. 
$90 million is what our impact was for delays from the Bureau 
of Indian Affairs in approving right-of-ways. And those----
    Mr. Young. $90 million?
    Mr. Olguin. $90 million.
    Mr. Young. Holy bejeezus. Think how many kids you can 
educate with that.
    Mr. Olguin. That is a lot of kids.
    Mr. Young. How many clinics you could open with that. You 
know, that is what we are trying to address here. Very good. I 
don't have any more.
    Ms. Cuch. Mr. Chairman?
    Mr. Young. Oh, excuse me.
    Ms. Cuch. I would like to also----
    Mr. Young. Go ahead, ma'am.
    Ms. Cuch. Yes, Mr. Chairman. I would also like to mention 
that we do have our own energy and minerals department. But 
they are involved in the permitting process, but BIA still has 
the final approval. In talking about--we need 10 times as many 
permits to be approved, and would benefit from one-shop stop. I 
think your--the bill does mention the one-shop stop.
    Currently we have about 48 applications permit to drill, 
and they are--and we have that many that are approved each year 
for oil and gas operation on the Reservation. We estimate that 
about 450 APDs would be needed each year, as we expand 
operation.
    And I believe in your one-stop shop, we would encourage the 
Bureau of Indian Affairs to hire staff with energy expertise. 
The BIA may be most important Federal agency charged with 
supporting Indian energy, yet there are only a handful of BIA 
employees with energy expertise. I would just like to make that 
comment.
    Mr. Young. I appreciate that. Again, I am trying to get the 
BIA out of this business. I want you to know that. If we have 
to have them, I believe in the one-stop shop. But I also think 
you can do it better on your own, because that has been the 
whole problem we have got. I have been in this business 40 
years, and I have heard the same story, ``We are going to do 
better next time, we are going to put a new system in place, it 
is going to work this time.'' And it hasn't worked.
    And I talked to Larry Echo Hawk, and he admits it hasn't 
worked, because you have sort of an ingrained incestuous type 
of individuals that don't really want it to work. And that 
bothers me. I would rather have the responsibility on each one 
of you. And if it doesn't work, they will throw you out, your 
tribal members will. And that is how it should be.
    Mr. Chairman, I have no other questions.
    Mr. Gosar. I have just got a quick question. I know the 
monetary amounts that you said, but what is the average waiting 
time?
    Mr. Olguin. For an application to permit to drill, we are 
looking at about two-and-a-half years.
    Ms. Cuch. In our Ute tribe, one year.
    Mr. Fox. We are down to anywhere from three to four months 
on our application permit to drill. Currently we do have 589 
that were submitted since 2008. Right now there are 237 
pending. So coming up with this up-and-coming summer program 
for drilling, I guarantee you they will probably double that.
    Mr. Groen. On the Navajo Nation they are typically one year 
to a year-and-a-half, or more in some cases.
    Mr. Gosar. Wow. And that is not figured into your----
    Mr. Young. Then you get a lawsuit.
    Mr. Gosar. Yes.
    Ms. Cuch. Yes, I----
    Mr. Groen. It is figured into it.
    Mr. Gosar. It is?
    Mr. Fox. It is.
    Mr. Gosar. Wow.
    Ms. Cuch. I mentioned one year for the Ute tribe, but it--
we lose, for every permit that isn't drilled, $1 million a 
year.
    Mr. Gosar. But--so the dollars you quoted about what it is 
costing you, you are not figuring in the lost time. Time is 
money.
    Mr. Olguin. Plus, when the prices drop, that is a big 
impact.
    Mr. Gosar. Absolutely. I yield--I know the Ranking Member 
has got a couple more questions.
    Mr. Lujan. Thank you, Chairman. And just quickly, more of 
an observation. Chairman Young, one of the problems, as I 
understood it, with--and I know that we are talking about the 
process associated with moving work forward--and I keep going 
back to the one example with Church Rock, but one of the 
problems, as I recall, and if I have this correctly, is one of 
the reasons Church Rock did not get the support that they 
needed to at the time from the Federal Government was at the 
time the Governor didn't offer a--or issue a Declaration of 
Emergency, which was a major problem. And I know this has 
happened in other areas where there has been devastating fires.
    So, whether we talk about energy or we talk about fires or 
natural disasters, is maybe along these lines. One of the 
things we could do to work together is to alleviate that. And 
if there is an emergency or a declaration of emergency on 
tribal lands, as opposed to waiting for the Governor of that 
state to declare an emergency, to allow them to go directly to 
FEMA and declare that emergency as if it was coming from a 
Governor of a state--and maybe there is room for us to have a 
conversation about that, Mr. Chairman.
    So, with that, I yield back the balance of my time.
    Mr. Young. I agree. The sense is you don't lose the 
trustability [sic] for the Federal Government. And if we could 
go government-to-government, I think that is a responsibility, 
to get it done. And especially your fires. That was a disaster 
down there, too. So that is a good idea. We will work on it.
    Mr. Lujan. Thank you, Chairman.
    Mr. Gosar. Any other questions? Well, I would like to thank 
the witnesses for coming, and especially from such a far, far 
way. Thanks to all the Members for their participation.
    Members of the Subcommittee may have additional questions. 
If they do, they will submit them to you to respond in writing.
    If there is no further business, without objection the 
Subcommittee stands adjourned.
    [Whereupon, at 4:02 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

         Statement submitted for the record by the Crow Nation

I. Introduction
    The Crow Nation is a sovereign government located in southeastern 
Montana. The Crow Nation occupies a reservation of approximately 2.2 
million acres, with abundant natural resources including coal, oil, 
natural gas, and bentonite. We also are also actively working to 
develop hydropower and wind power projects utilizing renewable energy 
resources within our reservation. The Crow Nation is uniquely 
positioned to contribute to the energy independence of our country.
    We are encouraged to see the Subcommittee working to address many 
of the issues that impact energy opportunities in Indian Country. 
Eliminating obstacles to energy project development in Indian Country, 
along with providing incentives to secure and expand Indian energy 
projects, will build additional national capacity to create more jobs 
in the national economy. We must work together to address the barriers 
that currently limit project development in order to fully realize the 
potential for energy development that exists in Indian Country, and for 
the nation.
    We believe that H.R. 3973 makes significant strides toward 
eliminating many of the regulatory hurdles that have hindered energy 
project development in Indian Country. Based on our experiences working 
with industry partners in the coal, oil, and natural gas extraction 
industries, we will also suggest additional provisions that would 
further promote these objectives, and would expand the impact of the 
Native American Energy Act in addressing longstanding disparities in 
energy project development.

II. Comments on Section 3--Appraisals
    Despite holding substantial natural resources, the Crow Nation has 
encountered numerous problems in developing energy projects on the Crow 
Reservation. The Crow Nation and our energy development partners have 
experienced, and continue to experience, systematic problems in 
creating energy development and creating new jobs associated with that 
development. The Bureau of Indian Affairs (``BIA'') consistently 
creates barriers and delays to resource development.
    BIA records for surface and mineral ownership are often erroneous, 
missing, and out of date. These problems cause significant delay in 
preparation of environmental documents and land records necessary for 
project evaluation and development. The BIA lacks the staffing 
necessary to provide accurate information on Reservation surface and 
mineral ownership, and to resolve additional questions that arise. This 
makes our projects less competitive with off-reservation development. 
Many companies view this, in addition to other problems, as another 
prohibitive cost of doing business on the Crow Reservation. The Crow 
Nation has worked closely with BIA staff to facilitate its energy 
development projects.
    In most cases, BIA staff have worked to be as responsive as 
staffing shortages and regulatory requirements would allow. However, 
despite our best efforts, BIA staff shortages and OST appraisal 
requirements have resulted in a much more difficult and time-consuming 
process in developing a large energy project on the Crow Reservation 
than would be the case off-reservation. The delays and added costs have 
hindered the development of energy projects of all scales in the past, 
and have been a major source of frustration for project developers as 
well as for the Crow Nation and its citizens.
    The Crow Nation believes that the provisions of H.R. 3973, 
especially Section 3, address these obstacles and provide alternate 
methods for compliance with the requirements in federal laws and 
regulations governing Indian lands. These provisions will assist Indian 
Nations in realizing the goal of efficient energy project development.

III. Comments on Section 7--BLM Oil and Gas Fees
    The current version of H.R. 3973 includes language prohibiting 
collection of any fee by the Secretary of Interior, through the Bureau 
of Land Management, for any application for a permit to drill on Indian 
land, for conducting any oil or gas inspection activity on Indian land, 
or on any oil or gas lease for nonproducing acreage on Indian land. 
These provisions address a longstanding concern of the Crow Nation.
    Beginning with the FY 2008 Appropriations Act for the Department of 
Interior, Congress required the Bureau of Land Management to charge a 
$4,000 fee to process every Application for Permit to Drill (``APD'') 
on the federal and Indian lands on which it supervises oil and gas 
development activity. The APD Fee has since been increased by 
subsequent appropriations legislation to $6,500 for each new well. The 
Crow Nation has continually protested the application of this fee to 
tribal lands, and has sought relief in numerous ways.
    This $6,500 fee compares to drilling permit fees of less than $100 
off the Reservation in the State of Montana. Obviously, this creates a 
disincentive to explore for oil and gas on Indian lands compared to 
off-reservation State and fee lands. As indicated above, it has been a 
major factor in the suspension of additional natural gas field 
exploration and development on the Crow Reservation by our partner, 
Ursa Major, who also holds leases outside the Reservation. The APD fee 
is a particular burden for the type of shallow (less than 1500' deep), 
low-producing gas wells being drilled by Ursa Major. The cost of 
completing these types of wells is less than $150,000 each, so the APD 
Fee substantially increases and also comprises a large portion of the 
capital investment necessary to bring additional wells into production.
    The APD Fee also discourages efficient development and slows 
exploration efforts. For exploratory ``wildcat'' drilling where success 
is speculative, the developer can only afford to get permits for a 
couple of wells at a time, see if they hit gas, and if so, file APDs 
for another couple of wells, and repeat the cycle. Without the high APD 
Fee, the developer would be able to obtain many permits and immediately 
drill additional wells if the first ones are successful. Considering 
the lead time for issuance of the drilling permits (60-90 days), the 
APD fee causes delays of up to a year in developing a handful of new 
wildcat wells, in addition to adding tens of thousands of dollars of 
non-productive costs that limit the Crow Nation's ability to charge 
taxes and collect royalties on future production.
    We are extremely encouraged to see this issue addressed by the 
provisions in Section 7 of H.R. 3973. The APD fee is a hindrance to the 
Crow Nation's goal of developing its oil and gas resource. The language 
eliminating the collection of APD fees on Indian lands will eliminate 
the disparity that currently exists between drilling on Crow lands and 
drilling on adjacent State fee lands. This provision will enable 
expanded and more efficient oil and gas development on the Crow 
Reservation. It also conforms to our longstanding belief that Indian 
Nations should not be penalized for nor damaged by the federal 
government's exercise of its trust responsibility over Indian lands and 
resources.

IV. Comments on Section 11--Leases of Restricted Lands
    The Crow Nation seeks authority to lease surface rights for not 
more than 99 years and has proposed language amending the same section 
that H.R. 3973 includes for the Navajo Nation. Crow seeks to be added 
to the long list in 25 USC 415 (a) after ``Ohkay Owingeh Pueblo.'' 
Having the authority to provide longer term surface leases will allow 
Crow to more effectively attract energy partners considering costly, 
long-term equipment installations, like power plants.
    The language proposed by Crow is as follows:

SEC.___. EXTEND LEASE PERIODS FOR THE CROW NATION

In General--Section 415 of Title 25, United States Code, is amended

    (a) by inserting ``, and lands held in trust for the Crow Tribe of 
Montana,'' after ``Ohkay Owingeh Pueblo'', and
    (b) by deleting ``and'' before ``lands held in trust for Ohkay 
Owingeh Pueblo''

V. Additional Areas to Consider for H.R. 3973--Need to provide 
        certainty in tax incentives
    There are several current federal tax incentives for economic 
development in Indian Country, including an accelerated depreciation 
provision, an Indian wage tax credit, and for energy in particular, the 
Indian Coal Production Tax Credit. However, the accelerated 
depreciation provision and wage tax credit both have substantial 
limitations that severely limit their usefulness for major Tribal 
energy development projects.
    More importantly, all of these tax incentives are set to expire at 
the end of this year, and in the past they have been extended only one 
year at a time. For major Tribal energy projects, such as a coal mine 
or a power generation project with 6-10 year development lead times, 
the inability to rely on the continued availability of these incentives 
means that they cannot be factored into the economic evaluations that 
are necessary for investment decisions. Permanent extensions and 
appropriate modifications to these existing tax incentives will 
facilitate job creation and economic development, particularly in 
energy development, on the Crow Reservation and for all of Indian 
Country.

A. Indian Coal Production Tax Credit
    The Crow Nation has leased a portion of its coal reserves for 37 
continuous years to Westmoreland Resources Inc (``WRI''). WRI owns and 
operates the Absaloka Mine, a 15,000-acre single pit surface coal mine 
complex near Hardin, Montana, on the northern border of the Crow 
Reservation. The Absaloka Mine was expressly developed to supply Powder 
River Basin coal to Midwestern utilities and has produced over 172.6 
million tons of coal to date. WRI annually pays substantial production 
taxes and coal royalties to the Crow Nation; $9.9 million of taxes and 
$9.1 million in royalties were paid to the Crow Nation in 2010. The 
significant portion of the Crow Nation's non-federal budget, 
approximately two-thirds, comes from the Absaloka Mine. Additionally, 
WRI employs a 70% tribal workforce, with an average annual salary of 
over $62,000, and averages a total annual employment expense of 
approximately $16 million. The Absaloka Mine is the largest private 
employer of Crow Tribal members on the Crow Reservation, where the 
unemployment rate exceeds 47%. The importance of the Absaloka Mine to 
the economy of the Crow Reservation cannot be overstated. Without 
question, the Absaloka Mine is critical to the Crow Nation's financial 
independence now, over the past 37 years, and well into the future.
    Several factors have contributed to the longevity of the Absaloka 
Mine and the partnership between the Crow Nation and WRI, but a 
critical element in keeping the Absaloka Mine in operation has been the 
Indian Coal Production Tax Credit (``ICPTC''). The Absaloka Mine has 
struggled financially to compete with larger Powder River coal mines, 
as well as with the competitive advantage provided to Powder River coal 
through the impact of a price differential created by sulfur (SO2) 
emissions allowances under Title IV of the Clean Air Act.
    The 2005 Energy Policy Act provided the ICPTC beginning in tax year 
2006, based upon the number of tons of Indian coal produced and sold to 
an unrelated party. ``Indian coal'' is coal produced from reserves 
owned by an Indian Tribe, or held in trust by the United States for the 
benefit of an Indian Tribe, as of June 14, 2005. The tax credit is 
calculated by totaling the number of tons of Indian coal produced and 
sold, then multiplying that number by $1.50 (for calendar years 2006 
through 2010). For tax years between 2010 and December 31, 2012, the 
total number is multiplied by $2.00.
    The origin of this production tax credit was an effort to 
neutralize the impact of price differentials created by sulfur (SO2) 
emissions allowances, thereby keeping Indian coal competitive in the 
regional market. Without the credit, the Absaloka Mine would have lost 
its supply contract and would likely have closed in 2005, which would 
have had a devastating impact on the Nation. The ICPTC has worked to 
keep the Absaloka mine competitive and open. This tax credit remains 
critically important because, without it, the Absaloka Mine's economic 
viability would be in serious jeopardy. The tax credit remains critical 
to the current operation of the existing Absaloka Mine and provides 
sufficient incentive to help us attract additional investment for 
future energy projects. In order to protect existing operations and 
encourage growth, the ICPTC should be made permanent, should be allowed 
to be used against alternative minimum tax, and the requirement that 
the coal be sold to an unrelated person should be deleted to allow and 
encourage facilities owned, in whole or in part, by Indian Nations to 
participate and benefit from the credit.
    The continued operation of the mine has been significantly 
facilitated by the tax benefits made possible by the ICPTC. Without the 
ICPTC, the Absaloka Mine would have ceased to operate, thereby ending a 
substantial revenue source for the Crow Nation. Continuance of the 
ICPTC is critical to the future of the Absaloka Mine and the stability 
of revenue to the Crow Nation. The Crow Nation seeks to ensure the 
continued economic viability of the Absaloka Mine, as the revenue and 
jobs that it brings to the Nation are an overriding imperative for the 
Nation and its citizens.

B. Accelerated Depreciation Allowance
    Included in the Omnibus Budget Reconciliation Act of 1993, Pub. L. 
103-66, 107 Stat. 558-63, codified at 26 U.S.C. 168(j), 38(b), and 
45(A), are two Indian reservation-based Federal tax incentives designed 
to increase investment and employment on Indian lands. The theory 
behind these incentives was that they would act in tandem to encourage 
private sector investment and economic activity on Indian lands across 
the United States. Neither incentive is available for gaming-related 
infrastructure or activities. The incentives--an accelerated 
depreciation allowance for ``qualified property'' placed in service on 
an Indian reservation and an Indian employment credit to employers that 
hire ``qualified employees''--expired on December 31, 2003, and have 
been included in the short-term ``extenders packages'' of expiring 
incentives since that time.
    Energy projects require significant equipment and physical 
infrastructure, and involve the hiring of large numbers of employees. 
Crow is not alone in holding vast untapped natural resources; for 
several Indian nations, estimates of proven and undeveloped energy 
resources on Indian lands suggest that revenues to tribal owners would 
exceed tens of billions in current dollars. As the energy development 
market improves and the federal programs enacted in the 2005 pro-
development energy law, the Indian Tribal Energy Development and Self 
Determination Act (Pub. L. 109-58), energy related activity on Indian 
lands will increase substantially in the years ahead.
    Unfortunately, one-year or two-year extensions of the accelerated-
depreciation provision do not provide an incentive for investment of 
new capital in Indian country for significant energy projects. 
Development of major projects generally takes a decade or longer. 
Investors need certainty that the benefit will be available when the 
project initiates operations in order to factor that benefit into their 
projected economic models, as well as investment decisions. A permanent 
extension would address this problem, making the incentive attractive 
to investors in long-term energy projects on Indian lands.
    As currently written, the depreciation allowance could be 
interpreted to exclude certain types of energy -related infrastructure 
related to energy resource production, generation, transportation, 
transmission, distribution and even carbon sequestration activities. We 
recommend that language be inserted to statutorily clarify that this 
type of physical infrastructure expressly qualifies for the accelerated 
depreciation provision. In proposing this clarification, it is not our 
objective to eliminate non-energy activities that might benefit from 
the depreciation allowance. Indeed, if adopted, the language we propose 
would not discourage other forms of economic development in Indian 
country.
    By providing clarifying language and this permanent extension, the 
accelerated depreciation provision will finally accomplish its 
purpose--enhancing the ability of Indian nations to attract energy 
industry partners to develop long-term projects utilizing the available 
Indian resources.

C. Indian Employment Wage Credit
    The 1993 Act also included an ``Indian employment wage credit'' 
with a cap not to exceed twenty percent (20%) of the excess of 
qualified wages and health insurance costs that an employer pays or 
incurs. ``Qualified employees'' are defined as enrolled members of an 
Indian tribe or the spouse of an enrolled member of an Indian tribe, 
where substantially all of the services performed during the period of 
employment are performed within an Indian reservation, and the 
principal residence of such employee while performing such services is 
on or near the reservation in which the services are to be performed. 
See 26 U.S.C. 45(c)(1)(A)-(C). The employee will not be treated as a 
``qualified employee'' if the total amount of annual employee 
compensation exceeds $35,000. As written, the wage tax credit is 
completely ineffective and does not attract private-sector investment 
in energy projects within Indian country. The provision is too 
complicated and private entities conclude that the cost and effort of 
calculating the credit outweighs any benefit that it may provide. We 
therefore propose that the wage and health credit be revised along the 
lines of the much-heralded Work Opportunity Tax Credit, which is less 
complicated and more likely to be used by the business community. We 
propose retaining the prohibition contained in the existing wage and 
health credit against terminating and rehiring an employee and propose 
to alter the definition of the term ``Indian Reservation'' to capture 
legitimate opportunities for employing tribal members who live on their 
reservations, even though the actual business activity may be off-
reservation. This amendment would allow the Indian Employment Wage 
Credit to more effectively fulfill the purpose for which it was 
originally enacted.

D. Alternative Fuel Excise Tax Credit
    Several coal-to-liquids (``CTL'') projects have been announced in 
the United States. However, all of these projects are struggling due to 
the high financial commitment needed to plan and implement these 
projects in an uncertain economic and energy policy environment. The 
Crow Tribe's Many Stars CTL Project is not immune to these challenges. 
Among other potential actions that the federal government could take to 
encourage the development of new technology in this area, the extension 
of the Alternative Fuel Excise Tax Credit is critical.
    The current Alternative Fuel Excise Tax Credit provides for a 50-
cent per gallon credit. We would propose to extend the expiration of 
the tax credit for a definitive time period, rather than year-to-year 
extensions as has been done recently. Since it could take roughly 6-10 
years for this project to be fully planned, implemented, and 
operational, investors raise the concern that the incentives will 
expire before the plant starts operation. We would address this concern 
by providing the tax credit for a period of 10 years following start-up 
for those projects starting construction prior to 2015.

VI. Conclusion
    It is critical that Congress act to protect Indian nations' 
sovereignty over their natural resources and secure Indian nations as 
the primary governing entity over their own homelands. This will have 
numerous benefits for the local communities as well as the federal 
government.
    The Crow Nation aspires to develop its vast natural resources not 
only for itself, but to assist the United States realize a new goal--
achieving energy independence, securing a domestic supply of energy, 
and reducing dependence on foreign oil. These goals are consistent with 
the provisions in H.R. 3973, and can be furthered by the additional 
provisions we suggest adding to the Bill.
    Thank you for the opportunity to provide these comments, share our 
experiences, and suggest additional measures to encourage energy 
development in Indian Country.
                                 ______
                                 
    [A letter submitted for the record by REDOIL follows:]

REDOIL1
P.O Box 74667
Fairbanks, AK 99701

February 27, 2012

The Honorable Ed Markey Ranking Member
Subcommittee on Indian and Alaska Native Affairs
Natural Resources Committee
U.S. House of Representatives
Washington, D.C. 20515

Dear Representative:

    We provide this letter of testimony concerning the hearing held 
February 15, 2012 on H.R. 3973, the Native American Energy Act. We have 
serious and profound concerns regarding H.R. 3973.
    We write today on behalf of Resisting Environmental Destruction on 
Indigenous Lands (REDOIL), a movement of Alaska Natives of the Inupiat, 
Yupik, Aleut, Tlingit, Eyak, Gwich'in and Denaiana Athabascan Tribes 
who are challenging the oil and mining industries and demanding our 
rights to a safe and healthy environment conducive to subsistence. We 
aim to address the human and ecological health impacts brought on by 
unsustainable development practices of the fossil fuel and mineral 
industries, and the ensuing effect of catastrophic climate change. We 
strongly support the self-determination right of tribes in Alaska, as 
well as a just transition from fossil fuel and mineral development to 
sustainable economies and sustainable development.
    The three core focus areas of REDOIL are:
        <bullet>  Climate Change and Climate Justice
        <bullet>  Ecological and Human Health
        <bullet>  Sovereignty and Subsistence Rights
    H.R. 3973 contains sweeping changes that would diminish review of 
impacts from oil, gas, coal, shale gas, oil shale, and other energy 
projects, on Indian lands, Alaska Native Claims Settlement Act (ANCSA) 
corporate lands, and the cumulative impacts across even broader areas. 
Oil and natural gas exploration, development and production, coal 
mining and generation, shale gas, and other energy production poses 
risks to air and water quality that damage human health, and 
devastating environmental and cultural impacts of Native Americans, as 
we describe below.
    We recognize the self-determination framework for federally 
recognized tribal governments and tribal members, and it is important 
to ensure that energy and other development decisions adequately 
address all of the impacts of those decisions, some of which occur well 
beyond the project site, and that the public has the ability to 
participate.
    Expansive provisions of H.R. 3973 would decrease tribal sovereignty 
of federally recognized tribes in Alaska to uphold their obligations to 
current and future generations to sustain culture, traditional way of 
life, and health and quality of their traditional lands.
    As described below, the entire bill should clearly exclude Alaska 
Native Claims Settlement Act corporations with respect to how it 
defines ``Indian Tribe'' and ``Indian land'' in order to uphold tribal 
sovereignty.
    We are concerned that sections 5 and 8 of H.R. 3973 eliminate broad 
public participation for projects on Indian land and will have a 
significant chilling effect on the ability of the public (including 
tribal members) to seek judicial review of a decision related to an 
energy project on Indian land or proposed by (or done in partnership 
with) an Indian tribe. We are also concerned that section 3 on 
appraisals would give sovereign powers for land valuations to ANCSA 
corporations, and provide detail on the bill's language later in this 
letter. Therefore REDOIL and our members strongly reject the provisions 
of H.R. 3973 we highlight in this letter.
    Next we provide the broader context under which this legislation 
must be viewed regarding fossil fuel development and impacts on 
Alaska's indigenous peoples. Finally, we will provide detailed comments 
on specific provisions of the bill.
Fossil Fuel Development and Alaska's Indigenous Peoples
    Global warming is leading to shifts in the world environment that 
are resulting in a significant increase in devastating and alarming 
weather patterns. Effects of global warming in Alaska alone include 
altered weather patterns, more severe storms, erosion of coastal areas, 
greater precipitation, thawing permafrost, melting sea ice, receding 
glaciers, increased instance of spruce bark beetle infestation, 
increased and severe forest fires, declining fish populations, 
migratory and habitat disruptions of key subsistence resources, and 
disruption of all natural cycles of life.
    Climate change impacts lead to loss of subsistence resources and 
rights, relocation of communities, and to negative social statistics 
related to human health. One of the major impacts is Alaska Native 
communities are struggling with forced relocation as coastlines no 
longer protected by sea ice erode, they in essence are now becoming 
environmental refugees or climate refugees. Alaska truly is the canary 
in the mine when it comes to Climate Crisis, and the canary is on life 
support.
    The current impacts of climate change on Alaska's Indigenous 
peoples are perpetuated by the incessant demand for energy to feed the 
high consumption appetite of America. Current energy policy 
disproportionately targets our homelands and marine ecosystems and 
continually puts our subsistence way of life at risk. The sovereign 
authority of Alaska Native federally-recognized Tribes is undermined as 
our ancestral ways of life and homelands are imperiled by devastating 
proposals for further resource extraction of fossil fuels and minerals. 
The devastation is compounded by climate change and vice versa.
    The reality in Alaska is that federally-recognized Tribes are 
defending the remaining areas that provide for our subsistence way of 
life in the face of massive proposals to exploit the resources despite 
the impact of loss to our subsistence and cultural lifestyles that such 
projects pose. As we read through the Native American Energy Act it is 
very clear that the intent of this bill is to diminish our capacity to 
defend our homelands and marine ecosystems from unjust energy proposals 
within our subsistence use areas. The Alaska Native Claims Settlement 
Act is one unjust act that streamlined massive exploitation of our 
homelands in Alaska as well as left a legacy of pollution within Alaska 
Native ancestral territories. To make the point, first you must 
understand ANCSA in the view of Sovereign Tribal Governments.
    The discovery of oil at Prudhoe Bay established an alignment of the 
oil companies and the US federal government to promote their combined 
interests. This alliance provoked an urgency to settle Indigenous land 
claims in Alaska in order to provide a right-of-way for the Trans-
Alaska Oil Pipeline. The US Congress unilaterally passed the Alaska 
Native Claims Settlement Act (known as ANCSA) in 1971 to legitimize US 
ownership and governance over Indigenous peoples, our lands, and access 
to our resources. The lands, which were taken from us through this Act, 
became ``corporate assets'' of newly created state chartered limited 
liability for-profit Native Regional and Village corporations. ANCSA 
conveyed indigenous ancestral lands to corporations instead of the 
existing Indigenous traditional governing structures because our 
governments were perceived as an impediment to assimilation.
    ANCSA changed the dynamics of how Alaskan Natives relate to the 
land, but also how we relate to one another. State and Federal promoted 
economic development interests are aligned with these Native 
corporations that pursue lands and marine ecosystems for economic gain 
despite adamant opposition by Alaska Native Tribes whose subsistence 
way of life is endangered by economic development proposals.
    The difference between the Native Corporations and Tribes is very 
simple:
    The corporation's bottom line is profit at all cost and business 
interests. Whereas for Alaska the Sovereign federally recognized Tribal 
Governments bottom line is the health and well being of the peoples. 
These are two very different and conflicting values.
    If the effort to recognize Corporations as Tribes is allowed within 
Energy Policy, you basically will have the ``fox guarding the 
henhouse'' in Alaska. H.R. 3973 gives authority illegitimately to 
entities that by their very nature are the very ones all too often in 
partnership to exploit our homelands and resources for profit which 
undermines and threatens our ``subsistence'' way of life. No 
Corporation should be granted sovereign status; it can be likened to 
granting BP or Shell Oil sovereignty. In reality, this insidious 
language will perpetuate and streamline continued assaults on 
subsistence use lands by Native Corporations, only now there will be 
far less oversight and the public will be shut out of the process to 
give input to protect human and ecological health.
    This language diminishes and undermines Sovereign Tribes here in 
Alaska as well as the Federal Trust Responsibility. To correct this, 
this language must be stricken from the Bill immediately. The 
definition of Tribes should only be for Federally Recognized Tribes not 
ANCSA Corporations throughout this bill. H.R. 3973 dishonors the 
Sovereign Tribes of Alaska as well as our ancestors and future 
generations and puts our subsistence homelands at risk further.
Specific Comments
    In order to uphold the Tribal sovereignty of the federally 
recognized tribes in Alaska and their obligations to current and future 
generations to sustain culture, traditional way of life, and health and 
quality of their traditional lands, it is critical that ANCSA 
corporations are not considered Tribes.
        <bullet>  In key sections of this bill, ``Indian tribe'' and 
        ``Indian land'' are defined to also encompass Alaska Native 
        Claim Settlement Act (ANCSA) corporations. The ANCSA 
        Corporation lands are not owned by a federally recognized 
        tribal government, but are owned by for-profit corporations 
        that are state-chartered entities.
        <bullet>  In particular, Section 3--Appraisals, Section 5--
        Environmental Reviews, and Section 8--Bonding Requirements, 
        give inappropriate authorities and shield for-profit ANCSA 
        corporations from federal responsibilities including to address 
        potential impacts from major project to the human and natural 
        environment.
        <bullet>  For the entire bill, ``Indian Tribe'' and ``Indian 
        land'' should clearly exclude ANCSA corporations by definition.
    We have specific concerns about three sections of H.R. 3973, 
Sections 3, 5, and 8. Two sections of the bill (Sections 5 and 8) would 
severely restrict public involvement in the development not only in 
oil, gas, coal and other energy developments but also any major project 
on Indian lands--including ANCSA corporation lands--and also insulate 
energy projects on such lands, or projects done in partnership with an 
Indian tribe on non-Indian lands, from judicial review.
    This bill would have a major chilling effect on public 
participation in environmental reviews that provide important 
information in the decision-making process. It would also harm the full 
rights of tribal members to participate and seek legal redress in major 
actions that impact their subsistence resources, traditional practices 
and livelihood, cultural protection, human health, and human rights.
Section 3--Appraisals
        <bullet>  The definition of ``Indian tribe'' and ``Indian 
        land'' in this section should not include ANCSA Corporations.
        <bullet>  It is inappropriate for the state-chartered ANCSA 
        corporations to gain full authority to conduct appraisals, 
        especially in the context of land exchanges involving the 
        federal government trading land with an ANCSA corporation.
        <bullet>  Many land swaps have been very controversial in 
        Alaska. For example, the recent proposed Yukon Flats National 
        Wildlife Refuge land trade in Alaska that had been proposed by 
        an ANCSA Corporation was opposed by the largest tribe in the 
        area, and was ultimately halted by the federal government. 
        Other controversial land trades and proposals in the past 
        involved the Arctic National Wildlife Refuge.
Section 5--Environmental Reviews
        <bullet>  This section makes major changes to the National 
        Environmental Policy Act of 1969 (NEPA). This is the 
        fundamental environmental law for public involvement in 
        government decisions from projects affecting the natural and 
        human environment, and ensuring informed decision-making.
        <bullet>  Under Section 5, the EIS for any major federal action 
        on Indian lands (including ANCSA corporation lands) by an 
        Indian Tribe (including ANCSA corporations) ``shall only be 
        available for review and comment by the members of the Indian 
        tribe and by any other individual residing within the affected 
        area.'' There is a question whether such EIS's would still be 
        available to the public and other important entities?
        <bullet>  Most people would be cut out of the process of review 
        and comment on EISs, and severely limits how the public can 
        participate in informing the decision making process, as well 
        as later judicial review (which is then further restricted in 
        Section 8).
        <bullet>  The public, or even tribes located farther from the 
        project, who could be affected by air or water pollutions, 
        spills, health, or effects to resources they depend on such as 
        migratory species, would also be excluded from review and 
        comment on cumulative impacts under Section 5.
        <bullet>  If a major energy or other project is proposed on 
        ANCSA corporation lands, would federally recognized tribal 
        members, or long-time community members who are not residing in 
        the affected area continue to be able to review and comment on 
        EISs for projects that affect the resources they depend on?
Section 8--Bonding and other limitations of Judicial Review
        <bullet>  The section seeks to insulate oil, gas, coal, shale 
        gas, and other energy projects on Indian lands, or those 
        projects undertaken in partnership with an Indian tribe on any 
        lands, from judicial review.
        <bullet>  This is poor policy to eliminate the critical check 
        on oil, gas, coal, and other major energy projects held by the 
        federal government to uphold the requirements of the law that 
        are essential for protecting the environment, human health, and 
        culture.

           Members of the public who bring legal challenges could be 
        potentially liable for massive monetary damages if they do not 
        ultimately prevail;

           Tribal members or others concerned about impacts would have 
        to post expensive, hard-to-get bonds;

           Tribal members and others would have a harder time getting 
        legal representation because of changes to public interest 
        legal fee rules.

        <bullet>  Section 8, subsection (d)(3) defines ``energy related 
        action'' broadly to include projects undertaken by ``any person 
        or entity to conduct activities on Indian land'' as well as 
        projects undertaken by ``any Indian Tribe, or organization of 
        two or more entities, at least one of which is an Indian tribe, 
        to conduct activities. . .regardless of where such activities 
        are undertaken.''
        <bullet>  This provision invites partnering of energy 
        corporations with Indian tribes for the purpose of limiting 
        judicial review of projects.
        <bullet>  Insulating these decisions from review would thus 
        only lead to unsupported, poorly analyzed, or irrational, 
        agency decisions.

Conclusions
    This bill is a sweeping green light for a broad range of ``energy 
related actions'' which include exploration, development, production or 
transportation of oil, gas, coal, shale gas, oil shale, geothermal 
resources, wind or solar resources, underground coal gasification, 
biomass, or the generation of electricity.
    Corporate interests and energy development in Indian Country should 
not compromise or be prioritized over our economic, social, and 
cultural rights. Alaska Natives and all indigenous peoples within the 
U.S. are now more endangered than ever by national energy development 
policy proposals within the Native American Energy Act H.R. 3973.

Respectfully,

Faith Gemmill, Executive Director
Resisting Environmental Destruction on Indigenous Lands (REDOIL)
                                 ______
                                 

Statement submitted for the record by the National Congress of American 
           Indians, Embassy of Tribal Nations, Washington, DC

Introduction
    The National Congress of American Indians (NCAI) is the oldest and 
largest national organization of American Indian and Alaska Native 
tribal governments. Since 1944, tribal governments have gathered as a 
representative congress through NCAI to deliberate issues of critical 
importance to tribal governments. NCAI is pleased to submit testimony 
for the Subcommittee on Indian and Alaska Native Affairs to supplement 
the legislative hearing on the Native American Energy Act (H.R. 3973).
    NCAI thanks the Subcommittee on Indian and Alaska Native Affairs 
for their attention to the matter of tribal energy and finding 
legislative solutions to make this important sector of tribal economies 
viable. With improved legislation, tribes are poised to engage in the 
energy sector with greater sophistication and self-determination. 
Legislative action is crucial to increasing tribal ownership and 
control over their own resources, and ensuring that those resources 
help provide for the future of Indian Country.
    An NCAI resolution regarding energy development is attached. PDX-
11-072, describes the tribal energy issues most important to tribes and 
supports provisions included in the bill being considered in the 
Senate, The Indian Tribal Energy Development and Self-Determination Act 
Amendments (S. 1684). In this testimony, NCAI would like to outline 
support for and views on the Native American Energy Act (H.R. 3973) as 
well as key provisions that NCAI would like to see added.

Analysis of Current Law and Regulations
    The barriers to tribal energy development have been discussed at 
length during round tables and hearings conducted by the Department of 
Energy (DOE) and the Senate Committee on Indian Affairs. Examples of 
barriers include cumbersome bureaucratic processes, such as the 
requirement that tribes and tribal businesses obtain the approval of 
the Secretary of the Department of the Interior (DOI) for almost every 
step of energy development on tribal lands, including the approval of 
business agreements, leases, rights of way and appraisals. Other major 
barriers include tribes' and tribal businesses' lack of access to 
financing and transmission, and unfair treatment regarding Application 
for Permit to Drill (APD) fees as applied on tribal lands.
    Title V of the Energy Policy Act of 2005, the ``Indian Tribal 
Energy Development and Self-Determination Act of 2005,'' (the ``Energy 
Policy Act of 2005'') provides for tribal energy self-determination 
through the creation of tribal energy resource agreements (TERAs). 
Tribes have not found TERAs in their current form to provide a suitable 
means of achieving energy self-determination. Both the Senate Committee 
on Indian Affairs and the House Subcommittee on Indian and Alaska 
Native Affairs are currently considering legislation that NCAI believes 
would remedy the barriers to tribal energy development in the Act.

Amendments to Energy Policy Act 2005 to make TERAs usable
    NCAI believes that the TERA process, when amended, could offer a 
successful solution to many of the administrative and regulatory 
hurdles to tribal energy development. TERAs would help tribes corral 
the sufficient capacity to take on energy development and skip many of 
the bureaucratic obstacles. To date, no Indian tribe has successfully 
navigated the burdensome TERA process. Helpful legislation would 
streamline the criteria for approval by setting time limits for the 
approval process, and shifting the burden from the Indian tribe to the 
federal agency to disapprove a TERA application, of course 
necessitating the tribe meeting several core criteria. After 
demonstrating sufficient capabilities, tribes would be able to proceed 
without the DOI Secretary's review for leases, business agreements and 
rights of way. NCAI is also strongly supportive of the proposal for 
Tribal Energy Development Organizations, this is a mechanism that would 
enable Indian tribes to form partnerships with established energy 
development companies and take advantage of their expertise and capital 
in developing the myriad of conventional and emerging energy resources 
on Indian reservations.

Agency Collaboration (DOE and DOI)
    NCAI would like to see a mandate for collaboration between the DOI 
Office of Indian Energy and Economic Development (OIEED) and the DOE 
Office of Indian Energy Policy and Programs (OIEPP) on matters 
involving tribal energy development. Tribes would greatly benefit from 
the combined process expertise of OIEED and the technical expertise of 
OIEPP. Recognizing the value of the technical expertise that DOE, 
through OIEPP, has to offer, NCAI strongly recommends mandating DOE 
make its expertise available to tribes. The DOE OIEPP is making 
critical strides to leverage the immense expertise of the DOE to 
address the challenges facing tribal energy development and NCAI 
believes it is imperative that this work continue regardless of any 
potential change in administration.

Key Barriers identified in the NCAI resolution
    The NCAI resolution states opposition to any Application for Permit 
to Drill (APD) fees levied by the DOI Bureau of Land Management on 
tribal land because the APD fees create a significant disadvantage by 
burdening costs of exploration on tribal lands relative to the costs 
for exploration on neighboring lands. H.R. 3973 directly removes APD 
fees, however other barriers remain. The NCAI resolution also 
recognizes the benefit of making tax incentives for renewable energy 
projects that are tradable and assignable for use by tribes and 
improving transmission access.
    Tribes are commonly interested in developing their renewable energy 
resources for the benefits of air and water quality. However, due to 
their tax exempt status as sovereigns, use of federal tax incentives 
for renewable energy becomes a complicated issue. NCAI would like to 
see the renewable energy tax credits made assignable and tradable to 
help tribal renewable energy gain traction with real world investment 
and finance entities. Similarly, NCAI would like to see Section 17 
Corporations, which are federally-chartered corporations formed under 
Section 17 of the Indian Reorganization Act (IRA), become statutorily 
eligible for the 1603 Treasury grants for renewable energy, regardless 
of appropriations levels for that program.
    Finally, for tribes to fully realize the scope and benefits of 
energy development on tribal lands, tribes need access to electric 
transmission. NCAI recommends an amendment to make the Energy Policy 
Act of 2005 binding so that power marketing administrators offer 
technical assistance to tribes seeking to use high voltage transmission 
lines. NCAI would also like to see federal power procurement leveraged 
for the benefit of tribal power producers.

Indian Coal Production Tax Credit
    The Indian Coal Production Tax Credit (ICPTC) has helped tribal 
coal development remain competitive to ensure that much-needed revenue 
remains in place for tribal governments. Specifically, the Crow Nation 
relies on the ICPTC to stay in business due to the price differential 
imposed on coal with higher sulfur (SO2) emissions. This price 
differential was created by Title IV of the Clean Air Act and 
neutralized by the Indian Coal Production Tax Credit established in the 
2005 Energy Policy Act.
    The 2005 Energy Policy Act included the Indian Coal Production Tax 
Credit, which began in tax year 2006, yet unfortunately sunsets 
December 31, 2012. ``Indian coal'' is coal produced from reserves owned 
by an Indian Tribe, or held in trust by the United States for the 
benefit of an Indian tribe, as of June 14, 2005. The tax credit is 
calculated by totaling the number of tons of Indian coal produced and 
sold, then multiplying that number by a factor. The Energy Policy Act 
2005 provides a factor of $1.50 per ton between 2006 and 2010 and $2.00 
between 2010 and December 31, 2012.
    NCAI believes that the Indian Coal Production Tax Credit should be 
made permanent and allowed for use against the alternative minimum tax. 
Additionally, the requirement that the coal be sold to an unrelated 
person should be amended to allow and encourage facilities owned, in 
whole or in part, by Indian nations to participate and benefit from the 
credit.

Carcieri Fix
    NCAI supports a legislative fix to the Supreme Court's 2009 
decision in Carcieri v. Salazar. The Carcieri decision erodes the trust 
responsibility of the federal government and harms future tribal energy 
development by creating uncertainty for investors and challenging the 
authority of the Department of the Interior to take land into trust for 
tribes. Tribal governments require trust land on which to develop their 
resources including energy. NCAI supports a legislative fix to the 
Carcieri decision that does not exclude Alaska Native tribes.

Statutory Assertion of Tribal Taxation Authority
    Energy development provides critical revenue needed by tribes to 
provide governmental services to tribal members. Legislative action, 
affirming Indian tribes' inherent taxing authority over tribal lands 
would enable revenue from energy development to be fully invested in 
quality-of-life improvements for tribal members rather than being 
diminished by state taxation.

Small Scale Energy Implementation
    NCAI recommends the creation of legislation to support 
implementation of small scale renewable energy. This would be 
particularly helpful for Alaska Native villages that pay extremely high 
prices for heat and power. Small scale renewable energy can reduce and 
stabilize energy bills by using wind and solar resources. The DOE 
Tribal Energy Program has facilitated the planning and initial 
implementation of small projects all over Alaska and the United States 
and these projects help greatly with high utility costs, often in very 
innovative ways.

Conclusion
    NCAI appreciates the Subcommittee's attention to H.R. 3973 and 
urges timely action so that a long awaited tribal energy bill can be 
passed during this session.
                                 ______
                                 

                                 [GRAPHIC] [TIFF OMITTED] T2944.008
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2944.009
                                 
                               <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
